<html>
<title> - THE FUTURE OF SOCIAL SECURITY FOR THIS GENERATION AND THE NEXT: PERSONAL SAVINGS ACCOUNTS AND INDIVIDUAL-OWNED INVESTMENTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    THE FUTURE OF SOCIAL SECURITY FOR THIS GENERATION AND THE NEXT: 
       PERSONAL SAVINGS ACCOUNTS AND INDIVIDUAL-OWNED INVESTMENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 1998

                               __________

                             Serial 105-51

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
52-578 cc                   WASHINGTON : 1999



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                    JIM BUNNING, Kentucky, Chairman

SAM JOHNSON, Texas                   BARBARA B. KENNELLY, Connecticut
MAC COLLINS, Georgia                 RICHARD E. NEAL, Massachusetts
ROB PORTMAN, Ohio                    SANDER M. LEVIN, Michigan
JON CHRISTENSEN, Nebraska            JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               XAVIER BECERRA, California
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of June 8, 1998, announcing the hearing.................     2

                               WITNESSES

Boskin, Hon. Michael J., Stanford University.....................    18
Burtless, Gary, Brookings Institution............................    74
Cavanaugh, Francis X., Chevy Chase, MD...........................    29
Diamond, Peter A., Massachusetts Institute of Technology.........    24
Edelman Financial Services, Inc., Ric Edelman....................    82
Kolbe, Hon. Jim, a Representative in Congress from the State of 
  Arizona........................................................    43
National Association of Manufacturers, Paul R. Huard.............    89
Tritch, Teresa, Money Magazine...................................    86
Watson Wyatt Worldwide, Sylvester J. Schieber....................    35
White, Lawrence J., New York University..........................    69

                       SUBMISSIONS FOR THE RECORD

Institute for Research on the Economics of Taxation, Stephen J. 
  Entin, statement...............................................    98
Milliman & Robertson, Inc., New York, NY, Michael J. Mahoney, 
  letter and attachments.........................................    99


 THE  FUTURE  OF  SOCIAL  SECURITY  FOR THIS GENERATION AND THE NEXT: 
       PERSONAL SAVINGS ACCOUNTS AND INDIVIDUAL-OWNED INVESTMENTS

                              ----------                              


                             JUNE 18, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:02 p.m., in 
room 1100, Longworth House Office Building, Hon. Jim Bunning 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE

June 8, 1998

No. SS-18

                   Bunning Announces Eleventh Hearing

                      in Series on ``The Future of

           Social Security for this Generation and the Next''

     Congressman Jim Bunning (R-KY), Chairman, Subcommittee on Social 
Security of the Committee on Ways and Means, today announced that the 
Subcommittee will hold the eleventh in a series of hearings on ``The 
Future of Social Security for this Generation and the Next.'' At this 
hearing, the Subcommittee will examine in detail the structure of 
personal savings accounts (PSAs) within the Social Security system and 
the effects individual-owned investments would have for retirees, 
financial markets, the investment community, PSA investors, and 
businesses, both large and small. The hearing will take place on 
Thursday, June 18, 1998, in the main Committee hearing room, 1100 
Longworth House Office Building, beginning at 1:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include economic, investor, investment, and program 
experts, along with business representatives. However, any individual 
or organization not scheduled for an oral appearance may submit a 
written statement for consideration by the Committee and for inclusion 
in the printed record of the hearing.
      

BACKGROUND:

      
    Possible establishment of PSA's as an element of Social Security 
modernization has added an additional level of debate regarding the 
system's solvency. Two of the three plans advanced by the 1997 report 
of the Advisory Council on Social Security proposed PSA's as a 
substitute for the shrinking resources available to traditional social 
insurance.
      
    Since that time, Members of Congress of both parties, along with 
research and public interest groups have set forth plans containing 
PSA's as an integral part of Social Security reform. During the 
President's first forum on Social Security held in Kansas City, the 
President, Members of Congress, and social insurance experts agreed 
PSA's deserved further consideration.
      
    Giving individuals investment choices not only would alter the role 
of participant workers, but also would incorporate a number of other 
institutions which currently have no or limited involvement in today's 
traditional Social Security system. Private capital markets, investment 
companies, employers, and certain Federal agencies would need to adapt 
to become stakeholders in the system.
      
    To date, proposals have varied widely in structure and in recent 
months, more details have been reported for public examination. Several 
such proposals envision personal investments made through a 
centralized, quasi-government organization, similar to the Federal 
Employees Thrift Fund. The choice of such investments would be limited 
to ``passive'' vehicles, such as stock and bond indexes, to lessen the 
influence of government in the private capital markets and businesses. 
Other models propose investments more akin to the current Individual 
Retirement Accounts, where each investing worker would choose among a 
larger array of financial assets through private investment companies. 
Each model plan also varies in the way workers receive their funds upon 
retirement or disability.
      
    The cost, operation, and regulation of these two diverse models 
vary considerably as do the opportunities and risks for the 
participants, both as workers and as retirees. In previous hearings, 
the Subcommittee has heard from authors of PSA plans. In the upcoming 
hearing, economic experts and representatives of institutions who could 
become vital components of a new system will discuss the implications 
for the economy and stakeholders.
      
    In announcing the hearing, Chairman Bunning stated: ``Personal 
savings accounts may be an answer, especially for young people, to meet 
the challenge of providing for their own retirement. Someone once said, 
`You cannot plough a field by turning it over in your own mind.' We 
need to have accurate and expert information about the important 
structural elements needed to ensure any new system would actually 
work.''
      

FOCUS OF THE HEARING:

      
    The Subcommittee will receive the views of experts in the field of 
investments and capital markets and representatives of institutions 
that might become participants in a PSA system. Members of the 
Subcommittee would like to hear from each witness regarding: (1) the 
effect of Social Security PSA investments on the capital markets, (2) 
the cost and administration of PSA's, (3) needed investor education, 
and (4) the role of employers, both large and small, in a PSA system.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Thursday, July 
2, 1998, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Social Security office, room B-316 
Rayburn House Office Building, at least one hour before the hearing 
begins.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>

    Chairman Bunning [presiding]. The Subcommittee will come to 
order.
    Today marks our 11th hearing in a series on the future of 
Social Security for this generation and the next. At our last 
hearing, we heard from a number of those creators of PSAs, 
personal savings account, proposals who see the accounts as a 
key component in Social Security reform. Today, we'll hear from 
experts in the economy, the field of investments and capital 
markets, and representatives of institutions who would be key 
players in establishing a personal savings account system.
    Personal savings account may be an answer, especially for 
young people, to meet the challenge of providing for their own 
retirement. Someone once said, ``You cannot plow a field by 
turning it over in your own mind.'' We need to have accurate 
and expert information about the important design elements 
needed to ensure any new system would actually work.
    While the structure for individual investment is critical, 
the success of any system will depend upon cost effective and 
responsive administration. Critical to that operation will be 
the institutions, many not involved in the Social Security 
system today, that would be the nexus between the participating 
worker and the government agency that administers the overall 
retirement systems.
    To ensure a successful operation, the system of personal 
accounts must have minimal and equitable administrative cost, 
create no undue burden on employers, and make the operation of 
the system and the obligation of the investor easy to 
understand and use for the participants.
    I look forward to hearing the advice of our witnesses today 
to help us determine the detailed and practical options that 
would be needed to resolve in designing a working of a personal 
savings account component as part of Social Security reform.
    In the interest of time, it is our practice to dispense of 
opening statements, except for the Ranking Democrat Member. All 
Members are welcome to submit statements for the record. I 
yield to Congressman Kennelly for any statement she wishes to 
make.
    Mrs. Kennelly. Thank you, Chairman Bunning. And as you have 
noted, this is the 11th hearing on the future of Social 
Security that this Subcommittee has held. And we've held 
hearings on the broad issues related to Social Security, and on 
specific proposals to change the system.
    In my view, our purposes need to be to strengthen Social 
Security for the future. We need to assure that future 
generations of workers, retirees, and their families continue 
to receive an adequate, guaranteed retirement benefit from 
Social Security. We need to assure individuals that they will 
receive a benefit that is protected against inflation and will 
last a lifetime.
    Social Security provides an important protection for 
widows, orphans, and the disabled. We need to make sure that 
these protections are not eroded. We need to assure that we do 
not jeopardize benefits for women who have stayed home for part 
of their careers to raise children, or to take care of older 
parents.
    And finally, we need to assure that any reforms we adopt do 
not benefit higher income individuals at the expense of middle- 
and low-income individuals. These are important principles that 
we have to keep in mind as we progress with our hearings. We 
must face up to the demographic challenges before us, but we 
must not undermine the protections afforded by the most 
efficient program of this century.
    Our hearing today focuses on the effects of individual 
accounts. A study issued this week by CRS, Congressional 
Research Service, analyzes the impact that some individual 
account plans will have on Social Security benefits and 
protections. The study calculates the size of Social Security 
benefit cuts that will occur under three different Social 
Security reform plans. The study finds that under a plan in 
which 2 percentage points of Social Security revenue is 
diverted into individual accounts, Social Security benefits 
must be cut significantly.
    Today's 38-year-old retiring at 65 in the year 2025 would 
have a 33-percent reduction in his Social Security benefit. 
Even if an individual account provided an extraordinary rate of 
return equal to the past performance of the Standard & Poor's 
index, the accumulation in the account would still leave the 
38-year-old considerably worse off than he would be today.
    Our witnesses today will discuss the impact of individual 
accounts on the economy and on individuals. We must take a 
careful look at all of these ramifications of these plans 
before we will act. I look forward to hearing the testimony of 
our witnesses. They will help us examine a wide variety of 
topics relating to the impact of individual investment 
accounts. We will have the opportunity to learn whether 
individual accounts can--in fact--create wealth for individuals 
and for the country; whether administrative costs will increase 
with the creation of 140 million individual investment 
accounts; and whether those administrative costs will reduce 
the level of retirement income for average Americans. Can a 
model like the Federal Thrift Savings Plan give us any incite 
into these issues? How would employers handle these accounts? 
Thank you, Mr. Chairman, very much.
    Chairman Bunning. Thank you very much. I would like to 
enter into the record, by unanimous consent, the Heritage 
Foundation paper--white paper--on the CRS Social Security study 
at this time.
    [The information follows:]

Analyzing  the  CRS  Social  Security  Study  
by William W. Beach and Gareth G. Davis

    On June 18, 1998, the Congressional Research Service (CRS) 
released an analysis of major Social Security reform 
proposals.\1\ The study, requested by Representative Charles 
Rangel (D-NY), purports to show that a Social Security reform 
plan proposed by Senators Daniel Patrick Moynihan (D-NY) and 
Robert Kerrey (D-NE), and a similar plan by Senators Judd Gregg 
(R-NH) and John Breaux (D-LA) and Representatives James Kolbe 
(R-AZ) and Charles Stenholm (D-TX) (based on a proposal by the 
National Commission on Retirement Policy [NCRP]), will result 
in large benefit cuts for future retirees. This study has been 
used to give the impression that under these two plans--which 
both allow for the investment of two percentage points of 
payroll taxes in private retirement accounts--workers would be 
left with lower retirement incomes. But in accordance with the 
instructions given by Representative Rangel, the CRS report 
looks only at Social Security benefit changes and ignores the 
offsetting retirement income that future retirees would receive 
from their private retirement accounts.
---------------------------------------------------------------------------
    \1\  David Koitz, ``Benefit Analysis of Three Recent Social 
Security Reform Proposals,'' Congressional Research Service Memorandum 
for Congress, June 16, 1998. The CRS examined three reform proposals, 
including one advanced by Robert M. Ball, a former commissioner of 
Social Security. The Center for Data Analysis examined only the 
proposals by Members of Congress: the Moynihan-Kerrey and the Gregg-
Breaux-Kolbe-Stenholm/ NCRP proposals.
---------------------------------------------------------------------------
    The report's author drew attention to these ``important 
omissions'' in the memorandum of transmission to Representative 
Rangel:
    As your staff specified, the analysis is confined to the 
potential reductions in Social Security benefits prescribed by 
the various provisions of the three reform packages. 
Accordingly, the memorandum does not examine the impact of the 
changes in payroll taxes included in the packages, the 
potential benefits or annuities that may result from the 
``personal savings'' components of the packages, nor...the 
elimination of the Social Security retirement earnings test.
    Those using the report to suggest it ``proves'' 
privatization would hurt most retirees ignore this crucial 
omission from the analysis. In fact, if the study is adjusted 
for the omission of personal savings income, it shows the 
opposite.

            A Statistical Analysis of the Report's Findings

    To give a proper picture of the effects of these plans on 
the retirement income of workers, analysts from The Heritage 
Foundation's Center for Data Analysis calculated the amount 
that low-, average-, and maximum-wage workers would accumulate 
in their private accounts under those two plans. The results of 
the Heritage study, summarized in Tables 1 through 3, 
demonstrate that under both plans, workers would be likely to 
accumulate large amounts in their private accounts by 
retirement. These funds would be available as retirement income 
at age 65.
    Table 1 shows the amount that low-, average-, and maximum-
income 39-year-old workers would accumulate in their accounts 
by their retirement in 2025 at age 65. Under the Moynihan-
Kerrey plan, a low-wage worker (earning 45 percent of the 
average) could expect to accumulate $31,260 ($12,874 in 1998 
inflation-adjusted dollars) by retirement if he or she invested 
in an ultra-safe portfolio made up of 50 percent U.S. Treasury 
Bonds and 50 percent blue-chip stocks. With a similar 
portfolio, the Gregg-Breaux-Kolbe-Stenholm/NCRP plan would 
enable the same low-wage worker to accumulate $37,518 ($15,451 
in 1998 inflation-adjusted dollars) by retirement. With a 50 
percent bond/50 percent equity portfolio, an average-wage 
worker would accumulate $69,467 ($28,608 in 1998 dollars) by 
retirement under the Moynihan-Kerrey plan. This same worker 
would accumulate $83,373 ($34,335 in 1998 dollars) under the 
Gregg-Breaux-Kolbe-Stenholm/NCRP plan. A maximum-wage worker 
would accumulate $168,078 ($69,219 in 1998 dollars) under the 
Moynihan-Kerrey plan and $201,726 ($83,076 in 1998 dollars) 
under the Gregg-Breaux-Kolbe-Stenholm/NCRP proposal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 2 shows the annual retirement income that would be 
likely to be generated by annuitizing these accumulations at 
retirement. Under the Moynihan-Kerrey plan and with a mixed 
portfolio of equities and bonds, the low-wage worker's 
portfolio could be expected to generate $2,909 ($1,198 in 1998 
dollars) per annum; under the Gregg-Breaux-Kolbe-Stenholm/NCRP 
plan, it would generate $3,491 ($1,438 in 1998 dollars) in 
annual income. With a similar portfolio, the average-wage 
worker's account could be expected to earn $6,464 ($2,662 in 
1998 dollars) per year under the Moynihan-Kerrey proposal and 
$7,758 ($3,195 in 1998 dollars) under the Gregg-Breaux-Kolbe-
Stenholm/NCRP plan.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 3 shows the net overall effect on annual retirement 
income after offsetting lower Social Security benefits with 
retirement income from private savings accounts. With a mixed 
portfolio and assuming annuitization of the retirement account, 
the retirement income received by a low-income worker would 
increase by 4.9 percent over what is promised by Social 
Security under the Moynihan-Kerrey plan and by 6 percent under 
the Gregg-Breaux-Kolbe-Stenholm/NCRP plan. Under the same 
assumptions, retirement income for an average-wage worker would 
increase by 10.4 percent over Social Security's benefits under 
the Moynihan-Kerrey plan but fall 7.3 percent under the Gregg-
Breaux-Kolbe-Stenholm/NCRP plan. For a maximum-income worker, 
retirement income would increase by 26.3 percent under the 
Moynihan-Kerrey plan and by 0.8 percent under the Gregg-Breaux-
Kolbe-Stenholm/NCRP plan.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As this analysis shows, the retirement income of a low-wage 
worker would be higher than under current law under every 
investment portfolio when earnings from the worker's private 
account are included.
    Under both the Moynihan-Kerrey and Gregg-Breaux-Kolbe-
Stenholm/NCRP plans, a worker earning 45 percent of the average 
wage could expect to see his or her retirement income increase 
between 5 percent and 6 percent with a mixed portfolio of bonds 
and equities. Under the Moynihan-Kerrey proposal, the 
retirement income of an average-wage worker would be likely to 
increase by between 5.9 percent and 16.4 percent, depending on 
the investment options chosen.
    Average workers would fare less well under the Gregg-
Breaux-Kolbe-Stenholm/NCRP plan, with income falling by 13.4 
percent if the worker invested entirely in Treasury Bonds and 
by 7.3 percent if the worker invested in a mixed bond-equity 
portfolio. If the worker invested entirely in equities, 
however, the income from the private account would more than 
offset the 33 percent reduction in benefits proposed by the 
plan.
    Workers who have incomes above the maximum taxable 
threshold (which in 1998 is $68,400) would do well under the 
Moynihan-Kerrey plan. These workers generally are better off 
under the Gregg-Breaux-Kolbe-Stenholm/NCRP proposal, too, 
except for those who invest their payroll taxes entirely in 
Treasury Bonds; their net change in retirement income is a 
negative 8.4 percent.

                              Note on Risk

    It should be noted that advocates of the current system 
argue that Social Security provides ``guaranteed'' retirement 
benefits compared with the uncertain level of income that 
workers could receive from investing their payroll tax dollars 
privately. In no sense, however, can the benefits offered by 
the current system be held to be ``safe, reliable or 
guaranteed.'' \2\ The Social Security system, as it currently 
exists, is estimated by its own actuaries to be underfunded to 
the amount of $3.7 trillion and thus is financially incapable 
of delivering promised benefits.\3\ Moreover, as the U.S. 
General Accounting Office has noted, if the rate of return on 
equities fell, then not only would private accounts deliver 
less retirement income, but a Social Security trust fund 
invested in equities would be unable to pay benefits.
---------------------------------------------------------------------------
    \2\ Democratic Staff of the House Committee on Ways and Means, 
``Response to the Heritage Report on CRS Study,'' June 18, 1998, p. 1.
    \3\ U.S. Department of the Treasury, 1997 Consolidated Financial 
Statement of the United States Government (Washington, DC: U.S. 
Government Printing Office, 1998), p. 63.
---------------------------------------------------------------------------
    Unlike individually held accounts, moreover, which are 
private property and thus constitutionally protected, the U.S. 
Supreme Court has ruled that Congress can alter Social Security 
benefits.\4\ Workers also run the risk of dying prematurely, 
and thus collecting little or nothing in Social Security 
benefits. Considering today's demographic conditions, a worker 
alive in 1998 and planning to retire at age 65 in 2025 has been 
estimated by the National Center for Health Statistics to have 
a 16 percent chance of dying before even beginning to collect 
retirement benefits.\5\ Only in a small minority of these cases 
will the families of these workers be able to collect Social 
Security benefits.
---------------------------------------------------------------------------
    \4\ Fleming v. Nestor, 363 U.S. 603 [1960].
    \5\ Calculated from National Center for Health Statistics, Life 
Tables--Vital Statistics of the United States 1994 (1998).
---------------------------------------------------------------------------

                          Key Assumptions \6\

    <bullet> Rate of Return on Private Accounts: Heritage 
analysts calculated the rate of return from three investment 
strategies: a portfolio of 100 percent equities, a portfolio of 
100 percent Treasury Bonds, and a portfolio made up of 50 
percent equities and 50 percent Treasury Bonds. Workers are 
assumed to annuitize their accounts at age 65 at the rate of 
return prevailing on long-term Treasury Bonds A nominal rate of 
return of 6.3 percent (2.8 percent when adjusted for inflation) 
on Treasury Bonds was assumed. This is equal to the long-term 
interest rate on U.S. government bonds assumed in the 1998 
Social Security Trustees' report. A nominal rate of return of 
10 percent (6.5 percent after inflation) on equities was 
assumed. This rate is below the 7 percent post-inflation rate 
of return on equities found to exist by the 1994-1996 Social 
Security Advisory Council.\7\ Heritage's assumptions also are 
lower than the long-term historical average yield on equities. 
Between 1926 and 1997 (a period that includes the Great 
Depression and World War II), the rate of return on large 
company equities averaged 11 percent, and the return on small 
company equities averaged 12.7 percent.\8\
---------------------------------------------------------------------------
    \6\ For details on Heritage's calculations of rates of return, see 
William W. Beach and Gareth G. Davis, ``Social Security's Rate of 
Return,'' Heritage Foundation Center for Data Analysis Report No. 
CDA98-01, January 15, 1998.
    \7\ Report of the 1994-1996 Advisory Council on Social Security 
(January 1997).
    \8\ Stocks, Bonds and Bills and Inflation 1998 Yearbook (Chicago, 
IL: Ibbotson Associates,1998), p. 122.
---------------------------------------------------------------------------
    <bullet> Reduction in benefits: The reduction in benefits 
payable to workers retiring at age 65 in 2025 under each of the 
plans was calculated directly from Table 3 of the CRS 
memorandum ``Benefit Analysis of Three Recent Social Security 
Reform Proposals.'' The percentage reductions in this table 
were applied directly against the dollar benefits payable to 
low-, average-, and high-wage workers as published in Table 
III.B5 of the 1998 Annual Report of the Trustees of the Federal 
Old-Age and Survivors Insurance and Disability Insurance Trust 
Funds.
    --William W. Beach is John M. Olin Senior Fellow in 
Economics and Director of the Center for Data Analysis at The 
Heritage Foundation.
    --Gareth G. Davis is a Research Assistant at The Heritage 
Foundation.
      

                                <F-dash>

    Chairman Bunning. We will begin.
    Mrs. Kennelly. Mr. Chairman.
    Chairman Bunning. Yes.
    Mrs. Kennelly. Thank you. I meant to ask that the study 
that I referred to that was requested by Chairman Rangel be 
entered into the record. May I have that entered in?
    Chairman Bunning. Absolutely.
    Mrs. Kennelly. Thank you, Mr. Chairman.
    [The information follows:]

Benefit Analysis of Three Social Security Reform Plans 
by David Koitz, Congressional Research Service, Specialist in Social 
Legislation, Education and Public Welfare Division

    This memorandum is in response to a request for analysis of 
the potential effects on Social Security benefits of three 
recent proposals to reform the Social Security system. These 
proposals include: (1) S. 1792, the Social Security Solvency 
Act of 1998, introduced by Senators Moynihan and Kerrey on 
March 18, 1998, (2) a proposal recommended on May 19, 1998 by 
the National Commission on Retirement Policy (NCRP), a 24-
member panel created under the auspices of the Center for 
Strategic and International Studies, and (3) a recent proposal 
by Robert M. Ball, former Commissioner of Social Security. All 
three proposals would make numerous changes to Social Security, 
on both the tax and benefit sides, and include other provisions 
either mandating or permitting the creation of new personal 
retirement savings accounts. As specified by the requester, the 
analysis is confined to the potential reductions in Social 
Security benefits prescribed by various provisions of the three 
reform packages. Accordingly, the memorandum does not examine 
the impact of the changes in payroll taxes included in the 
packages, the potential benefits or annuities that may result 
from the ``personal savings'' components of the packages, nor 
in the case of S. 1792 and the NCRP plan, the elimination of 
the Social Security retirement earnings test. Analysis of all 
of these would be necessary to gauge the full effects of the 
three plans on the national economy and individual retirement 
income. (A number of technical corrections to the memorandum 
sent to the original requester are reflected in this general 
distribution memorandum).
    For the most part, the information provided in this 
memorandum is based on descriptions and estimates prepared by 
the Office of the Actuary of the Social Security Administration 
(SSA). The NCRP plan described here is one of four proposals 
priced by the actuaries, referred to as the Individual Savings 
Account (ISA) plus 2% plan. It is the one most closely 
resembling the NCRP plan released on May 19, 1998. The 
actuaries' estimates are contained in various memoranda 
summarizing aggregate trust fund impacts (i.e., on overall 
trust fund income and outgo) and illustrative benefit and 
annuity outcomes for workers with different lifetime earnings 
levels. Because the actuarial data are not necessarily 
consistent from one memorandum to another, the reader should be 
advised that this analysis required some interpolation of the 
actuaries' data and should be considered as approximations 
only.

                     Description of the Three Plans

    All three plans include revenue increases and benefit 
reductions designed to bring the Social Security system into 
long-range actuarial balance. The SSA actuaries estimate that 
all would do so under the intermediate assumptions of the 1997 
Social Security trustees' report. All three plans also include 
provisions either permitting or mandating the creation of new 
personal retirement savings accounts. A description of the 
plans as priced out by the actuaries follows.
    S. 1792 reduces the Social Security tax rate by 2 
percentage points of taxable payroll (it is currently 12.4% of 
pay) in the short run--1 percentage point on employee and 
employer each--and then raises it in the long run by 1 
percentage point, bringing it to an ultimate rate 13.4% of pay 
in 2060 and later. Other measures to generate income for the 
Social Security system include: increasing the income taxation 
of Social Security benefits by requiring that benefits be taxed 
in the same fashion as private defined-benefit pension benefits 
(and would be fully effective in 1999); raising the maximum 
amount of earnings subject to Social Security taxation in steps 
to $97,500 in 2003 (under current law, it is estimated to rise 
to $81,900); and extending Social Security coverage to all 
State and local government employees hired after the year 2000. 
It reduces benefits by: gradually increasing the age for full 
Social Security retirement benefits to 68 by 2017 and 
eventually to age 70 by 2065 (under current law the full 
benefit age would rise to 67 by 2027); extending the period 
over which earnings are averaged for benefit computation 
purposes from 35 to 38 years by 2002; and permanently reducing 
Social Security cost-of-living adjustments (COLAs), as well as 
those of other indexed entitlement programs, by 1 percentage 
point per year beginning in 1998. This provision also would 
constrain the current indexing of income tax brackets (which 
would effectively increase income taxes). The bill also would 
eliminate the Social Security retirement earnings test for 
workers 62 and older. It further would permit workers to put 1% 
of pay into a new personal retirement savings account. 
Employers would be required to match these contributions.
    The NCRP plan reduces the Social Security tax rate on 
workers by 2 percentage points and mandatorily redirects the 
proceeds into new personal retirement savings accounts 
(effective for workers under age 55). It raises the Social 
Security system's income by extending Social Security coverage 
to all State and local government employees hired after 1999 
and crediting certain proceeds from the current income tax on 
benefits to the Social Security trust funds that now go to the 
Medicare Hospital Insurance (HI) trust fund. It reduces 
benefits by gradually increasing the age for full Social 
Security benefits to 70 by 2029 and the age for reduced 
benefits to 65 by 2017 (up from 62 under current law). After 
2029, both would be increased by about 2 months every 3 years. 
It also: gradually reduces the top two (of the three) portions 
of the Social Security benefit formula from 32% and 15% 
respectively to 21.36% and 10.01% by 2020 (the first--90%--
bracket would not be changed); gradually reduces the dependent 
spouse's benefit from 50% to 33% of the worker's primary 
benefit; extends the period over which earnings are averaged 
for benefit computation purposes from 35 to 40 years by 2010; 
and reduces Social Security COLAs by .5 percentage points per 
year beginning in 1998. The plan also would eliminate the 
Social Security earnings test for recipients at or above the 
full retirement age (effective in 2003), and create a new 
system of ``minimum'' Social Security benefits for workers with 
80 or more Social Security ``quarters of coverage.''
    The Ball plan increases income to the Social Security 
system by: requiring the investment of part of the Social 
Security trust funds in equities; increasing the income 
taxation of Social Security benefits by requiring that benefits 
be taxed in the same fashion as private defined-benefit pension 
benefits; raising the maximum amount of earnings subject to 
Social Security taxation (such that 87.3% of all earnings in 
covered employment would be taxable); and extending Social 
Security coverage to all state and local government employees 
hired after 1999. It reduces benefits by: extending the period 
over which earnings are averaged for benefit computation 
purposes from 35 to 38 years and permanently reducing Social 
Security cost-of-living adjustments (COLAs) by .3 percentage 
points per year. It also would allow workers to put 2% of pay 
(which would be over and above their Social Security taxes) 
into new personal retirement savings accounts.

     The Impact of the Three Plans on Benefit Expenditures Overall

    The SSA actuaries prepared estimates of the average 75-year 
financial impact of the three proposals on the Social Security 
system overall based on the 1997 trustees' report so-called 
intermediate assumptions (shown in memoranda dated March 4, 
1998 from SSA's actuaries, Alice Wade and Seung An, for the 
NCRP proposal; April 27, 1998 from Stephen C. Goss, SSA's 
Deputy Chief Actuary, and Alice Wade for the NCRP plan; and May 
1998 from Robert M. Ball showing the actuaries' estimates of 
his plan). Traditionally, the trustees' intermediate 
assumptions are considered their best guess at any given time 
about the factors that will affect the future condition of the 
system. It should be noted that while the 1998 trustees' report 
was released after the preparation of the estimated impacts of 
these plans, the intermediate assumptions in the 1998 report do 
not noticeably differ from those in the 1997 report.
    Traditionally, long-range Social Security income and 
expenditure estimates are shown as ``percents of taxable 
payroll.'' Taxable payroll is the total amount of wages and 
salaries in the economy that are subject to Social Security 
taxation. In 1998, for instance, the Social Security system's 
costs are estimated to be equal to 11.18% of taxable payroll 
and its income, 12.65% of taxable payroll. The following table 
(Table 1) summarizes the average 75-year taxable payroll 
estimates of the impact of the three proposals under the 1997 
trustees' report assumptions.
    To summarize the data briefly, the NCRP plan would reduce 
projected 75-year average Social Security expenditures by 23%; 
S. 1792 would reduce them by 16%; and the Ball plan would 
reduce them by 6% (see, for instance, the S. 1792 column in 
Table 1--proposed benefit reductions of 2.46% of taxable 
payroll divided by projected total current law expenditures of 
15.6% of taxable payroll = 16%). The reader should note that 
the estimated impact of the proposed changes shown in Table 1 
includes the income taxation of Social Security benefits 
contained in S. 1792 and the Ball plan (since increasing the 
taxation of benefits results in lower after-tax Social Security 
benefits).

  Table 1. Comparison of Projected 75-year Average Reductions of Social
        Security Expenditures Under S. 1792, NCRP, and Ball Plans
------------------------------------------------------------------------
                                                 NCRP (In %
               Proposal                S. 1792   of taxable      Ball
                                                  payroll)
------------------------------------------------------------------------
Projected income under current law...    13.37        13.37        13.37
Projected expenditures under current     15.60        15.60        15.60
 law.................................
Projected 75-year average deficit....     2.23         2.23         2.23
Proposed income changes..............    -0.21        -1.36        +1.44
Proposed (net) benefit reductions....    -2.46        -3.59        -0.89
Impact on projected 75-year average      +2.25        +2.23        +2.33
 deficit.............................
Proposed benefit reductions as a           16%          23%           6%
 percent of the system's projected
 expenditures under current law......
------------------------------------------------------------------------

 Illustrative Social Security Benefit Reductions for Low, Average, and 
                            Maximum Earners

    The actuaries' memoranda on the various plans contain 
illustrative ``initial'' benefit impacts for hypothetical low, 
average, and maximum earners who are assumed to work steadily 
at those levels throughout their working years (initial 
benefits are those paid at the point of retirement). However, 
their data are not consistently arrayed from one plan analysis 
to the next. With respect to S. 1792, for instance, the 
actuaries' memoranda provide benefit illustrations for 
retirement at ages 65 in 2025 and 2070. For the NCRP plan, they 
provide them for ages 65 and 67 in 5 year increments from 2000 
to 2030. Illustrations for later years--out to 2070--are 
provided for retirement at age 67 only. Despite these 
inconsistencies, the relative magnitude of the reductions that 
the plans would make can be observed from the data. The 
following table (Table 2) summarizes these estimated benefit 
reductions (blank cells in the table indicate the data were not 
available from the actuaries' memoranda).

 Table 2. Comparison of SSA Actuaries' Illustrative Reductions in Initial Social Security Benefits Projected to
                                    Result From S. 1792, NCRP, and Ball Plans
----------------------------------------------------------------------------------------------------------------
                                                              Benefit reduction as % of current law benefit
             Year of retirement                Age of   --------------------------------------------------------
                                             retirement    S. 1792        NCRP              Ball plan <SUP>a</SUP>
----------------------------------------------------------------------------------------------------------------
Low-wage earners <SUP>b</SUP>
    2010...................................         65   ...........           7%  less than 1%
    2020...................................         65   ...........          12%  less than 1%
    2025...................................         65           11%          13%  less than 1%
    2025...................................         67   ...........           9%  between 1 and 2%
    2030...................................         65   ...........          19%  less than 1%
    2030...................................         67   ...........          14%  between 1 and 2%
    2040...................................         67   ...........          22%  between 1 and 2%
    2050...................................         67   ...........          25%  between 1 and 2%
    2060...................................         67   ...........          28%  between 1 and 2%
    2070...................................         65           22%               less than 1%
    2070...................................         67   ...........          31%  between 1 and 2%
Average-wage earners <SUP>b</SUP>
    2010...................................         65   ...........          10%  less than 1%
    2020...................................         65   ...........          33%  less than 1%
    2025...................................         65           11%          33%  less than 1%
    2025...................................         67   ...........          29%  between 1 and 2%
    2030...................................         65   ...........          38%  less than 1%
    2030...................................         67   ...........          33%  between 1 and 2%
    2040...................................         67   ...........          39%  between 1 and 2%
    2050...................................         67   ...........          42%  between 1 and 2%
    2060...................................         67   ...........          44%  between 1 and 2%
    2070...................................         65           22%               less than 1%
    2070...................................         67   ...........          48%  between 1 and 2%
Maximum-wage earners <SUP>b</SUP>
    2010...................................         65   ...........          17%  see footnote a
    2020...................................         65   ...........          38%  see footnote a
    2025...................................         65            6%          38%  see footnote a
    2025...................................         67   ...........          31%  see footnote a
    2030...................................         65   ...........          42%  see footnote a
    2030...................................         67   ...........          38%  see footnote a
    2040...................................         67   ...........          43%  see footnote a
    2050...................................         67   ...........          45%  see footnote a
    2060...................................         67   ...........          48%  see footnote a
    2070...................................         65           14%               see footnote a
    2070...................................         67   ...........          51%  see footnote a
----------------------------------------------------------------------------------------------------------------
<SUP>a</SUP> The figures in this column are CRS estimates of the impact of this plan's COLA changes on initial benefits
  (which assume BLS will alter the Consumer Price Index, CPI, to correct for an overstatement of inflation of
  0.3 percentage points per annum). Although no estimates are reflected for the maximum-wage earner case, the
  potential impact of the plan's COLA reductions is the same as shown for the low-and average-wage earner cases.
  The impact of the increased wage bases proposed in this plan have not yet been calculated, but they would have
  the effect of raising benefits for maximum-wage earners, potentially offsetting the COLA reductions in whole
  or part, and in some cases causing higher benefits than payable under current law.
<SUP>b</SUP> A low-wage earner is assumed to be someone who always earned 45% of the average wage. An average-wage earner
  is assumed to be someone who always earned an amount equal to that incorporated in the average wage series
  determined and promulgated for Social Security indexing purposes. A maximum-wage earner is assumed to be
  someone who always earned an amount equal to the maximum level of earnings subject to Social Security taxation
  (e.g., $68,400 in 1998; this amount, referred to as the taxable earnings base, is indexed and rises annually
  at the same rate as average earnings in the economy).


    Magnitude of illustrative benefit reductions: To highlight 
a number of the key outcomes shown by the actuaries' 
projections, the NCRP plan would make the largest reductions in 
``initial'' Social Security benefits of the three plans. For 
instance, for average-wage earners retiring at age 65 in 2025, 
the NCRP plan would reduce current law benefits by 33%; S. 
1792, by 11%, and the Ball plan, by less than 1%. In the long-
run (see illustrations for 2070), the NCRP plan would reduce 
benefits in a range around 50% for average-and maximum-wage 
earners (less for low-wage earners). The following table shows 
compressed comparisons of the reductions resulting from the 
three plans using the estimated benefit impacts shown in Table 
2 (blank cells in the table indicate the data were not 
available from the actuaries' memoranda).

Table 3. Illustrative Reductions in Initial Social Security Benefits Projected to Result From S. 1792, NCRP, and
                        Ball Plans, for Retirements in 2025 and 2070 (Compressed Table 2)
----------------------------------------------------------------------------------------------------------------
                                                              Benefit reduction as % of current law benefit
             Year of retirement                Age of   --------------------------------------------------------
                                             retirement    S. 1792        NCRP              Ball plan <SUP>a</SUP>
----------------------------------------------------------------------------------------------------------------
Low-wage earners
    2025...................................         65           11%          13%  less than 1%
    2070...................................         65           22%               less than 1%
    2070...................................         67   ...........          31%  between 1 and 2%
Average-wage earners
    2025...................................         65           11%          33%  less than 1%
    2070...................................         65           22%               less than 1%
    2070...................................         67   ...........          48%  between 1 and 2%
Maximum-wage earners
    2025...................................         65            6%          38%  .............................
    2070...................................         65           14%               .............................
    2070...................................         67   ...........          51%  .............................
----------------------------------------------------------------------------------------------------------------
<SUP>a</SUP> The figures in this column are CRS estimates of the impact of this plan's COLA changes on initial benefits
  (which assume BLS will alter the Consumer Price Index, CPI, to correct for an overstatement of inflation of
  0.3 percentage points per annum). Although ``blank'' cells are reflected for the maximum-wage earner case, the
  potential impact of the plan's COLA reductions is the same as that shown for the low-and average-wage earner
  cases. The impact of the increased taxable earnings bases proposed in this plan have not yet been calculated,
  but they would have the effect of raising benefits for maximum-wage earners, potentially offsetting the COLA
  reductions in whole or part, and in some cases causing higher benefits than payable under current law.


    Distribution of benefit reductions between low, average, 
and maximum earners--S. 1792 looks to be relatively regressive 
in its benefit reductions compared to the other plans, i.e., it 
looks as if it makes a larger reduction in benefits, 
percentage-wise, for low- and average-age earners than it does 
for maximum-wage earners. However, this outcome is simply the 
result of requiring maximum-wage earners to pay taxes on more 
of their earnings than they would under current law. S. 1792 
raises the taxable earnings base (the maximum amount of 
earnings subject to Social Security taxation) and this in turn 
requires not only more taxes to be paid by high earners, but 
also more earnings to be credited to their earnings records. 
This would give them a higher average monthly earnings level in 
the computation of their eventual Social Security benefits, and 
thus they would get higher benefits than under current law. As 
a result, this provision tends to mitigate the other benefit 
reductions contained in S. 1792. If this provision were 
ignored, the actuaries' analysis shows that the benefit cuts 
would be the same, percentage-wise, for low, average, and 
maximum-wage earners.
    The NCRP plan would incur the largest benefit reductions of 
the three plans. However, the actuaries' analysis shows that 
the cuts would be relatively progressive, i.e., low-wage 
earners would incur a lower percentage reduction in benefits 
than maximum-wage earners.
    As with S. 1792, the Ball plan would appear to be 
regressive in its benefit impact (although not reflected in the 
tables above--see the footnote at the bottom of Table 3) 
because of the higher benefits payable in the maximum-wage 
earner case. Like S. 1792, the Ball plan would increase the 
maximum amount of earnings subject to Social Security taxation 
and have the effect of raising benefits for the maximum earner. 
Ignoring this provision, the cuts would be very small and 
proportional on workers of different earnings levels.
    Speed of implementation of benefit reductions--The NCRP 
plan would implement its benefit reductions much more rapidly 
than S. 1792. As reflected in Table 2, where S. 1792 would 
cause an initial benefit reduction of about 11% for an average 
wage earner retiring at age 65 in 2025, the NCRP plan would 
cause a 10% reduction for a comparable wage earner in 2010--in 
other words, it would have approximately the same impact about 
15 years sooner. For a 2025 retiree, the NCRP plan would create 
a reduction of 33% (roughly three times the magnitude of that 
of S. 1792).
    The Ball plan's reductions in ``initial'' benefits are 
marginal in both the short and long range (although the COLA 
reduction could have a noticeable impact on retirees' benefits 
late in life, e.g., age 80 or 95--see Table 4).

Important Omissions in Comparisons of ``Initial'' Benefit 
Reductions

    It is important to recognize that the actuaries' 
projections of ``initial'' benefit impacts in the previous 
examples do not adequately reflect the impact of various 
features of the three plans. Specifically, they do not take 
into account (1) the proposed expansion of the taxation of 
benefits provided for under S. 1792 and the Ball plan, (2) the 
lifetime impact of the respective COLA constraints in the three 
plans, and (3) the lengthening of the earnings averaging period 
used to compute benefits that the three plans would make. The 
omission of these impacts is particularly relevant for the Ball 
plan, since without them, only very small reductions in 
benefits would appear to result from the plan.
    Expansion of income taxation of Social Security benefits--
Both S. 1792 and the Ball plan would expand the number of 
people affected by, and increase the amount of, income taxation 
of Social Security benefits by (1) eliminating the income 
thresholds below which recipients pay no tax on their benefits 
and (2) taxing benefits in the same fashion as private defined-
benefit pension plans. S. 1792 would have the changes take 
effect immediately. The Ball plan would appear to phase them in 
(Mr. Ball's description of the proposal does not mention a 
phase in, but the estimated savings shown for the measure 
suggest that there would be such a feature). The NCRP plan 
makes no change in the taxation of benefits (although it would 
credit certain proceeds from the current tax on benefits to the 
Social Security trust funds that now go to the Medicare HI 
trust fund).
    Currently, single retirees with incomes in excess of 
$25,000 (counting adjusted gross income and one-half of their 
Social Security benefits) pay income taxes on up to 85% of 
their benefits (up to 50%, if their incomes fall between 
$25,000 and $34,000). Couples with incomes in excess of $32,000 
(again counting adjusted gross income and one-half of their 
Social Security benefits) pay income taxes on up to 85% of 
their benefits (up to 50%, if their incomes fall between 
$32,000 and $44,000). Today, approximately 75% of Social 
Security recipients pay no income taxes on their benefits, in 
large part because their incomes do not reach these thresholds. 
With elimination of the thresholds (or income exemptions) many 
more recipients would pay taxes on their benefits. In addition, 
the amount of benefits that would be taxable would rise in most 
instances. Estimates made by SSA's actuaries and the 
Congressional Budget Office (CBO) suggest that in a typical 
case 95% of benefits would be taxed using private pension rules 
(in lieu of the current maximums of 50% and 85%, depending on 
income).
    The potential impact of these provisions of S. 1792 and the 
Ball plan is clearly illustrated by examining the case where 
recipients now pay no income tax on their benefits. These 
retirees could incur as much as a 14.25% reduction in benefits 
(or in the value thereof on an after-tax basis), or, although 
unlikely, as much as a 26.6% reduction in benefits depending on 
their other income and income tax bracket. The reduction of 
14.25% would be the maximum impact if 95% of a recipient's 
benefits fell into the first income tax bracket (15% <greek-e> 
95% of benefits); the 26.6% reduction would occur if 95% of the 
benefits fell into the second income tax bracket (28% <greek-e> 
95% of benefits).
    While the ``zero bracket amount'' (the combination of 
personal exemptions, regular standard deduction, and, if 
applicable, additional deductions for the elderly) would cause 
these proposals to have little or no impact on the lowest 
income retirees, those affected would not be exclusively high-
income retirees. For example, if the proposal were fully 
effective in 1998, an age 65 retiree receiving an average 
Social Security benefit of $765 a month and having other annual 
income $8,000 would pay $1,308 in new income taxes. In other 
words, this person would go from paying no income taxes under 
current law to $1,308 under the proposal. Counting both the 
Social Security benefits and other income, his or her total 
income would be $17,180, which is considerably below the 
estimated average wage of $27,898 (under the trustees' 
intermediate assumptions).
    This potential impact of S. 1792 and the Ball plan is not 
reflected in Tables 2 and 3 above, and its omission distorts 
the potential benefit reductions these plans would make 
relative to the NCRP plan. The fact that the current law income 
exemptions for the taxation of benefits (i.e., $25,000 for a 
single recipient and $32,000 for couples) are not indexed does 
mean that a greater proportion of future retirees will find 
that at least part of their benefits is taxable. However, it 
will take many years before inflation makes these exemptions 
meaningless. Assuming the trustees' projected inflation rates, 
the zero bracket amount for a single elderly retiree may reach 
$20,000 by the year 2025, but the annual benefit for an 
average-wage earner retiring at 65 in that year is projected to 
be $30,208. Under current law, if this retiree had $20,000 in 
other income, $5,438 of his or her Social Security benefit 
would be taxable at a 15% rate. The income tax paid on these 
benefits would be $816, which means the benefits would be 3% 
lower on an after-tax basis. Under S. 1792 and the Ball plan, 
$28,000 or more of the benefits would become taxable at a 15% 
rate, thereby reducing the value of the annual benefits by 
$4,200. This means that the benefits would be 14% lower on an 
after-tax basis.
    Hence, taking the after-tax effects caused by the increased 
taxation of benefits into account narrows the difference in the 
size of the cuts between S. 1792 and the NCRP plan, and shows 
that the reductions under the Ball plan are not negligible 
(albeit still considerably smaller than the other two plans).
    COLA reductions to adjust for perceived overstatements of 
inflation--All three plans would make reductions in Social 
Security COLAs to offset perceived overstatements of inflation 
as measured by the BLS's monthly Consumer Price Index (CPI). 
This is the index used to adjust Social Security benefits so 
that their purchasing power does not decline over the 
recipients' years on the benefit rolls. While all three plans 
appear to have the same motivation, they assume different 
degrees of inflation overstatement by the CPI. S. 1792 assumes 
the largest amount--1 percentage point annually. The trustees 
assume in their intermediate projections that the CPI will rise 
at an ultimate annual rate of 3.5%, and that COLAs of this 
amount would be paid annually. S. 1792 would reduce these COLAs 
by 1 percentage point annually, in essence, providing estimated 
COLAs of 2.5%, instead of 3.5%. The NCRP plan assumes the 
overstatement is 0.5 percentage point annually, and therefore 
it would provide estimated COLAs of 3%, instead of 3.5%. The 
Ball plan assumes the overstatement is 0.3 percentage point 
annually, and thus would provide estimated COLAs of 3.2%, 
instead of 3.5%.
    The real impact of these proposals is not adequately 
reflected in measurements of ``initial'' benefit impacts, 
particularly when looking at retirements occurring near age 62. 
Under current law, ``initial'' Social Security benefits are 
adjusted to reflect COLAs granted in and after the year in 
which a worker reaches age 62, regardless of whether the worker 
joins the benefit rolls in that year (this keeps workers who 
delay retirement beyond age 62 in the same position with 
respect to inflation as workers who retire at age 62--simply 
put, they are not disadvantaged because they didn't retire 
early). A worker retiring at age 65, for instance, will have 3 
years' worth of COLAs built into his or her ``initial'' 
benefits at age 65.
    This aspect of the COLA reductions in the three plans is 
reflected in the actuaries' illustrations of ``initial'' 
benefit impacts, but the lifetime impacts of these cuts are 
not. For instance, under the Ball plan, as illustrated in 
Tables 2 and 3, the ``initial'' benefit reduction for an age 65 
retiree is less than 1%. This is entirely the effect of 
reducing COLAs by 0.3 percentage points for 3 years. However, 
by age 80, this retiree's benefits would have been reduced by 
0.3 percentage points for 18 years. With current law COLAs 
assumed to be 3.5%, this proposal would result in benefit 
levels at age 80 that would be 5.1% lower than under current 
law and at age 95, 9.1% lower. As reflected in the following 
table (Table 4), the late-life impacts of COLA cuts in S. 1792 
and the NCRP plans would be considerably larger.

 Table 4. Projected Impact on Social Security Benefit Levels From Proposed COLA Reductions Contained in S. 1792,
                                              NCRP, and Ball Plans
----------------------------------------------------------------------------------------------------------------
                                                            Benefit reduction at each age as % of current law
                                                                      benefit payable at that age <SUP>a</SUP>
            Impact on benefit level at age:             --------------------------------------------------------
                                                              S. 1792              NCRP            Ball plan
----------------------------------------------------------------------------------------------------------------
65.....................................................               2.9%               1.4%               0.9%
67.....................................................               4.7%               2.4%               1.4%
80.....................................................              16.0%               8.3%               5.1%
95.....................................................              27.4%              14.8%               9.1%
----------------------------------------------------------------------------------------------------------------
<SUP>a</SUP> Note that these estimates reflect only the late-life impact of the COLA reductions, not the late-life impact
  of the plans in their entirety. For instance, the actuaries' memorandum shows that the reductions in benefits
  taking all the benefit reduction provisions of S. 1792 into account are 32% and 41%, respectively, at ages 80
  and 95.


    The SSA actuaries estimate that the reduction in lifetime 
benefits is about 3% under the Ball plan, 5% under the NCRP 
plan, and 10% under S. 1792.
    Taking these lifetime COLAs effects into account again 
narrows the difference in the size of the reductions made by S. 
1792 and the NCRP plan, and better illustrates the reductions 
potentially arising from the Ball plan (although the Ball 
plan's reductions still would be much less than those caused by 
the other two plans).
    The lengthening of the earnings ``averaging period'' for 
computing Social Security benefits--Under current law, Social 
Security benefits are computed from a worker's earnings record 
averaged over a 35-year period. The highest 35 earnings years 
are counted. All three plans would lengthen this averaging 
period. S. 1792 and the Ball plan would lengthen it to 38 
years. The NCRP plan would lengthen it to 40 years. The impact 
of this change is not reflected in the actuaries' illustrations 
of ``initial'' benefit impacts largely because the 
illustrations reflect careers of steady earnings that exceed 35 
years. However, the proposal's largest impact would be on 
workers with careers of erratic earnings, that may include 
significant periods of not working. For instance, a worker 
retiring at age 65 in 1998 with a 35-year career of average 
earnings would receive a monthly benefit of $938. If the 
averaging period were 38 years in length, this worker would 
have 3 years of zeros in his or her earnings record, and this 
would lower the average earnings level used to compute 
benefits. In this example, the worker would receive $885 in 
monthly benefits, representing a 6% reduction from the current 
law level. If the averaging period were 40 years, the monthly 
benefit would be $854, representing a 9% reduction.
    Hence, this proposal, as with the proposals to increase the 
taxation of benefits and reduce annual COLAs, has the potential 
to reduce benefits further than that shown by the actuaries' 
illustrative ``initial'' benefit impacts. The actuaries point 
this out in their memoranda by stating that even though the 
provision would have a negligible impact in the examples they 
use, overall the provision would reduce the total benefit cost 
of the Social Security system by 3%. Obviously, the longer the 
averaging period, the greater the reduction in benefits. In 
this respect, the provision in NCRP plan would cause the 
largest reductions since it would lengthen the averaging period 
by 5 years, whereas S.1792 and the Ball plan would lengthen it 
by 3 years.

                               Conclusion

    In summary, using the SSA actuaries' analyses of the 
impacts of S. 1792, NCRP, and the Ball plan, the NCRP plan 
would cause the largest reductions in benefits for the Social 
Security system in the aggregate and as well as in individual 
recipient cases generally. S. 1792, however, does make a larger 
reduction in annual COLAs and increases the taxation of 
benefits (the NCRP plan does not). Thus, it is highly probable 
that in many instances the benefit reductions caused by S. 1792 
would approach or even exceed the size of those arising from 
the NCRP plan. The Ball plan would clearly make the least 
reductions of the three plans, but they are not necessarily 
negligible as one might deduce from looking only at the plan's 
impact on ``initial'' Social Security benefits.
      

                                <F-dash>

    Chairman Bunning. Our first panel we will hear from today 
starts with Dr. Michael Boskin, senior fellow from the Hoover 
Institute, and Tully M. Friedman, Professor of Economics from 
Stanford University; Dr. Peter Diamond, Institute Professor 
from the Massachusetts Institute of Technology and, cochair of 
the National Academy on Social Security's Panel on 
Privatization of Social Security; Francis Cavanaugh, former 
Executive Director of the Federal Retirement Thrift Investment 
Board; and, Dr. Sylvester Schieber, vice president of Watson 
Wyatt Worldwide--that's a mouthful--Member of the Social 
Security Advisory Board and former Member of the 1994-96 
Advisory Council on Social Security.
    Dr. Boskin, if you would begin please.

    STATEMENT OF HON. MICHAEL J. BOSKIN, TULLY M. FRIEDMAN 
  PROFESSOR OF ECONOMICS, AND HOOVER SENIOR FELLOW, STANFORD 
  UNIVERSITY; AND FORMER CHAIRMAN OF THE COUNCIL OF ECONOMIC 
                            ADVISERS

    Mr. Boskin. Thank you, Chairman Bunning, Mrs. Kennelly, and 
other distinguished Members of the Subcommittee. It's always a 
pleasure to have the opportunity to appear before the Committee 
and any of it's Subcommittees. I've been doing this for two 
decades in formal sessions such as this, and informal retreats 
on trade, tax, and entitlement issues, and I've always found 
this Subcommittee to be an arena, despite the various political 
issues that arise, where people need to and take the time to 
understand the complexities of complex issues.
    I want to commend you for your series of hearings. There's 
a lot of discussion and argumentation out in the public about 
what some programs would do--pro and con--that I think is 
overly simplistic. So I applaud your investing this much time 
and energy in exploring these important issues.
    I want to make three big points and one little one, and 
leave much of the fleshing out of the smaller one to questions 
and answers. The first big point is to help set the context for 
why it's important to seriously consider the adoption of a 
personal account, or an individual account, component to Social 
Security.
    There are those who would argue that Social Security is in 
very good shape, it's current operating surpluses demonstrate 
that current revenues are exceeding current outlays, that by 
the intermediate projections, all we'd have to do is raise 
taxes 2.25 percentage points today and we'd have 75-year 
actuarial balance. I think that's very misleading--that we'd 
still have a large actuarial balance. Thereafter, there is an 
enormous unfunded liability in the current projected Social 
Security benefit stream several times the current national 
debt.
    If we wait and do nothing and act passively, or nibble 
around the edges and don't do something in the near future, the 
types of tax rates we will ultimately wind up with will be on 
the order of 50 percent higher than today. And we have a 
similar set of issues, not quite as severe, but a similar set 
of issues in Medicare. And that is likely to lead us to Western 
European style tax rates. The high tax rates in Western Europe 
relative to the United States are one of the major reasons why 
those several hundred million people have had a stagnant 
economy and no net private sector job growth in a quarter 
century. I would not like to see a similar fate await us.
    There's also considerable evidence that the level and 
structure of Social Security are one of the reasons for the low 
personal saving rate in the United States and for the 
substantial reduction in the labor force participation of 
people 55 and over in the United States.
    I say these things just to state that there's far more at 
stake than just the future of Social Security, as vitally 
important as that is. This program is so large and so 
important, affecting virtually every American now and in the 
future as a taxpayer and potential recipient, or actual 
recipient today, that how you deal with this can have major 
impacts on our overall economy.
    So the impacts of any reforms you take will be direct 
through taxes and benefits, and structure of the system, and 
also will be spread widely among all Americans through the 
impact it has on the economy.
    We all know the demographic trends. Most of the emphasis 
focuses on the coming of age and the impending retirement of 
the baby boom generation. There's also been an enormous 
increase in the life expectancy of the elderly. It's going up 1 
month a year, every year. So it's like every year we live, we 
get a bonus month in expected value terms. That's unambiguously 
good news by the way, even though it imposes extra costs on 
Social Security.
    But it does raise an issue, for example, about how you deal 
with people who are very old and whether the system that was 
set up at a time when there were very few old people, is the 
one we want 20 or 30 years from now.
    So I think--and also I would add, that this demography 
suggests that if something isn't done now, in the next 1, 2, or 
3 years, and we wait until the baby boomers start to retire, 
the fraction of voters who will be in the system or about to be 
in the system, and hence who will resist any change in their 
benefits and try to have any resolution of the long run 
actuarial problems be taxes on future workers will go up 
precipitously. So I think there's a political urgency of the 
problem that is not often appreciated.
    I believe personal accounts are a very important, 
promising, and perhaps even vital component of an overall 
system of Social Security reform. Along with my Stanford 
colleague, John Shoven, and Laurence Kotlikoff of Boston 
University, at the time of the 1983 reforms, I proposed a 
system of personal accounts for some of the same reasons and 
some others in a different context than is discussed now.
    But I think it is important to establish that the 
establishment of personal accounts done properly--and you'll 
hear much more of that from the rest of this panel and the 
next--has the capacity to increase the saving rate, 
particularly among low- and lower-middle-income people who are 
liquidity constrained. It is likely therefore to take some 
pressure off of Social Security in the long run, as well as to 
have some good effects directly on those people.
    And, importantly, and I think this is a generic social 
comment, I believe it is tremendously important for us to 
extend the benefits of asset ownership to those who currently 
have or are likely to have very little assets at retirement. I 
would say it's analogous to avoid disenfranchising, as has 
occurred in Europe, tragically, a large part of the potential 
workers from the labor market.
    The personal accounts obviously come in many forms. You've 
discussed some in previous hearings. There were different 
proposals from the advisory council. Most of the discussion 
recently limits them to the retirement component of Social 
Security, leaving disability, HI, hospital insurance survivors, 
and dependents components in the defined benefit system.
    And there are many choices and combinations--mandatory or 
voluntary contributions made by or through individuals, 
employers, collected by the government; funds invested by the 
government or contracted out to private financial institutions, 
or directly from individuals or employers to private 
institutions.
    The funding that has been proposed in some instances comes 
from an allocation of a part of the FICA tax, and others from 
refundable credits from current and projected future budget 
surpluses, that is, from general revenue.
    Chairman Bunning. I'm going to have to interrupt, because 
you have run out of time--if you would wrap up your testimony, 
I would appreciate it.
    Mr. Boskin. Sure. I would just say that it is important, as 
you look at these, and as you decide which of the many 
possibilities for establishing personal accounts is the best 
system, that you take into account the entire Social Security 
system. Do not, as the recent CRS proposal analysis did, ignore 
the benefits from the individual accounts when you look at 
people's benefits. Do not assume that using the surpluses 
doesn't have an opportunity cost in terms of foregone tax cuts 
or other uses of those funds.
    And in doing so, I believe that you'll come to the 
conclusion that personal accounts can be an important component 
of Social Security reform that strengthens the system, provides 
greater individual incentives, strengthens the economy, and 
dramatically reduces the need for very large future tax 
increases that would be very damaging for the economy.
    Thank you very much.
    [The prepared statement follows:]

Statement of Hon. Michael J. Boskin, Tully M. Friedman Professor of 
Economics and Hoover Senior Fellow, Stanford University; and Former 
Chairman of the Council of Economic Advisers

                            I. Introduction

    Social Security is probably the nation's most popular 
social program. It is also one of the sources of the 
substantial reduction of the poverty rate among the elderly. 
Social Security annually collects hundreds of billions of 
dollars in taxes from more than 100 million workers, and pays 
benefits to over 40 million retirees, survivors, dependents and 
disabled persons. But Social Security also faces severe long-
term challenges. The unfunded liabilities amount to over $10 
trillion. If Social security continues on its current pay-as-
you-go basis, it will have to reduce benefits substantially or 
raise taxes to a level that is likely to seriously impede the 
performance of the economy. For example, waiting passively for 
the deficits to occur in about 10 to 15 years, would mean that 
payroll tax rates would eventually have to rise to almost 19 
percent of payroll. Alternatively, tax revenue would cover only 
\3/4\ of projected benefits. An additional large payroll tax 
increase would be necessary to cover the remaining unfunded 
liabilities in Medicare.
    Increases in tax rates of this magnitude would move us 
close to Western European levels of taxation. Such high rates 
of taxation are a major reason why Western Europe has stagnated 
in recent years. In fact, combined with the extremely generous 
social welfare payments, heavy handed regulation of business, 
and extensive labor mandates, European public policies have 
made it virtually impossible to create private sector jobs in 
Western Europe. Compared to 1970, there are 35 million more 
working age people in Western Europe, but no more private 
sector jobs, and vast increases in long-term unemployment. If 
we allow ourselves to wait passively and merely raise taxes to 
deal with the demographic transition in Social Security and 
Medicare, a similar fate may await us.
    There is considerable evidence that the level and structure 
of Social Security taxes and benefits is also one of the 
reasons for the low personal saving rate, particularly for low 
income people, and for the substantial reduction in labor force 
participation among those over 55. Further, since the payroll 
tax comes on top of the income tax, it raises marginal tax 
rates which distort decisions even higher.
    I raise these issues to reiterate that there is far more at 
stake than the future of Social Security in how we go about 
strengthening the program without worsening incentives for 
employment, saving and production in the private economy.
    Demographic trends suggest that it is important to deal 
with these problems soon. We are transitioning from a 
relatively stable one retiree for every 3\1/4\ workers to about 
one for every two. Some say that there's not much of a problem, 
a 2.25 percentage point increase in the payroll tax deals with 
the 75-year projected actuarial deficit and that is no big 
deal. This is both wrong and dangerous.
    First, some perspective on the 2.25 percentage points. This 
is roughly double the short run temporary defense buildup in 
the Reagan years. That buildup, one of the major causes of the 
collapse of Communism, was enormously controversial. We have 
been overdoing the defense drawdown in the post-Cold War era. 
Comparing the two scenarios, something twice as large for 75 
years as opposed to half as large and temporary for six or 
eight years, underscores how substantial the increase would be. 
Second, the 2.25 percentage points is disingenuous. While it is 
always difficult to forecast demographic trends in the distant 
future, the current projections would leave Social Security 
with only enough revenues to pay about three quarters of the 
projected benefits for the indefinite future including well 
after the 75 year projection horizon. The 2.25 percentage point 
payroll tax increase would have to be doubled about to 4.5 
percentage points to deal with the problem on a sustained 
basis. That amounts to over a 33 percent increase in the Social 
Security payroll tax.
    Third, as noted above, these figures reflect the gap if the 
large tax increase occurred now. If, instead, nothing is done 
in this period of short-term ``operating surpluses,'' much 
larger tax increases or benefit cuts would have to be 
implemented once the Baby Boomers retire. The tax increases or 
benefits cuts would not just be much larger, but the political 
system would be biased toward tax increases if we wait. That is 
because the longer we wait, the larger the fraction of the 
voting population that will be receiving, or about to be 
receiving, benefits, and unlikely to vote to slow their growth, 
as opposed to raising taxes on the next generation to pay for 
them.
    Finally, any major change in Social Security should be done 
gradually with a grace period so that those already retired, or 
about to retire, do not suffer any major discontinuity in what 
they have come to expect, and, correspondingly, those young and 
middle-aged workers can plan for a somewhat different system 
over enough years that they can adjust their private saving and 
future retirement planning behavior as necessary without any 
radical disruption. As can be seen from my remarks, I believe 
there is an economic and political urgency to reform, 
strengthen and improve the Social Security system.

                         II. Personal Accounts

    As one of the first people to propose a system of personal 
accounts, (with my Stanford colleague John Shoven and Boston 
University economist Laurence Kotlikoff in the early 1980's) 
there are many reasons why I believe it is a good idea to have 
a private component of Social Security. These include, but are 
not limited to, the following: potential increases in private 
and national saving accompanying a likely increase in the 
private saving of low and middle income individuals who 
currently save very little and have historically arrived at 
retirement with very little liquid financial assets. The 
additional saving would be good for the economy in general, but 
just as important, this would take some pressure off of future 
Social Security finances. Perhaps most important, from my 
standpoint, are the tremendous societal benefits that could 
develop from extending the benefits of asset ownership to those 
who currently have, and are likely to have at retirement, 
little financial assets. Just as it is important not to 
disenfranchise a large segment of the population from the labor 
market, as has tragically occurred in Europe, I believe it is 
also important that virtually all Americans have some stake in 
the capital markets.
    Personal savings accounts come in a variety of flavors, 
proposals and types. Most of the discussion recently limits 
them to part of the retirement component of Social Security, 
leaving the disability, hospital insurance, survivors and 
dependents components of Social Security in the current defined 
benefits system. Participation could be mandatory or voluntary. 
Contributions can be made by individuals, employers, or 
collected by the government. Funds can be invested by the 
government or contracted out to private financial institutions. 
This funding comes from dedicating a portion of the current or 
projected future payroll tax, or from general revenues 
including the projected future budget surpluses. This can be 
done by directly establishing individual accounts or by 
providing a refundable tax credit for individual contributions. 
Each of these characteristics of a personal saving accounts 
component of Social Security has pros and cons under different 
scenarios. These involve trade offs. For example, the takeup 
rate for refundable credits historically has been well under 
100%. Importantly, the administrative costs of handling lots of 
small contributions might be substantial from the viewpoints of 
small businesses with few employees or private financial 
institutions administering such accounts. In order to prevent 
those with modest contributions because of low earnings or 
part-time employment from being priced out of the market or 
obtaining (net of fees) lower rates of return, the government 
might wish to require private financial institutions to take 
all comers with a uniform basis point fee. All current 
proposals maintain a defined benefit system, either quite 
similar to the current system, or at least sizable minimal 
benefit for those whose private accounts have, for whatever 
reasons, not accumulated enough to finance a minimal level of 
retirement consumption. Where to draw the appropriate tradeoff 
between what remains in a payroll tax financed defined benefit 
system and a however financed individual retirement defined 
contribution system is a question of economics, politics, and 
other considerations.
    While I strongly favor the establishment of an individual 
defined contribution account, it is important not to mistake 
the important benefits of such a program with the still larger 
set of issues necessary to adequately reform Social Security.
    Much of the current debate on establishing personal saving 
accounts suggests using the projected federal unified budget 
surplus in coming years to get them started (for example with 
refundable tax credits). While I believe the case for 
establishing individual accounts is strong, it is important to 
keep two things in mind: First, the projections of budget 
surpluses are exactly that, projections. Second, when 
comparisons are made of what is likely to be accomplished with 
individual accounts relative to the long run actuarial deficits 
in Social Security, or how differently situated individuals and 
groups fare with respect to such a program, that the 
measurement be done against an appropriate baseline projection. 
For example, one proposal establishes two percent individual 
accounts with refundable tax credits financed from projected 
budget surpluses. Assuming a continued equity premium along 
historic lines and a reasonably high fraction invested in 
equities, would be sufficient, combined with a high rate of 
reduction (say 75 percent) in future Social Security benefits 
for each dollar withdrawn from future individual accounts, it 
is argued, to finance future benefits without a tax increase. 
While I believe it is likely that such a proposal would make a 
sizable dent in the long term actuarial deficit, I do not 
believe it is certain that it will, and it is very likely that 
it will not cure the entire long term actuarial deficit. To do 
so, I believe, would require some additional slowdown in the 
growth of benefits and/or additional financing.
    Third, use of surplus funds for establishing individual 
accounts may well be a good idea, but it does not come free. We 
should not fall into a trap of mathematical illusion by the 
number zero. Projected surpluses are coming from somewhere, 
namely tax revenues are exceeding outlays, and included in any 
calculation of who wins and loses by how much must be the 
opportunity costs of not using the budget surpluses to lower 
taxes. Lower taxes, especially lower tax rates, would 
strengthen the economy and, of course, are also part of what 
households would be giving up in terms of their own private 
saving and consumption, if personal accounts are financed by 
budget surpluses.
    There are two additional concerns that should be kept in 
mind with the establishment of personal accounts. First, the 
impetus for establishing them has undoubtedly been given a 
booster shot by the recent strong performance of the stock 
market. This is certainly making the public much more willing 
to consider investments in equities themselves, and for Social 
Security trust funds and any individual component of Social 
Security. Again, it is likely that an equity premium will 
continue over long periods of time, but we should be aware that 
extrapolating the historical premium, may or may not prove 
reasonable.
    Second, most younger workers seem to believe that Social 
Security is almost certain to go broke. While this is 
undoubtedly an exaggeration--see the discussion above--it is 
certainly true that the expected returns to each successive 
cohort of workers has been declining. The early cohorts of 
retirees received tremendous returns on their and their 
employers' contributions; large multiples of funds paid in plus 
interest. Those early windfalls are gradually dissipating and 
turning to returns that are likely to be considerably below 
what could be earned in private capital markets. Hence, many 
young workers are skeptical of receiving back much of a return, 
or even some of the principal, that they paid in on their 
Social Security taxes. On the other side of the age spectrum, 
however, are many millions of retirees, approximately one-third 
of which are not very well off. Any transition from the current 
pay-as-you-go financing of Social Security system to a 
privatized defined contribution system must account for 
continued payments for whatever benefits (I assume not 
radically different from current benefits) that current and 
about to retire workers will receive. Hence, one cannot 
immediately move to a system of defined contribution accounts, 
even a modest one of say two or three percentage points of 
payroll, without finding additional taxes somewhere. It may be 
additional taxes already scheduled or projected in budget 
surpluses, but they are additional revenues. For perspective, 
moving to a complete funding of the transition to full 
individual accounts would require ten trillion dollars in 
recognition bonds or massive tax hikes. While some believe that 
so-called recognition bonds have very little impact on the 
economy, I believe this is a risky assumption.
    There are a number of substantive and practical issues 
raised by the many proposals to establish personal defined 
contribution accounts. Let me briefly mention several. Among 
the generic issues are the following:
    1) What options should workers have about how to invest 
their contributions?
    2) What rules govern withdrawals?
    3) How should spouses be treated?
    4) How can the administrative costs be minimized, 
especially those associated with small accounts?
    Numerous tradeoffs exist in achieving desired goals. For 
example, the more choice afforded workers on their investments, 
the more likely that some will do relatively poorly, thereby 
increasing pressure to make up the difference later. Clearly, 
even minimal education knowledge of the principles of investing 
is not universally, or at least likely to be universely 
followed. While, in principle, I favor substantial choice, in 
practice some guidelines/regulations would have to be imposed. 
At the very least, an array of broadly diversified, perhaps 
index, fund choices should be available. Withdrawals should 
either be in the form of (joint survivor) annuities, or some 
minimum balance should be maintained. Care should be taken that 
benefits for surviving spouses not be jeopardized, with 
contributions sharing and/or some other vehicles.
    Finally, I believe administrative costs especially for 
small accounts can be a serious problem for small businesses, 
low earners and/or private financial institutions. The record 
keeping, checking errors, accounting, trustee, legal and 
investing costs would be large relative to small periodic 
contributions from low earners or part time workers. I believe 
technology and financial innovations are driving these costs 
down, as the availability of no load mutual funds such as 
through Schwab's OneSource, demonstrates. However, I believe it 
will be necessary to require financial institutions 
administering such accounts to charge the same fees to all 
workers irrespective of account size. If the costs are deemed 
too high, I believe it is important that any government holding 
of the accounts be temporary, with legislated movement to the 
private market at a date certain.

                     Conclusion and recommendations

    The long run actuarial problems of Social Security stem 
form two primary factors: changing demography and modest 
projected long term economic growth. The single best thing we 
can do for Social Security's future is to do everything we can 
to enhance long run economic growth. Every tax, regulatory, 
education, litigation, and trade policy issue that comes before 
this Congress has ramifications for the future of Social 
Security. We need lower tax rates, more market oriented 
education and training reforms, expanded rules based trade 
liberalization, serious tort reform and more flexible, less 
costly, regulation. Those types of reforms, together with 
sensible reforms that bring Social Security and Medicare into 
long term actuarial balance while at the very least preventing 
the large tax increases that worsen incentives in the economy, 
and at the best, actually strengthen incentives, are the most 
important thing that can be done to strengthen Social Security 
and beyond that the nation's long term economic prosperity.
    Thus, while I strongly favor the establishment of 
individual accounts, or personal saving accounts, it is 
important not to overstate their many potential benefits and 
ignore the other financial and structural issues that will have 
to be dealt with as part of Social Security reform over time. I 
do believe that a sound system of personal security accounts 
can be established at a modest rate (perhaps 2 or 3 percentage 
points of payroll) and financed and administered in such a way 
that the benefits of the program vastly exceed its costs. I 
believe the primary benefits would be a modest increase in the 
saving rate due to an increase in the saving of low and low 
middle income households which are currently saving very 
little; taking some of the pressure off the defined benefits 
portion of the Social Security system in the future; reducing 
the need for future damaging tax increases; sharing the sizable 
benefits (but also the risks) of broader asset ownership to 
virtually the entire population; and improved intergenerational 
equity relative to the current system.
      

                                <F-dash>

    Chairman Bunning. If you have long statements, past the 5 
minutes, I would prefer that you enter into the record. Without 
objection, we'll enter them in.
    Mr. Boskin. I'd ask for mine, please.
    Chairman Bunning. OK.
    Dr. Diamond, if you would continue.

      STATEMENT OF PETER A. DIAMOND, INSTITUTE PROFESSOR, 
             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Diamond. Mr. Chairman, and Members of the Subcommittee, 
I'm pleased and honored to be here today. Some advocates look 
to individual accounts to substantially--individual accounts 
with equity investments, of course--to substantially increase 
the rate of return from Social Security, substantially increase 
national savings and economic growth. At the same time, some 
analysts have looked at investment in equities by the trust 
fund and have concluded that's not an improvement in our 
retirement income system.
    My main message for today is that trust fund investment in 
equities and individual account investment in equities are very 
similar to each other. And understanding that similarity will 
help to understand the role of individual accounts in improving 
our retirement income system. They're similar, but not 
identical.
    There are three important economic differences. One is the 
costs are obviously higher with any individual account system 
than with trust fund investment in equities. Second, the risk 
characteristics put more of the risk directly on those 
retiring, if you have individual accounts. And third, the 
ability to integrate the retirement income system with the 
disability system; the benefits for children who lose parents; 
the benefits for divorcees, and elderly divorced women are 
among the poorest of our elderly--that integration goes better 
in a fully defined benefit system.
    But let me focus on the similarities, because that's the 
important message I'm trying to bring. Let's trace through what 
would happen if the trust fund were to buy equities. If the 
trust fund buys equities, it finances that by holding less in 
Treasury bonds. The Treasury then has to sell more bonds to the 
public.
    Where does the public get the money to buy the bonds? 
That's easy--it gets the money from having sold the equities to 
the trust fund. In other words, this is an asset swap. The 
public ends up holding more Treasury bonds and fewer equities; 
the trust fund ends up holding more equities and fewer Treasury 
bonds. The fact that it's an asset swap means its first impact 
on the economy is very small. That doesn't mean there aren't 
important effects over time, but that first impact is very 
small.
    Now let's trace through the same sequence for individual 
accounts. Assume that part of the payroll tax revenue goes into 
individual accounts, instead of going to the trust fund. What 
happens? The trust fund, having less revenue, will hold fewer 
Treasury bonds. The Treasury will have to sell more bonds to 
the public.
    Where will the public get the money to buy those bonds? 
They'll get it from having sold equities to the individual 
accounts. Once again, it is simply an asset swap. And it has, 
to a first approximation, skipping the three elements I 
identified to begin with, the same effects.
    Individual accounts have the same effects as trust fund 
investment in the same portfolio. So individual accounts by 
themselves don't increase national savings. And individual 
accounts by themselves don't increase a risk adjusted rate of 
return on Social Security.
    To increase national savings, we need to put new revenue 
into the individual accounts. If we devote new revenue to 
individual accounts, then we can increase national savings. If 
we devote the same new revenue to building up the trust fund, 
we get the same increase in national savings. That new revenue 
will raise the long run rate of return on Social Security for 
our children and grandchildren coming down the road.
    But in order to get the new revenue, some people have to be 
giving something up today, whether it's a payroll tax increase, 
or not getting some tax cut, or benefit from expenditure that 
might come from alternative uses of the surplus. And that means 
that the rate of return from Social Security goes down for the 
people who are financing the new revenue, at the same time that 
it goes up for future generations who will be benefiting from 
it.
    And that analysis holds for individual accounts and holds 
for trust fund investment in equities. I could get into the 
cost differences and the risk differences, but the light's 
already yellow, and this is probably the right time to stop.
    [The prepared statement follows:]

Statement of Peter A. Diamond, Institute Professor, Massachusetts 
Institute of Technology

    Mr. Chairman and Members of the Committee, I am pleased and 
honored to have the opportunity to appear before you today to 
discuss the topic of individual accounts for Social Security.
    My task for today is to discuss the economics of individual 
account investment in private securities--and I will focus 
particularly on equities. Some people favor individual accounts 
for philosophical or political reasons, but I will discuss only 
economics. Since equities have had a higher long-run rate of 
return than Treasury bonds, individual accounts are seen by 
some as a way to increase the rate-of-return from Social 
Security.
    Social Security investment in equities can be done in three 
different ways. We can invest part of the Social Security Trust 
Fund in equities, we can set up government-held individual 
accounts, similar to the Federal Employees' Thrift Savings Plan 
(TSP), and we can set up individual accounts that are held by 
private financial institutions, similar to current Individual 
Retirement Accounts (IRAs). The three approaches are roughly 
similar in how they impact national savings and the rate-of-
return from Social Security (including the individual 
accounts). But they differ in their administrative costs, 
sharing of market risks, need for worker education, and burden 
on employers.
    Let me make three points that apply to all three 
approaches. First, with all three methods of investing, some 
increase in expected returns can be obtained, but only by 
taking on more risk. Second, by themselves, none of the methods 
directly increases national savings in the short run. Third, 
none of them has a large impact on the risk-adjusted rate-of-
return from Social Security. These conclusions hold whether we 
create individual accounts or not.
    But, there are also important differences among these 
approaches. First, Trust Fund investment costs less than 
government-held accounts, which, in turn, cost less than 
privately-held accounts. Second, workers have more choice with 
privately-held accounts than with government-held accounts, and 
no choice with Trust Fund investment. Third, stock market risk 
is a greater concern with privately-held accounts than with the 
narrower range of choice from government-held accounts, and 
stock market risk is a greater concern with any individual 
account plan than with Trust Fund investment in equities. 
Finally, privately-held accounts have a greater need for (and 
expense from) worker education than government-held accounts 
and both have more need than with Trust Fund investment.

                I. National Savings and Rates-of-Return

    As has been noted by many analysts, Trust Fund investment 
in equities rather than in Treasury bonds does not directly 
raise national savings. To directly raise national savings we 
need additional net revenue for Social Security, through a tax 
increase, benefit cut, coverage expansion, or new source of 
revenue. Without additional net revenue, the value of equities 
acquired by the Trust Fund is matched by a decrease in the 
value of Treasury bonds held by the Trust Fund. Similarly, 
without additional net revenue, diverting some payroll tax 
revenue into individual accounts leaves less revenue flowing 
into the Trust Fund. Without additional net revenue, the value 
of bonds and equities acquired by individual accounts is 
matched by a decrease in the value of Treasury bonds held by 
the Trust Fund. In both cases, the public ends up holding more 
Treasury bonds and less equities outside Social Security. Thus, 
creating individual accounts without additional net revenue 
does not directly increase national savings.
    With or without individual accounts, a decrease in Social 
Security holdings of Treasury bonds that matches an increase in 
the holdings of equities is an ``asset swap.'' That is, the 
aggregate effects of the creation of individual accounts is 
similar to the effects of a change in portfolio by the Trust 
Fund.
    As has been noted by many analysts, Trust Fund investment 
in equities reduces the projected actuarial deficit and will 
increase the expected rate-of-return from Social Security for 
future workers. However, in our economy this increase in the 
expected rate-of-return comes with an increase in the riskiness 
of that return.
    Moreover, the added expected return is not enough, by 
itself, to raise the future rate-of-return from Social Security 
up to the level of market returns. The reason that the rate-of-
return remains below the market return is the presence of an 
unfunded liability. The unfunded liability exists because 
Congress voted to give retirees in the 1940's and 50's and 60's 
and 70's far more in benefits than could have been financed by 
the taxes each of these groups paid. On average, these retirees 
were much less well off than are current and future retirees. 
Most retirees prefer not to live with their children if they 
can afford to live separately. So current workers are 
benefiting from seeing that their elders have a better standard 
of living and that they are capable of living on their own. But 
current workers must receive a lower return from Social 
Security in order to pay for the higher returns received by 
earlier generations.
    The same analysis holds for individual accounts. The 
creation of individual accounts does not change the history 
that leaves Social Security with unfunded liability. The rate-
of-return from Social Security, including both individual 
accounts and the financing of the transition, is not increased 
by the creation of individual accounts per se.
    An increase in the funds for Social Security, whether in 
individual accounts or in the Trust Fund, will increase the 
rate-of-return from Social Security for future generations. But 
this increase only comes at a cost of lowering the rate-of-
return from Social Security for the generations who have to pay 
to provide increased funds for Social Security, whether they 
pay in the form of increased taxes, new mandated savings, 
decreased benefits, or the use of general revenues for Social 
Security rather than for tax cuts and other expenditures.
    In short, individual accounts without an increase in funds 
for Social Security will not directly raise national savings or 
increase the risk-adjusted rate-of-return from Social Security. 
Increased funding will raise national savings and will 
eventually raise the rate-of-return from Social Security, but 
only by putting the cost of increased funding on current 
workers. Increased funding can be done with or without 
individual accounts.

                        II. Administrative Costs

    Most proposals with individual accounts also continue some 
defined-benefit retirement program. They also keep Social 
Security in place to provide benefits to the disabled and to 
young children when a parent dies. Thus, the current 
administrative structure and cost of Social Security will 
continue into the future. Letting the Trust Fund invest in 
equities will add trivially to this cost. The 1994-1996 
Advisory Council on Social Security estimated that the 
additional cost would be \1/2\ of 1 basis point (\1/2\ of one 
one-hundredth of one percent) for the amount invested in 
private securities. That is, for each billion dollars invested 
in private securities, the annual cost would be roughly 
$50,000. This estimate seems roughly right.
    Any creation of individual accounts will add to costs, 
because of the need for new institutions and because of 
duplication of administrative tasks with some proposals. The 
size of these additional costs depends on the structure of the 
accounts. The overwhelming bulk of the costs associated with 
accounts depends on the existence of the accounts, not the 
precise value of assets in the accounts. While it is common to 
state costs in terms of basis points charged annually on 
balances in accounts, I think it is better to think of costs as 
dollars per person per year. This cost can then be compared 
with the amounts going to the individual accounts. It is 
important to remember that the workers covered by Social 
Security average much lower earnings than do those covered by 
401(k) plans. For example, in 1996, 58 percent of workers 
covered by Social Security had annual taxable earnings below 
$20,000, and 23 percent had earnings below $5,000.
    The TSP cost roughly $23 to $24 per worker in 1997. A 
worker earning $27,000 per year (roughly mean earnings), would 
deposit $540 per year with 2% accounts. Thus the costs of the 
TSP would be 4.4% of the amount deposited. In the vocabulary of 
mutual funds, we can consider this a front-load of 4.4%. (TSP 
costs would be 2.9% of mean deposits with 3% accounts and 1.7% 
with 5% accounts.) Would government-held accounts cost more or 
less than TSP costs per worker? It is hard to say, since it 
depends on the details legislated--with a bare bones system 
some costs would be higher and some costs would be lower 
(including the provision of considerably less in services than 
TSP offers). This $23 figure strikes me as a reasonable 
ballpark number; but it is roughly twice what was assumed by 
the Advisory Council on Social Security for government-held 
accounts. Let me put this number into two contexts. First, it 
would more than double the administrative costs of Social 
Security. Second, this front load of 4.4% on a 2% account is 
equivalent to a 4.4% cut in this portion of benefits, compared 
to what could be financed with the same aggregate portfolio 
invested by the Trust Fund.
    Privately-held accounts would cost more. How much more 
depends on how withheld funds get to financial institutions, 
what services are provided and what types of investments people 
choose. Taxes could be collected as they are now, with deposits 
by the government into the privately-held accounts once a year. 
Direct payment to financial institutions by employers or by the 
workers themselves would raise costs significantly on firms, on 
workers and on financial institutions. The cost of 
reconciliation of account deposits with taxes withheld is a 
particular problem. Moreover, setting up a system of 
reconciliation would duplicate what Social Security already 
does in reconciling W-2 forms with both taxes transmitted to 
the Treasury and Social Security records. Furthermore, direct 
payment to financial institutions would require additional 
enforcement efforts on the part of the Internal Revenue 
Service.
    In thinking about how much private firms would charge 
workers for maintaining these accounts, we need to consider 
both the direct costs of handling the accounts and the 
marketing costs and profits of the firms. As with other 
markets, some firms will set low charges and others will set 
high charges. The charges will depend on the range of services 
provided by the firms, on whether they are allowed to charge 
workers when reallocating accounts after a divorce, and on the 
regulatory structure placed on these accounts.
    It is difficult to know which existing accounts represent 
the closest approximation to what these accounts are likely to 
cost. Total costs for 401(k) plan administration vary greatly 
with the size of the firm and the services provided to workers. 
They also include the cost of providing information to comply 
with government regulations, some of which would not be present 
for Social Security accounts. On the other hand, reconciliation 
costs for financial institutions are held down since they 
receive all deposits together from the employer and generally 
electronically. IRA accounts also have little cost from 
reconciliation and they receive less regulation than is likely 
for mandatory accounts, since the government would be more 
concerned about protecting workers subject to a mandate. 
Consideration of either 401(k) or IRA accounts show higher 
costs on average than those of TSP, even with the lowest cost 
firms. Average charges would be considerably higher than the 
costs in the lowest cost firms. And charges would be higher (in 
percentage terms) on smaller accounts, unless the government 
required firms handling the accounts to offer the same 
opportunities to all workers.
    A different approach to estimating charges is to consider 
foreign experience with privately-held accounts. Costs in Chile 
are roughly 20% of deposits each month, equivalent to a 20% 
front load. As discussed in the appendix, a 20% front load is 
roughly equivalent to a 1% annual maintenance fee for a full-
career worker. A 20% front load or 1% annual maintenance fee 
seems to me a reasonable ballpark number for what accounts 
would cost in the US, on average, if they were as big as in 
Chile -10% of payroll. In Argentina and Mexico, with similar 
structures but smaller accounts, the charges are higher in 
percentage terms. In the UK, an advanced economy with 
privately-held individual accounts, costs are higher than in 
Chile. So I think that privately-held accounts would cost at 
least 4 times as much as accounts held by the government in a 
bare bones system. That is, the part of payroll tax payments 
that is used to finance benefits through privately-held 
accounts contains a 20% benefit cut compared with what could be 
financed by the same aggregate investment in equities by the 
Trust Fund.
    It is common in discussing individual accounts to focus on 
the accounts and to ignore the additional costs that come with 
the provision of benefits from the accounts. But it is 
retirement income, not fund accumulation, that is the central 
purpose of Social Security. That means that accumulations need 
to be turned into streams of monthly payments. Annuitization 
adds to costs. If accounts are not annuitized, workers and 
their families risk outliving their money. So the costs of 
annuitization need to be added to the cost of maintaining 
individual accounts.

                            III. Market Risk

    Estimates of the market risks associated with individual 
accounts depend on how the past is interpreted as a guide for 
the future. Estimates of the future performance of the stock 
market vary in their assumptions on the possibility of very low 
probability very bad events and on the extent to which the 
market is currently overvalued, both issues that are in 
dispute. What we can say is that a defined-benefit approach has 
the ability to spread the market risk across workers of 
different ages and different earnings in ways that are not done 
with individual accounts.

                           IV. Worker Choice

    With Trust Fund investment, workers would have no 
individual choice on how the assets are invested. With 
government-held accounts, they would have choice among a small 
number of index funds. This allows workers to adjust their 
risk/return combinations by varying their relative holdings of 
bond and stock accounts. Having privately-held accounts opens 
up additional options, such as managed investment in equities, 
wider choice of investments abroad, bank CDs, and insurance 
company products. Some of this choice will help individual 
workers tailor their investments to their attitude toward risk. 
However, it is difficult to assess the investment abilities of 
different fund managers. And managed accounts have additional 
administrative costs and additional brokerage charges. Workers 
should be protected from the most risky choices by limiting 
investments to widely diversified portfolios or products 
guaranteed by sound financial institutions. However, limiting 
investment options requires another layer of regulation. 
Indeed, it is to be expected that any use of private firms for 
mandated accounts will involve additional government 
regulation.

                          V. Worker Education

    The wider the array of choices for workers, the greater the 
need for worker education. Worker education that really impacts 
worker decisions is expensive, an issue that is particularly 
relevant when one is thinking about small accounts. It would be 
a large burden for firms that do not offer 401(k) plans to 
require employers to provide adequate education about 
investment to workers.

                             VI. Conclusion

    Considering only the economics of investment policy, Trust 
Fund investment in equities can generate higher returns with 
lower risks than do individual accounts. It also avoids the 
need for additional regulation that would go with private 
holding of these accounts. It also represents a system where it 
is easier to protect lower-earning spouses and low earners 
generally. But it requires a carefully designed institutional 
structure for investing well.

                                Appendix

    The wide variety of charges for fund management can be put 
into a common frame by comparing the ratio of the account 
accumulation available at retirement with a given set of 
charges to the account accumulation that would be available if 
there were no charges. The charge ratio is defined as the 
percentage decline in account value as a result of the charges. 
The charge ratio depends on the contribution history of the 
worker and the rate of return on the portfolio as well as the 
structure of charges. For a worker with a 40-year career, 
exponential real wage growth of 2.1 percent per year and a 
portfolio that earns a real return of 4 percent per year, a 1 
percent management fee reduces the value of the account by 
19.6%, roughly 20%. That is, for a worker with a 40-year 
career, the average deposit is charged a 1% annual fee roughly 
20 times. Higher wage growth reduces the charge ratio slightly, 
since more contributions are made later in the worker's career 
and subject to fewer annual management fees. A lower management 
fee reduces the charge ratio roughly proportionally over the 
relevant range.

                              Charge Ratio
------------------------------------------------------------------------
  Interest      Wage       Career    Front Load    Mgmt Fee     Charge
  Rate (%)   Growth (%)    Length        (%)         (%)       Ratio (%)
------------------------------------------------------------------------
4..........        2.1          40           0        1          19.6
 4.........        2.1          40           0        0.5        10.5
 4.........        2.1          40           0        0.1         2.2
 4.........        2.1          40           1        0           1
 4.........        2.1          40          10        0          10
 4.........        2.1          40          20        0          20
------------------------------------------------------------------------

      

                                <F-dash>

    Chairman Bunning. Thank you.
    Mr. Cavanaugh, would you proceed.

 STATEMENT OF FRANCIS X. CAVANAUGH, FORMER EXECUTIVE DIRECTOR 
   AND CHIEF EXECUTIVE OFFICER, FEDERAL  RETIREMENT  THRIFT  
                       INVESTMENT  BOARD

    Mr. Cavanaugh. Thank you, Mr. Chairman, I'm delighted to be 
here. I'll comment briefly on the four issues the Subcommittee 
asked me to address.
    First, the effect of Social Security PSA investments on the 
capital markets would be slight and gradual increases in demand 
for corporate stocks and possibly other private investments and 
corresponding decreases in demands for U.S. Treasury 
securities. As funds are diverted from the Social Security 
Trust Fund, which is now invested solely in Treasury 
securities, the Treasury will increase it's borrowing in the 
private market.
    Treasury borrowing costs might increase slightly, but such 
increases might be offset in part by savings to the Treasury 
from reducing issues to the trust fund on preferential terms. 
PSA investments in stock would probably never exceed 2 percent 
of the capitalization of the U.S. stock market.
    Your second issue, the cost and administration of the PSAs, 
needs much more study. It just hasn't been done. This country 
has no experience with a mandatory system of individual 
accounts dependant upon the performance of very small employers 
and very low-income employees.
    In 1994, 46 percent of workers for whom Social Security 
taxes were paid earned less than $15,000. Assuming 2 percent of 
a $15,000 income or $300, were invested annually in the PSA, 
the earnings in such a small account would generally be more 
than offset by the cost of servicing the account in the first 
several years of the plan.
    The net earnings of the average PSA would probably never 
equal the net earnings of the funds invested in Treasury 
securities in the Social Security Trust Fund.
    The administration of PSAs for the 140 million Social 
Security employees, if modeled after the 2.3 million member 
Federal Thrift Savings Plan, TSP, would require at least 10,000 
highly trained Federal employees to man the telephones and 
answer employee questions.
    PSAs would require the cooperation of 6.5 million private 
employers, most of whom could not meet TSP reporting standards. 
Federal agencies generally report payroll deductions and other 
employee data to the TSP on magnetic tape. But over 80 percent 
of private employers are still reporting to the Social Security 
Administration on paper, an extraordinarily costly and error 
prone process. The cost of error corrections, say for failure 
to make timely stock market investments, would be more than 
many small employers could bear.
    Your third issue, investor education, is a statutory 
requirement of the TSP. The Office of Personnel Management has 
the primary responsibility for training, but the Thrift 
Investment Board itself conducts hundreds of training sessions 
each year throughout the country for personnel and payroll 
officers and individual plan participants.
    These sessions, along with the TSP summary plan document, 
animated video, investment booklet, pamphlets, posters, and 
other materials, require extensive support from the Federal 
employing agencies. Such support could not be provided by most 
of the 6.5 million employers in the Social Security Program, 
given their lack of resources, the relatively low income of the 
average private employee, and the language difficulty. Meeting 
TSP standards, if possible at all, could be accomplished only 
at a price so high as to reduce net investment earnings to 
unacceptably low levels.
    As to your fourth issue, the role of employers, large and 
small, in the PSA system, large employers with competent 
personnel, payroll, and systems experts could be expected to 
perform the functions now performed for the TSP by the Federal 
employing agencies. Yet most private employers have less than 
10 employees. Also, household employers who hire part-time 
providers of cleaning and other domestic services are obviously 
ill-equipped to meet the employee information needs of a PSA 
system.
    I believe it would be impossible to establish cost-
effective TSP-type PSAs for the Social Security system. That 
is, the net investment earnings after administrative expenses 
of the PSAs would be less than the net earnings of Social 
Security Trust Fund investments in Treasury securities. Nor 
would the IRA-type alternative be cost effective, because of 
the relatively high administrative costs of small accounts.
    The only feasible way for the Social Security system to 
benefit from the higher returns offered by the stock market, is 
to invest a portion of the trust fund in stocks, which is what 
virtually all large public and private pension and retirement 
funds have already done.
    Thank you.
    [The prepared statement follows:]

Statement of Francis X. Cavanaugh, Former Executive Director and Chief 
Executive Officer, Federal Retirement Thrift Investment Board

    My name is Francis Cavanaugh. I was the first Executive 
Director and chief executive officer of the Federal Retirement 
Thrift Investment Board (1986-1994), the agency responsible for 
administering the Thrift Savings Plan for Federal employees. 
Before that, I served in the U.S. Treasury Department (1954-
1986) as an economist and as director of the staff providing 
advice on Federal debt management and related Federal 
borrowing, lending, and investment policies. I am currently a 
writer and public finance consultant. I represent no clients 
and speak only for myself.
    I am happy to participate in this hearing on the 
administrative costs and feasibility of establishing personal 
savings accounts (PSAs) within the Social Security system.

                                Summary

    I will comment briefly on the four issues your subcommittee 
asked me to address.
    First, the effect of Social Security PSA investments on the 
capital markets would be slight and gradual increases in demand 
for corporate stocks and possibly other private investments and 
corresponding decreases in demand for U.S. Treasury securities. 
As funds are diverted from the Social Security trust fund, 
which is now invested solely in Treasury securities, Treasury 
will increase its borrowing in the private market. Treasury 
borrowing costs might increase slightly; such increases might 
be offset in part by savings to the Treasury from reducing 
issues to the trust fund on preferential terms. PSA investments 
in stocks would probably never exceed two percent of the 
capitalization of the U.S. stock market.
    Your second issue, the cost and administration of the PSAs 
needs much more study. This country has no experience with a 
mandatory system of individual accounts dependent upon the 
performance of very small employers and very low-income 
employees. In 1994, 46 percent of workers for whom Social 
Security taxes were paid earned less than $15,000. Assuming two 
percent of a $15,000 income, or $300, were invested annually in 
a PSA, the earnings on such a small account would generally be 
more than offset by the cost of servicing the account in the 
first several years of the plan. The net earnings of the 
average PSA would probably never equal the net earnings of the 
funds invested in Treasury securities in the Social Security 
trust fund.
    The administration of PSAs for the 140 million Social 
Security employees, if modelled after the 2.3 million member 
Federal Thrift Savings Plan (TSP), would require at least 
10,000 highly trained Federal employees to man the telephones 
and answer employee questions. PSAs would require the 
cooperation of 6.5 million private employers, most of whom 
could not meet TSP reporting standards. Federal agencies 
generally report payroll deductions and other employee data to 
the TSP on magnetic tape, but over 80 percent of private 
employers are still reporting to the Social Security 
Administration on paper, an extraordinarily costly and error 
prone process. The cost of error correction, say for failure to 
make timely stock market investments, would be more than many 
small employers could bear.
    Your third issue, investor education, is a statutory 
requirement for the TSP. The Office of Personnel Management has 
the primary statutory responsibility for TSP training, but the 
Thrift Investment Board conducts hundreds of training sessions 
each year throughout the country for personnel and payroll 
officers and for individual plan participants. These sessions, 
along with the TSP summary plan document, animated video, 
investment booklet, pamphlets, posters, and other materials, 
require extensive support from the Federal employing agencies. 
Such support could not be provided by most of the 6.5 million 
employers in the Social Security program, given their lack of 
resources, the relatively low income of the average private 
employee, and the language difficulties. Meeting TSP standards, 
if possible at all, could be accomplished only at a price so 
high as to reduce net investment earnings to unacceptably low 
levels.
    As to your fourth issue, the role of employers, large and 
small, in a PSA system, large employers with competent 
personnel, payroll, and systems experts could be expected to 
perform the functions now performed for the TSP by Federal 
employing agencies. Yet most private employers have less than 
10 employees. Also, household employers who hire part-time 
providers of cleaning and other domestic services are obviously 
ill equipped to meet the employee information needs of a PSA 
system.
    I believe it would be impossible to establish cost-
effective TSP-type PSAs for the Social Security system. That 
is, the net investment earnings (after administrative expenses) 
of the PSAs would be less than the net earnings of Social 
Security trust fund investments in Treasury securities. Nor 
would the IRA-type alternative be cost-effective, because of 
the relatively high administrative costs of small accounts.
    The only feasible way for the Social Security system to 
benefit from the higher returns offered by the stock market is 
to invest a portion of the trust fund in stocks, which is what 
virtually all large public and private pension and retirement 
funds have already done.
    I will now discuss these issues in more detail.

               The Thrift Savings Plan or 401(k) Approach

    The TSP has 2.3 million accounts and is the largest defined 
contribution plan in the nation, although small compared to any 
plan for over 140 million Social Security workers. The TSP 
record keeper maintains a highly trained staff of 150 persons 
to respond to telephone questions from TSP participants. If the 
PSA structure were modelled after the TSP, a telephone staff of 
at least 10,000 would be necessary, especially since PSA 
participants would generally have less education, income, and 
employer support than TSP participants.
    PSAs in fact could not be modelled after the TSP, which is 
structured much like the voluntary 401(k) defined contribution 
plans offered by most large corporate employers. The TSP 
requires a highly complex central record keeping system, and it 
depends on the Federal employing agencies and their expert 
personnel, payroll, and systems people to handle its ``retail'' 
operations throughout the world. This includes the distribution 
of TSP forms and other materials, employee education programs, 
and individual counselling. Each agency is required to provide 
employee counselling on all aspects of the retirement system, 
including the TSP, and the Office of Personnel Management is 
required under the TSP statute to provide training for the 
agency counsellors.
    Employers are also responsible for the timely transmission 
of data to the TSP record keeper each payday for each 
employee's contributions, investment choices, interfund 
transfers, loans, loan repayments, withdrawals, and other 
essential information to ensure prompt and accurate investment 
and maintenance of employee accounts, including the restoration 
of employees' lost earnings because of delayed deposits or 
other employer error. While PSA proponents may not contemplate 
emergency loans or withdrawals, 401(k)s and the TSP permit 
them. I believe that it would be politically impossible to deny 
emergency access to funds once their ownership is vested in the 
names of individual account holders.
    Private employers are now required to report individual 
Social Security tax information only once a year. Surely there 
would be millions of small employers who would be unwilling or 
unable to assume the additional administrative burden of PSAs 
and the corresponding financial liability, for example, to make 
up for lost stock market earnings resulting from employer 
failure to process an employee's interfund transfer request on 
time.
    Even if the 401(k) approach were made workable for PSAs, 
perhaps by adopting (politically unpopular) measures such as 
exempting small employers or limiting the earnings or options 
of very small investors, net investment earnings would probably 
still be much less than would have been earned from Social 
Security fund investments in Treasury securities. According to 
the Social Security Administration, 46 percent of Social 
Security workers, including part-time and temporary workers, 
earned less than $15,000 a year in 1994. Servicing such small 
accounts would entail unacceptably high expense ratios.
    A PSA deposit of two percent of a $15,000 income would 
produce contributions of $300 in the first year. Assuming the 
annual cost of servicing an account is $30 \1\ (or $4.2 billion 
for 140 million accounts), then the expense ratio would be ten 
percent, or 1000 basis points, compared to the TSP net expense 
ratio of 7 basis points in 1997.\2\ That ratio would clearly 
exceed the real (after inflation) returns from PSA investments 
in a balanced portfolio of stocks, bonds, and other instruments 
in the first year of the plan. Moreover, since individuals with 
incomes below $15,000 tend to be risk averse and thus avoid 
stocks \3\ in favor of lower yielding fixed-income investments, 
their net earnings (after expenses) would likely be negative 
for several of the early years of the plan.
---------------------------------------------------------------------------
    \1\ According to the ``Report of the 1994-1996 Advisory Council on 
Social Security, Volume 1'' (Washington, D.C.), 100, $30 per year is 
typical of charges levied for IRAs for flat dollar account maintenance 
fees.
    \2\ The net expense ratio is the gross expense ratio minus 
forfeitures and is the administrative charge to TSP participants. For 
example, in 1997 the gross expense ratio was .09, and the net expense 
ratio of .07 represented a charge to participants of $0.70 for each 
$1,000 of their TSP account balances. The expense ratios have declined 
steadily since 1988, when the gross ratio was .67 and the net ratio was 
.34.
    \3\ In 1995, only 6 percent of families with incomes less than 
$10,000 and only 25 percent of families with incomes from $10,000 to 
$25,000 had any direct or indirect stock holdings. Arthur B. Kennickell 
and Martha Starr-McCluer, ``Family Finances in the U.S.: Recent 
Evidence from the Survey of Consumer Finances,'' excerpt from Federal 
Reserve Bulletin, January 1997, 12.
---------------------------------------------------------------------------
    By contrast, and contrary to popular belief, the Social 
Security trust fund now receives a relatively attractive net 
return on its investments in special issues of Treasury 
securities. The average annual interest rate on such issues 
over the past 30 years has been approximately 8.3% (about 3% 
after inflation). The trust fund is given preferential 
treatment, compared to private investors in Treasury 
securities: it is not required to pay any brokerage or security 
transaction costs, it receives the (higher) long-term interest 
rate on its short-term investments, and it is insulated from 
market interest rate risk by being guaranteed par value 
redemption on securities redeemed before maturity.\4\ These 
securities are safer and more liquid than short-term market 
instruments such as Treasury bills or bank CDs which pay 
substantially lower rates.
---------------------------------------------------------------------------
    \4\ Francis X. Cavanaugh, The Truth about the National Debt: Five 
Myths and One Reality (Boston: Harvard Business School Press 1996), 
158.
---------------------------------------------------------------------------

                            The IRA Approach

    An alternative suggested by some PSA proponents is to 
require employees to set up IRA-type accounts at private 
financial institutions selected by the employees. Employers 
could then be required to send the prescribed percent of pay to 
the various financial institutions chosen by each of their 
employees. This IRA alternative has the advantage of being much 
less burdensome on small employers than the 401(k) approach. 
Yet IRAs are generally much less cost-effective than 401(k)s 
because the 401(k)s have the advantage of professional fund 
management, bargaining power in financial markets, and other 
economies of scale. The average annual expense ratio for stock 
mutual funds over the past decade has been estimated by 
Vanguard at approximately 200 basis points, including 
transaction costs,\5\ and the PSA accounts would be much 
smaller and thus relatively more costly to maintain.
---------------------------------------------------------------------------
    \5\ The Vanguard Group, ``In the Vanguard,'' Summer 1996 (Valley 
Forge, PA), 10.
---------------------------------------------------------------------------
    As indicated above, a typical PSA might have an expense 
ratio of about 10 percent in the first year of the account. It 
would take many years before such an account would earn a 
reasonable net return after administrative expenses. Over the 
past 30 years, the average annual real (after inflation in 
excess of 5 percent) return was approximately 3 percent for 
Treasury bonds, 6 percent for common stocks, and from 0 to a 
minus 1 percent for Treasury bills and various other short-term 
instruments, including bank CDs and money market accounts.
    Yet many ``risk averse'' low-income PSA investors would 
undoubtedly seek the apparent safety and simplicity of a CD or 
money market account at their local bank or credit union, which 
would have provided over the past 30 years no net return after 
inflation (compared to a net 3% return from the Treasury bonds 
in the Social Security trust fund). Even under the very 
optimistic assumption that PSA investors would in time allocate 
their accounts on average one-third to stocks (at 6 percent), 
one-third to bonds (at 3 percent), and one-third to CDs (at 0 
percent), for an average return of 3 percent after inflation 
(but before administrative expenses), those investments could 
never catch up with the 3 percent return of the Social Security 
trust fund.
    The suggestion by some that competition would force 
financial institutions to lower costs substantially is 
doubtful. The market for personal savings and investments is 
already well established and highly competitive. More 
aggressive competition for small accounts would add substantial 
marketing, promotion, advertising, and high pressure sales 
costs.
    Also, given the likely concerns about exploitation of small 
investors by the sharp practices of many financial advisers and 
investment managers, Congress would likely impose new 
regulatory burdens which would add to administrative costs.
    Congress specifically rejected IRA-type proposals when it 
designed the TSP: \6\
---------------------------------------------------------------------------
    \6\ H.R. Rep. No. 99-606, at 137-38. reprinted in 1986 U.S.C.C.A.N. 
1508, 1520-21.
---------------------------------------------------------------------------
    Because of the many concerns raised, the conferees spent 
more time on this issue than any other. Proposals were made to 
decentralize the investment management and to give employees 
more choice by permitting them to choose their own financial 
institution in which to invest. While the conferees applaud the 
use of IRAs, they find such an approach for an employer-
sponsored retirement program inappropriate.
    The conferees concur with the resolution of this issue as 
discussed in the Senate report (99-166) on this legislation:
    As an alternative the committee considered permitting any 
qualified institution to offer to employee[s] specific 
investment vehicles. However, the committee rejected that 
approach for a number of reasons. First, there are literally 
thousands of qualified institutions who would bombard employees 
with promotions for their services. The committee concluded 
that employees would not favor such an approach. Second, few, 
if any, private employers offer such an arrangement. Third, 
even qualified institutions go bankrupt occasionally and a 
substantial portion of an employee's retirement benefit could 
be wiped out. This is in contrast to the diversified fund 
approach which could easily survive a few bankruptcies. Fourth, 
it would be difficult to administer, Fifth, this ``retail'' or 
``voucher'' approach would give up the economic advantage of 
this group's wholesale purchasing power derived from its large 
size, so that employees acting individually would get less for 
their money.
    The conferees' concern about giving up ``wholesale 
purchasing power'' is very relevant here because investments by 
individual accounts, rather than by the Social Security trust 
fund, either in bonds or stocks, would be an enormous sacrifice 
of wholesale purchasing power.
    Of course, the conferees' comments were from the 
perspective of the Federal government as an employer; it is not 
clear whether Congress would take a more or less paternal view 
in the case of Social Security.
    The insurmountable problems with the PSA proposals are that 
(1) they shift Social Security from central financing to small 
individual accounts, thus losing economies of scale, and (2) 
they shift the investment risk from the group to the 
individual, thus violating the first principle of insurance.
    Both economically and administratively, Social Security 
taxpayers would be much better off if any stock or other 
security investments were made by the collective Social 
Security fund, rather than by individual investments. Based on 
the assumptions in the 1997 report of the Advisory Council on 
Social Security, a gradual investment in stocks of up to 40 
percent of the Social Security trust fund would produce a stock 
portfolio of an estimated $1 trillion (1996 dollars) in 2014. 
Yet the rapid development and growth of a variety of index 
funds in the United States and abroad should provide ample 
opportunities for substantial diversified investments of Social 
Security funds with minimal market impact. The capitalization 
of the U.S. stock market today is approximately $12 trillion, 
and at the Council's assumed growth rate it would be close to 
$40 trillion in 2014. The Council also contemplated investment 
in foreign stocks, which would reduce the estimated impact of 
Social Security stock investments on the U.S. stock market to 
less than 2 percent. (PSA investments of just two percent of 
incomes would of course have a much smaller impact on the stock 
market.) The Council's assumed 40 percent allocation to 
equities is quite modest--a 50 percent allocation would be more 
in line with the portfolio mix of other retirement funds. The 
TSP currently has 51 percent in equities, and Pensions and 
Investments (January 26, 1998) reports that the top thousand 
defined benefit plans hold 62 percent of assets in equities and 
that the top thousand defined contribution plans hold 65 
percent in equities. Based on the Advisory Council's investment 
return assumptions, a 50 percent allocation to equities in the 
Social Security fund would slightly more than double the 
investment earnings of the fund.
    To those who say that an individual account approach is 
needed to increase real savings in our economy I would say that 
such real savings would be significantly reduced by the high 
administrative expenses associated with small individual 
accounts--greater real savings would be realized by channeling 
any increased Social Security taxes into centralized investment 
in the Social Security trust fund. To those who say that an 
individual account approach is needed to change the income 
redistribution or generational effects of Social Security 
financing I would say the first priority should be to enlarge 
the total Social Security pie, through more rational investment 
policies, so that we may better deal with any equity issues--a 
rising tide lifts all boats. Then those who would change the 
distribution of shares, by income or generation, could do more 
for some without hurting others so much.
    Even if some sort of PSA is added to the Social Security 
system, a large portion (I would suggest up to 50 percent) of 
the remaining Social Security trust fund clearly should be 
invested in equities, which is what virtually all large public 
and private pension and retirement funds now do.
      

                                <F-dash>

    Chairman Bunning. Thank you, Mr. Cavanaugh.
    Dr. Schieber.

  STATEMENT OF SYLVESTER J. SCHIEBER, PH.D., VICE PRESIDENT, 
  WATSON WYATT WORLDWIDE; AND FORMER MEMBER, 1994-96 ADVISORY 
                   COUNCIL ON SOCIAL SECURITY

    Mr. Schieber. Thank you, Mr. Chairman. I'm also pleased to 
appear before the Subcommittee today to talk about this vitally 
important issue.
    In my prepared remarks, I address each of the major 
questions that the Subcommittee put forward. The primary basis 
of my comments today will focus on the administrative issues, 
and if I have time, I'll speak a bit to the employer issues as 
well.
    In establishing a PSA system, legislators will have to 
create an administrative system and regulatory structure that 
is efficient. Here there are two general approaches. First, we 
could create a centrally structured system along the lines that 
you just heard Mr. Cavanaugh advocate. The second would 
establish a regulatory framework for workers to create their 
own PSAs through a myriad of investment options available in 
the financial markets.
    There are two fundamental issues at stake. One is the 
desire to minimize administrative costs. The other is the 
desire to minimize the intrusion of the Federal Government in 
the free operation of businesses and it's citizens in carrying 
out their economic activity. These two considerations pull in 
opposite directions.
    There is no doubt that concentrating the administration of 
a personal account program within a single entity would render 
potential economies of scale. On the other side, the question 
is whether we can craft a system that allows workers' freedom 
in setting up their own accounts that have acceptable costs 
associated with them.
    In my prepared testimony I explore ways to set up a system 
of accounts that would give workers more flexibility than a 
centrally managed system would. I cannot go into that fully 
here.
    But to prove that such a system is achievable, we can look 
at Australia, which has established a national individual 
account system. Under their system, workers accounts tend to be 
organized at the employer or the union level. Under their 
system--the system is measured by the Australian Bureau of 
Statistics--the administrative costs run about 90 basis points 
a year, about nine-tenths of 1 percent.
    A question raised by the added costs involved in a more 
flexible system is why we would to bear such costs, unless they 
were absolutely unavoidable. There are two parts to the answer.
    The first is an assessment of whether the Federal 
Government can be an accumulator of a substantial share of our 
capital base. In my prepared remarks, I look at the historical 
debate and attempts at funding Social Security. Frankly, I do 
not believe that we can prefund these retirement obligations 
directly through government accumulation.
    The second part of the answer relates to whether it is 
desirable to have the Federal Government be a substantial owner 
of our private capital base. Again, I do not believe that this 
Congress, or any future one, can create a firewall around a 
centrally managed fund that will insulate the fund from 
political manipulation. I think that's very important.
    Undoubtedly, the establishment of a mandated system of 
individual retirement accounts will create the need for more 
education on investment than is now available. The research 
that I have done on 401(k) plans, however, is instructive of 
how people actually behave when they have retirement assets 
that they control themselves.
    Our research indicate that workers in 401(k) plans invest 
in reasonable patterns. Older workers invest more 
conservatively than younger ones. Low-wage workers invest more 
conservatively than high-wage workers. We have found that women 
are as effective, if not more so, in their use of 401(k) plans 
than their male counterpart.
    Our results do not mean that education to the public about 
investing will not be a challenge. It does suggest, however, 
that it's not an insurmountable one. Indeed, I believe it is 
not only doable, I think it is also highly desirable.
    Employers' role will depend on the nature that reform 
takes. In Australia, the provision of individual accounts is 
generally implemented at the employer level. In Chile, 
employers have very little role.
    One of the things that people are worried about, if we 
implement a reform of this sort, is that employers will cut 
back on their own commitment to their own plans. As I point out 
in my prepared testimony, that really depends on whether or not 
the reformed system becomes more generous than the current 
system. If it does, it is likely employers will curtail their 
plans. If it is not more generous, there is no reason for them 
to do so.
    In closing though, I think there is one thing everybody 
should be aware of. There is some prospect that employer plans 
will be curtailed in the future, because they're facing the 
same kind of cost pressures that Social Security is facing. And 
so I think it makes Social Security reform an even more 
important that we figure out how to secure these benefits that 
we have been holding out to people. And I frankly believe a 
personal account option is a superior way to do that.
    Thank you very much.
    [The prepared statement follows:]

Statement of Sylvester J. Schieber,\1\ Ph.D., Vice President, Watson 
Wyatt Worldwide; and Former Member, 1994-96 Advisory Council on Social 
Security

    Mr. Chairman, I am pleased to appear before the 
Subcommittee on Social Security of the Committee on Ways and 
Means today. I am here to discuss the potential structure of 
personal security accounts (PSAs) as part of the Social 
Security system and the effect that such accounts would have 
for financial markets, workers and retirees, and business. As 
you are aware, Carolyn Weaver and I, as members of the 1994-
1996 Social Security Advisory Council, authored the PSA 
proposal put forward by that Council. Thus, it should be clear 
that I come before you as a proponent of the type of Social 
Security reform this hearing is meant to explore.
---------------------------------------------------------------------------
    \1\ The views in this statement are those of the author and do not 
necessarily reflect the views of Watson Wyatt Worldwide or any of its 
other associates.
---------------------------------------------------------------------------
    In my testimony today I address a number of the issues you 
raised in your letter asking me to testify before you. First, I 
will address the potential effect of PSA investments on the 
capital markets. Second, I will comment on the potential cost 
and administration of PSAs; issue of administration and 
management of the accounts. Third, I will discuss the need for 
investor education if such a reform model were to be adopted. 
And finally, I will evaluate the potential role of employers in 
a PSA system.
    Given that we are prognosticating about the prospects of a 
reform model that has not yet been implemented, I trust you 
understand that my testimony about the impacts of the model is 
based on observations about how the world as we know it works. 
To the extent that reform would change the world, the outcomes 
might be different than those I postulate here. However, I do 
not believe that they would be wildly so.

            The Potential Effects of PSAs on Capital Markets

    The capital markets in the United States are the largest in 
the world and are among the most highly developed in the world. 
Despite their magnitude and state of development, it is likely 
that the adoption of a PSA-type policy would affect our 
financial markets leading some to voice concerns about the 
implications of a policy change of this sort.
    One of the concerns often voiced by critics of individual 
accounts is that the creation of such accounts and the 
investment in them might lead to artificial inflation of asset 
prices. Put more directly, the concern is that we would have 
more money pouring into the markets driving up the prices of 
assets without adding to the underlying value of the assets 
themselves. While the adoption of a PSA proposal might have an 
effect on market prices at the time it was adopted, over the 
longer term the effects on asset prices will be determined by 
the productivity of the assets that are owned by the holders of 
PSA accounts.
    One of the important goals of any Social Security reform 
should be the creation of additional saving in our national 
economy. To a certain extent, that was an underlying 
consideration in the development of each of the proposals put 
forward by the 1994-1996 Social Security Advisory Council, 
although the potential effects on national saving was highly 
varied among the three proposals. In order to understand the 
implications of greater national savings on capital markets, 
one has to begin by considering what households do with their 
income. Essentially, all of their income is allocated to do one 
of three things. Some of it is used to buy consumption goods 
and services, some is saved, and the remainder is used to pay 
taxes. Governments take the taxes and buy consumption or 
investment goods and services either directly--e.g., buying 
supplies for military operations, building roads, and so 
forth--or indirectly--e.g., providing food stamps to needy 
people to buy food. Producers and suppliers to the economy 
deliver the goods and services that people and institutions 
want.
    If policymakers adopt a public policy that results in 
people saving more of their income, on average, than they had 
previously it will mean that they will reduce the amount of 
consumption they had been doing, at least for a period of time. 
The fundamentals of economics teaches us that as households 
reduce consumption and do more saving that it leads to higher 
levels of investment in the economy. The added investment, in 
turn, results in higher levels of productivity for workers. A 
simple example of a carpenter who saves a portion of his 
earnings for a period so he can replace his traditional hammer 
with an air hammer is but a graphic representation of the 
effects of added investment on our economy.
    The irony of this classic perception of how economies work 
is that as people save and invest more, the expected rates of 
return on capital are believed to decline. This is not simply 
the perception of some group of economists at one fringe of the 
Social Security reform debate. This is exactly the perception 
of economists like Barry Bosworth and Gary Burtless at the 
Brookings Institution who believe we should stay with the 
traditional form of Social Security we now have. It is also the 
perception of economists like Martin Feldstein and Andrew 
Samwick who have crafted a proposal to replace our current 
Social System completely with a system of individual accounts. 
Both of these pairs of economists have developed macroeconomic 
models that show the effects of increasing national savings 
under their perception of how Social Security should be 
reformed. Their results predict similar reductions in rates of 
return to capital as their proposed reforms are implemented.
    More important than their consensus that added national 
saving would reduce rates of return to capital is their similar 
consensus that the improved productivity of labor that would 
result from such a policy will ultimately lead to higher levels 
of national output and consumption by households. The wealth of 
a nation is ultimately measured by the standard of living that 
it can provide its citizens. Standard of living in this context 
is nothing more than a measure of general consumption levels.
    Another concern about the prospects of implementing a PSA-
type proposal at the national level is that financial markets 
might be depressed as the baby boomers reach retirement and 
begin to sell off the assets they accumulate during their 
working career under such a system. On the surface of it, there 
is reason to expect that asset prices might be depressed as the 
baby boomers move from the asset acquisition phase of their 
lives to the liquidation phase. The problem here is quite 
similar to the problem facing Social Security, namely the ratio 
of retirees to workers. If workers in the future save at the 
same rate as current workers and retirees sell-off assets at 
the same rate as current retirees, the current ratio of savers 
to sellers will fall by roughly 45 percent between now and 
2030. The concern in this area is that this 45 percent shift in 
relative demand for assets will result in significant reduction 
in asset prices.
    For the sake of understanding the implications of this 
scenario, assume that asset prices are affected proportionately 
in response to this ``hypothesized'' demographic effect on 
demand. In other words, assume that asset prices by 2030 are 
reduced by 45 percent relative to what they would be if we 
could maintain the current demographic structure we now have. 
This 45 percent decline would not take place all at once, but 
rather would occur over a long period of time, perhaps in the 
twenty years 2010-30. Further, the 45 percent decline in asset 
prices assumed here is not an absolute decline in prices, but 
rather a cumulative 45 percent shortfall realized over a long 
period. If the expected total real return on equities over a 
normal 20-year interval is 395 percent (8 percent compounded 
for 20 years), then this factor might cause the total return to 
fall to 217 percent or roughly 5 percent per year. It is 
probably more reasonable to interpret the implication of the 
demographic trend in this manner (i.e. a couple of decades of 
subpar returns) than to predict actual absolute price declines. 
There are several reasons to doubt that even this reduction in 
the realized rate of return in financial markets will happen.
    First, there is the point that we now live in a world 
capital market. The elderly baby-boomers do not have to sell 
their assets to younger American workers, but rather they can 
sell them to any participants in the world capital market. This 
may reduce the price pressure on assets somewhat, but its force 
will be weakened by the fact that Europe and Japan are all 
aging societies just like the US. The only hope that the world 
capital market will help is if the developing countries in Asia 
(particularly China) become net exporters of capital within the 
next 25 years. The relative size of developed economies and the 
fact that all such economies are facing the same demographic 
problem is reason to be skeptical that the global capital 
market point will fully erase the downward pressure on prices 
in U.S. capital markets caused by the retirement of the baby-
boomers.
    Possibly the most plausible reason that the price pressure 
may be alleviated is rational expectations. After all, the 
demographic projections that our model is based on are not 
exactly private information. To the extent that these factors 
are predictable, they are already embedded in asset prices 
today. Rational expectations doesn't mean that the pressure for 
price declines will not occur, only that it will occur very 
gradually and perhaps long before the demographic factors 
actually come into play.
    Yet another reason why the downward price pressure may not 
occur is probably the most important. Corporate assets are not 
fixed like land or gold, but rather are cash-generating, 
depreciable property. When retirees increase their demand for 
cash payouts, firms may respond by reducing investment, 
reducing retained earnings and increasing dividends and share 
repurchase programs. This means that some asset liquidation can 
be achieved without selling assets to the accumulating 
generation, but rather by simply paying out a higher fraction 
of corporate earnings to existing shareholders. This third 
factor could go a long way towards eliminating the downward 
pressure on asset prices. It seems quite likely that the net 
asset price effect will be rather modest and spread over at 
least twenty years.
    One ameliorating consideration in all of this is that the 
two potential problems just discussed will actually be contrary 
forces within the financial markets. The way that added 
national savings will reduce rates of return to capital is by 
increasing the prices of assets relative to the stream of 
income that they generate. For example, a stock that yields $10 
per year at a 10 percent rate of return will cost $100. If the 
yield is driven down to 5 percent, the price rises to $200--
i.e., $200 x 0.05 = $100 x 0.10. So increases in national 
savings will raise the price of assets relative to their yield 
while the potential demographic effects on markets will tend to 
reduce the price of assets. If we can adopt policies that have 
a positive effect on our national savings rate during the 
period when baby boomers are going to be naturally selling off 
their assets, the two forces should be countervailing. Indeed, 
one of the reasons that I supported the Personal Security 
Account proposal developed by the 1994-1996 Social Security 
Advisory Council was that it had a larger projected net 
positive effect on wealth accumulation during the whole of the 
baby-boomers' retirement period than either of the other 
proposals.

        Creating an Administrative Structure for PSA Operations

    Another fundamental issue which legislators will face in 
establishing a system of individual accounts is in creating the 
administrative and regulatory structure that would allow such a 
system to operate efficiently. Here the popular thinking about 
this structure trends in two distinct directions. The first 
would create a centrally administered and managed system 
structured along the lines of the Thrift-Savings Plan (TSP) 
that is a 401(k)-type plan for federal civilian workers. The 
second would establish a regulatory environment that would 
define an operating framework for workers to create their own 
individual accounts through a myriad of investment options 
available in the financial markets.
    As I see the evolution of the discussion on this matter, I 
believe there are two fundamental issues that will determine 
the relative position that various people will take regarding 
the two approaches. The first of these is a desire to minimize 
costs associated with the operation and administration of a 
defined contribution retirement system. The second of these is 
the desire to minimize the intrusion of the government in the 
free operations of business and citizens in carrying out their 
economic activities in accordance with their own individual 
interests. These two concerns will likely pull people in 
opposite directions in terms of forming their own conclusions 
about the best approach to take.
    There is no doubt that concentrating the administration of 
a personal account program within a single entity or a 
relatively small number of entities would render economies of 
scale, at least up to a point. Creating and operating any 
administrative system results in a certain level of fixed 
costs. The larger the group that fixed costs can be spread 
across, the less the individual cost applied to any particular 
participant. While there is clearly value in minimizing 
administrative and investment management fees, the level of 
sophistication that exists in investment companies today 
suggests that the values of scale from moving to a single 
provider of administrative services might be overblown. For 
example, there are a number of retail mutual funds available to 
the general public today which charge 25 to 30 basis points per 
year in fees for managing and administering accounts.
    The primary reason that some funds tend to charge 
significantly higher fees for investors than those mentioned 
typically relates to the degree of active management of the 
funds held in the fund. The funds with relatively low charges 
tend to be funds that minimize the amount of buying and selling 
of individual equities held by the fund. Those that ``churn'' 
their holdings regularly generally will have relatively high 
fees associated with brokerage charges assessed in the normal 
buying and selling of financial instruments. One way to deal 
with this churning phenomenon is to concentrate investment in a 
single managing entity with the contractual or legislated 
provision that funds not be churned on a regular basis. 
Requiring that all investing is in index funds would be one way 
to accomplish this. Another way would be to statutorily limit 
the administrative charges that fund managers could charge for 
managing the personal accounts. Those limits would essentially 
force fund managers to minimize the extent of churning in the 
funds that they manage by virtue of the fact that too much 
churning would eat up all the administration charges they could 
assess against the accounts.
    If we were to go to a system of personal accounts that 
might be managed by multiple outside vendors, at least two 
problems would still have to be dealt with. The first of these 
is the general approach of getting contributions to designated 
managers on a timely basis. The second is dealing with small 
accounts.
    Today, half the workforce is covered by an employer-
sponsored retirement plan and the majority of them are now 
participating in defined contribution plans where regular 
contributions are being made to self-directed individual 
accounts. I believe that many workers would prefer to have some 
portion of their payroll tax go into 401(k) accounts or similar 
plans in which they are already participating. I believe that 
most of the vendors now providing self-directed plan 
administration would be willing to set up a segregated set of 
accounts to take PSA contributions.
    While such a system might work for employers already 
sponsoring self-directed individual account plans, it probably 
would not work for employers without such plans, especially 
smaller ones. For such employers a central collection function 
would probably be required. Contributions could be collected 
throughout the year as payroll taxes are now. The money would 
be held in a pooled fund and invested in a reasonable short-
term portfolio of financial instruments. At the point that W-2s 
are filed, the cumulative fund for the year could be allocated 
to individual accounts and the funds distributed to the 
managers designated by the individual worker. Minimal 
accounts--say less than $1,000--would be held in the pool until 
an appropriate threshold was achieved. Once that level was 
achieved, workers could designate that their assets be 
dispersed to an approved fund. For simplification purposes, 
workers would be restricted to one fund manager other than a 
current employer plan in which they might be participating. If 
they were not participating in an employer plan, their 
accumulated balance would be held by a single fund manager. 
Fund managers would have to offer investors multiple investment 
options in accordance with rules paralleling the ERISA section 
404 (c) rules covering self-directed investment of tax-
qualified defined contribution plan assets.
    As noted earlier, allowing investment through an extended 
set of investment arrangements will add to the administrative 
costs of the system. It is impossible to give a precise 
estimate of what such costs might be in advance of the actual 
creation of such a system. However, there are cost estimates 
for systems that have characteristics somewhat similar to what 
is being proposed. Access Research, Inc. estimates that in mid-
1987 asset levels in 401(k) plans stood at approximately $865 
billion and that the annual administrative fees for both record 
keeping and asset management for the year were $6.7 billion, or 
77 basis points--i.e., 0.77 percent.\2\
---------------------------------------------------------------------------
    \2\ Speech by Robert G. Wuelfing, CEO, Access Research, Inc., at 
the 1997 SPARK National Conference, sponsored by the Society of 
Professional Administrators and Recordkeepers, Washington, D.C., June 
23, 1997.
---------------------------------------------------------------------------
    Possibly more pertinent than the case of our own voluntary 
401(k) system is the national system of mandated personal 
accounts in operation in Australia. This system requires that 
employers make annual contributions to employee accounts. The 
funds themselves tend to be organized at the employer or union 
level. The Australian Bureau of Statistics surveys the plans 
with a minimum level of asset holdings quarterly--e.g., it 
surveyed all the plans holding assets over $10 million 
Australian--this is roughly $6 million in US currency at 
current exchange rates--in each of the quarters of 1997. For 
that whole year, total costs associated with the funds surveyed 
were 90 basis points. The costs include record administration, 
investment management, and other costs including education 
costs. While we do not yet have the detailed breakdown of costs 
based on size of plans, we know that there are economies of 
scale that can be realized by concentrating workers in larger 
plans. It is notable that nearly half of the plans surveyed--46 
percent--by the Australian Bureau of Statistics during 1997 had 
fewer than 1,000 employees. The model that I envisage for the 
United States would have much greater concentration of 
participants than the majority of plans that now operate in 
Australia.
    Throughout the development of the PSA proposal by the 
Social Security Advisory Council, all estimates were based on 
the assumption that the costs of running the PSAs would be 100 
basis points per year. The reason that we chose that level was 
that people in the investment industry told us that a statutory 
limit of 50 or 75 basis points for administration and 
management fees was not unreasonable. They suggested that the 
imposition of such a limit would still result in substantial 
numbers of providers offering their services to manage the 
personal accounts under a PSA-type plan.
    A question raised by these potential fees is why we would 
want to bear them if a large centrally managed system could 
substantially eliminate them. There are two parts to the 
answer. The first part is an assessment of whether the federal 
government can be an accumulator and holder of substantial 
share of the capital base in our economy. In the case of Social 
Security this is more than an academic question. The original 
Social Security Act passed in 1935 called for significant 
funding of the system in accordance with Franklin Roosevelt's 
strong feelings on the matter. For a variety of reasons, those 
provisions were gradually relaxed through repeated legislative 
measures adopted during the late 1930s and 1940s. Once again, 
the practical effect of the 1983 Amendments would have been to 
prefund a significant portion of the baby boomers' claim on 
Social Security by making a substantial addition to national 
savings. The net effect of the significant deficits run by the 
federal government throughout the 1980s and the first seven 
years of the 1990s was to largely dissipate the effect of the 
1983 Amendments on national saving. I look at this long history 
and question whether any attempt to prefund these retirement 
obligations directly through government accumulation can 
succeed.
    The second part of the answer relates to whether it is 
desirable to have the federal government be a substantial 
holder of ownership on the capital base of the economy. As we 
look around the world, there are national governments that have 
routinely used accumulated national retirement savings to 
finance ``social'' investment projects. In our own state and 
local public retirement plans, we have seen many cases of 
investment decisions being made on the basis of political 
considerations rather than the economic interests of the plan 
participants. I do not believe that this Congress or any other 
can create a firewall around a centrally managed fund that will 
insulate the fund from future political considerations. I 
believe the cost of dispersing these assets is in the long-term 
interest of our citizens individually and collectively.

                Needed Investor Education in a PSA World

    Undoubtedly, the establishment of a mandated system of 
individual retirement accounts will create the need for more 
widespread education on investment than is now available. Large 
segments of the population are totally ignorant of how they 
would manage the money that might accumulate under a PSA plan. 
Much of this ignorance, however, follows from the simple fact 
that many people today have no personal assets to manage. I 
believe that it is imminently sensible that people who have no 
money and do not anticipate having any in the near future would 
spend very much time figuring out how they might invest such 
funds if they had them.
    The research that I have done on 401(k) plans, however, is 
instructive of how people actually behave when they have 
retirement assets that they control themselves. We have 
recently analyzed plan administration data for a set of 401(k) 
plans that do not include company stock as an investment 
option. Using these data, we found that workers in their 20s 
and 30s held just under 60 percent of their assets in equity 
accounts at the end of 1995. For workers in their 40s and 50s, 
it was close to a 50-50 split, with the younger group having 
slightly more than half in equities, and those in their 50s 
having slightly more than half in fixed-income accounts. 
Workers in their 60s held roughly 60 percent of their 
accumulations in fixed-income assets.\3\
---------------------------------------------------------------------------
    \3\ Robert L. Clark, Gordon P. Goodfellow, Sylvester J. Schieber, 
and Drew A. Warwick, ``Making the Most of 401(k) Plans: Who's Choosing 
What and Why,'' paper presented at the 1998 Pension Research Council 
Symposium, Forecasting Retirement Needs and Retirement Wealth, April 
27, 1997, The Wharton School, University of Pennsylvania, Philadelphia, 
Pennsylvania.
---------------------------------------------------------------------------
    When we looked at variations in investment behavior based 
on workers' earnings levels we found that workers at low-
earnings level invested more conservatively than those with 
higher earnings. Workers earning under $15,000 invested 45 
percent of their assets in equities on average, those earning 
$45,000 to $60,000 held 60 percent of their funds in this form, 
and those earning over $100,000 held 70 percent this way. While 
the portfolio allocations described here might be a bit 
conservative in some investment advisors eyes, they are not 
wildly off base and the variations by earnings and age level 
follow a rational pattern that is consistent with the way 
educated investors would invest.
    In addition to looking at investment patterns across the 
age and earnings spectrums, our recent work also looked at 
differences in investment behavior between men and women. Prior 
research has found that women demonstrate greater risk aversion 
in allocating assets within their self-directed defined 
contribution plans than men.\4\ Our analysis of actual plan 
data, an advantage over prior research, found that women 
generally are not more conservative in their investment 
behavior than men when controlling for earnings level, age, and 
other important determinants of investment behavior. In 
general, our results suggest that women are as effective in 
their use of 401(k) plans as their male counterparts. It would 
be hard to characterize their investment behavior within plans 
as inferior to men, and in certain regards, it appears to be 
more rational.
---------------------------------------------------------------------------
    \4\ For example, see Vickie A. Bajtelsmit and Jack A. Vanderhei, 
``Risk Aversion and Pension Investment Choices,'' and Richard P. Hinz, 
David D. McCarthy, and John A. Turner, ``Are Women Conservative 
Investors?: Gender Differences in Participant-Directed Pension 
Investments,'' in Michael S. Gordon, Olivia S. Mitchell, and Marc M. 
Twinney, eds., Positioning Pensions for the Twenty-First Century 
(Philadelphia: University of Pennsylvania Press, 1997).
---------------------------------------------------------------------------
    Our results do not mean that education of the public about 
investing will not be a challenge. It does suggest that it is 
not an insurmountable hurdle. Indeed, it is not only doable, in 
a larger context it is probably highly desirable.

                 The Role of Employers in a PSA System

    The role that employers will play in a PSA system will 
depend significantly on the nature of the reform that is 
adopted. In countries like Australia and the United Kingdom, 
the provision of individual accounts is generally implemented 
at the employer level. In a country like Chile, where the 
system is structured around the individual worker, employers 
have a much less significant role.
    No matter what structure or approach to such reform might 
be adopted, employers will be required to remit the money 
collected to finance the system. They will also have to provide 
documented information on the covered earnings and level of 
contributions for each worker employed during any given year. 
For all practical purposes, providing such information is no 
different than what they do today.
    If we go with a centrally administered system, all 
employers will have few obligations above and beyond those of 
compliance that is essentially the same as under current law. 
If we go with a system that allows employers the flexibility of 
allowing their own workers to make contributions directly into 
self-directed individual accounts, additional reporting 
requirements and administrative mechanisms will be required to 
assure that contributions are getting into accounts on a timely 
basis as required by law.
    In terms of actually setting up and administering plans, my 
sense is that the existing section 401(k), section 403(b), and 
section 457 plans are a tremendous asset which could be adapted 
to meet the needs of nearly half the current workforce. I see 
no reason why I couldn't have payroll withholding for my PSA 
account into some of the same funds to which I now allocate 
401(k) contributions. It would require separate accounting to 
keep the funds separate, but that should not be a significant 
challenge in this rapidly evolving technical age.
    Onc concern that has been voiced about the adoption of PSA-
type reform of Social Security is that some employers might 
curtail their own pension or savings plan offerings as 
individual accounts begin to develop under a reformed system. 
When most employers undertake their own plan designs, they 
typically structure them around Social Security so the 
combination of Social Security and their own plans give workers 
the opportunity to accumulate sufficient assets to maintain 
preretirement standards of living. This is accomplished by 
designing a set of plans that supplement Social Security at a 
level that the combined retirement income will equal some 
replacement rate target. The replacement rate is the percentage 
of preretirement earnings that is replaced by the various 
combined sources of retirement income. These replacement rate 
targets typically vary between 60 and 80 percent of 
preretirement earnings depending on earnings level, age at 
retirement and a host of similar variables.
    The implications of Social Security reform for employer-
plan design depends primarily on what happens to benefit levels 
from the first tier of our retirement system. In the context of 
the PSA proposals, I would characterize the combination of 
benefits actually provided through Social Security plus those 
provided through mandated individual accounts as coming from 
the first tier of the system. If the combination of PSA 
benefits and residual benefits provided through a modified 
centralized Social Security is roughly equal to current law 
benefits, there would be little reason for employers to 
significantly modify their own plans. If benefits under the 
first tier of the system are larger than current law benefits, 
I would expect employers to curtail their own plans. If the 
amended system provides lower benefits than the current system, 
there will be pressure to increase benefits at the employer 
level.
    One thing that policymakers should keep in mind regarding 
the potential reaction of employers to public policy responses 
to an aging society is that the employers themselves are facing 
the same set of pressures. As the workforce ages, employer-
based retirement systems are becoming more expensive. This is a 
natural phenomenon in the way we fund and account for defined 
benefit plans. It occurs naturally in 401(k)-type plans because 
older workers contribute at higher rates than younger ones and 
most of these plans have employer-matching provisions that 
increase sponsor costs as employee contributions rise. Health 
benefit programs become more expensive as workforces age. This 
is particularly true for health benefit plans that cover 
retirees.

                               Conclusion

    The point of the immediately preceding paragraph is that I 
believe we are facing the prospect that some employer-sponsored 
retirement plans are going to be curtailed in coming years 
without regard for what we do on the Social Security front. 
Should that scenario come to pass, the securing of benefits 
provided through the first tier of our retirement system takes 
on even greater importance. I believe that first tier benefits 
can only be made more secure through a mechanism of greater 
funding that is associated with higher savings rates in the 
economy. I believe we can only accomplish such added funding 
through a system like the Personal Security Account system that 
I helped develop as a member of the 1994-1996 Social Security 
Advisory Council.
      

                                <F-dash>

    Chairman Bunning. I would appreciate, for the first panel, 
if they would remain here. We have to go vote. We have two 
votes, and we will be back as soon as possible. So, we'll stand 
adjourned for the time that it will take us to vote and get 
back. Thank you.
    [Recess.]
    Chairman Bunning. The Subcommittee will come to order.
    Before we begin questioning the first panel, Congressman 
Jim Kolbe from Arizona would like to present his feelings on 
this, and we would like to accept them at this time.

STATEMENT OF HON. JIM KOLBE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Kolbe. Thank you very much, Mr. Chairman. I appreciate 
the indulgence of the very distinguished panel that you have 
here, just to be able to make these remarks. I was meeting with 
the Speaker earlier when you began your testimony. So, I 
appreciate the opportunity to do this right now. I'll be very 
brief, if I might include my full statement in the record, I'd 
appreciate it, Mr. Chairman.
    Chairman Bunning. Without objection.
    Mr. Kolbe. Mr. Chairman, I cochair, as I think you may 
know, along with Congressman Charlie Stenholm and Senators Judd 
Gregg and John Breaux, the National Commission on Retirement 
Policy. We have come up with a bipartisan middle-ground 
proposal that I think combines the very best features of the 
current Social Security system with innovative reforms, that I 
think will strengthen retirement security for all workers. I'm 
very pleased with the work that we have done.
    Today I want to focus, however, on a recent study that was 
done--or analysis, would be perhaps a better word--that was 
done by the Congressional Research Service, at the direction of 
some Members of this Subcommittee, because I think it is so 
fraught with errors, not caused by CRS, but by the direction of 
the study itself, that I think it must be refuted or an answer 
must be placed on the table right away.
    Chairman Bunning. Just a moment--I just want you to know 
that we entered both the study and the analysis of the study by 
Heritage into the record prior to you being here.
    Mr. Kolbe. Thank you. I appreciate that. I wasn't referring 
to the Heritage study at all. I was referring to the 
Congressional Research Service analysis that was done for the 
Ranking Member of this Subcommittee.
    Just a word about our plan. As I said, it preserves much of 
the best features of the current system, but the main feature 
of it is the creation of an individual savings account, 
personal savings account, through a carve out of 2 percent of 
the current 12.4-percent payroll tax, to provide financial 
security for all disabled, low-income seniors, as well as for 
all other seniors.
    Restoring the solvency of Social Security requires some 
very tough choices, as this Subcommittee knows very well. And 
it requires some tradeoffs. Those who extract specific 
components of our comprehensive plan for criticism have an 
obligation to suggest other benefit cuts or tax increases to 
replace them, without weakening the program solvency.
    Now, Mr. Chairman, the CRS report that was released today, 
analyzes three Social Security reform proposals: The one done 
by the National Commission on Retirement Policy, the one I'm 
cochairing; Senators Moynihan and Kerrey's proposal; and the 
Social Security Advisory Council proposal prepared by Robert 
Ball.
    But the restrictions that were placed on the analysis by 
the requestor suggests that the study was designed specifically 
to discourage or disparage any reform plan that contains a 
personal retirement component. What's most troubling to us from 
an analytical perspective, is that the request included design 
specifications that were concocted--seemed to be concocted--
specifically to promote particular policy views.
    Any fair analysis of a personal account policy would 
obviously include the income coming from those personal 
accounts, and yet, CRS was specifically directed to count 
income accruing from the investment of personal accounts as 
equal to zero. Whereas, if it was invested by the government in 
a government account, it was to be fully counted and funded.
    Now, you're talking about starting with more than one hand 
tied behind your back when you start with that kind of 
analysis. It's a very odd value judgement--that investment in 
the private market generates income only when government 
controls the investment, but not when an individual does. But 
that's exactly what CRS was directed to do.
    Putting market forces to work to improve retirement 
benefits for workers typically has been discussed as an 
either--or proposition--do we allow workers to invest for their 
own retirement, or do we entrust the government with that? Our 
plan allows individuals to determine their retirement future.
    We believe that individual accounts have huge potential 
benefits, higher national savings rate, ultimately higher wages 
for workers, higher returns on contributions, and hence, higher 
benefits for retirees.
    The government investment approach, whatever the scale of 
it, doesn't address the central concern behind the calls for 
personal ownership of the account. And that is namely that 
voters should have their own stake in the economy--that 
citizens should have their own stake in the economy and more 
control over their retirement benefit. The current system 
provides a mere statutory right to benefits, which Congress can 
cut at any time in the future. Thus, such security is really 
illusory.
    Mr. Chairman, it's true that current law promises a benefit 
that is higher than does our plan for a low-income earner 
retiring in 2040. But under current law, the system would be 
insolvent before that point, or at best it would only have 
enough money to pay less than 75 percent of the benefit 
promises. That's a 25-percent decrease in Social Security 
benefit. So, by not taking that into account, of what is in 
current law, you have again, in another way, completely skewed 
the analysis that was done by the Congressional Research 
Service.
    I mention this, Mr. Chairman, because we really need to 
have a comprehensive and honest and open dialog on this subject 
next year. And we're not going to be helped when we have this 
kind of thing going on--when people approach it from the very 
beginning with, from an ideological standpoint, to disparage 
one kind of provision or another. We need to be able to look at 
all the different provisions.
    I'm pleased to say that the administration has kept an open 
mind on this. And I would hope that Members of the Congress 
would do that as well. Because this is going to be the single 
most important debate, as I think you know, next year, that 
this Congress is going to take up. And I want to commend you 
and your Subcommittee for having this hearing today.
    The full testimony will go into some analysis of the CRS 
study. We have asked for a revision based on comparing apples 
to apples, so that you'll be comparing real things here when 
they revise it, and I think you'll find that it's a completely 
different study the next time it comes out.
    And with that, Mr. Chairman, I thank you for your time.
    [The prepared statement and attachments follow:]
    [GRAPHIC] [TIFF OMITTED] T2578.002
    
    [GRAPHIC] [TIFF OMITTED] T2578.003
    
    [GRAPHIC] [TIFF OMITTED] T2578.004
    
    [GRAPHIC] [TIFF OMITTED] T2578.005
    
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2578.006

      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T2578.007

[GRAPHIC] [TIFF OMITTED] T2578.008

[GRAPHIC] [TIFF OMITTED] T2578.009

      

                                <F-dash>

    Chairman Bunning. Thank you, Mr. Kolbe. I will tell you 
this: Before we are finished the hearings that we are having on 
these issues, we will have a total package to look at, and it 
won't be skewed one way or the other.
    Mr. Kolbe. I thank you very much.
    Chairman Bunning. Now we'll get back to our first panel and 
our questions to our first panel. Let me address an open 
question to the first panel.
    We have heard a lot about investment risk and rates of 
return. However, one very apparent, but not qualified, risk is 
political risk, which certainly exists in the taxpayer's mind. 
As we will hear later, we have taken the surplus FICA receipts, 
spent them on other parts of government, and given the trust 
funds an IOU that has a nice coupon rate, but can only be 
redeemed at the cost of increased taxes or Federal 
indebtedness.
    Younger generations of workers who die early know other 
political risks from a system that may return very little to 
them through the current system structure. Therefore, this 
political risk exists and is real, as market risk are real.
    Private investors have some control over their risk and 
cost in their portfolios, even when it is through a 401(k) 
plan. What controls over political risk does a FICA taxpayer or 
a retiree have in the system? All of you want to take a shot at 
that, or one person? If we eventually decide on some kind of 
private investment account.
    Mr. Diamond. It seems to me that political risks come in 
two forms. One form is when the outside environment, whether 
it's economic or demographic changes, then existing 
institutions have to adapt to them. And exactly how that 
happens is going to depend on some future Congress and nobody 
today can predict what a future Congress is going to do. And 
so, that's some political risk.
    The second form of political risk is that the legislation 
can put in train political forces that weren't there without 
the legislation that can then change the environment and 
result, as we have seen in the past, with slow or sometimes 
even rapid reversals by Congress, as Congress, as it were, 
unleashes the political forces and responds. Because Congress, 
of course, is responsive to the American public. And it's that 
responsiveness, of course, which is what makes Social Security 
not a wildly dangerous risk for people.
    It's called an entitlement program for a good reason. As 
long as the American people feel strongly entitled to it, 
Congress isn't going to take it away on a whim. But Congress 
will have to respond to a changing environment, changing 
demographic environment, changing economic environment.
    Chairman Bunning. That's why we're doing these hearings, 
and hopefully we'll get an answer out of them.
    Mr. Diamond. And political risks are there with individual 
accounts, and they're there with a pure defined benefit system, 
and they're there with a mixed system.
    Let's take a mixed system, because that's what's really on 
the table, such as the one that Congressman Kolbe talked about. 
If payroll tax revenue starts growing more slowly, and the 
Office of the Actuary comes in and says the residual defined 
benefit program is in actuarial imbalance, Congress will need 
to do something about it. What Congress will do will be 
different from what Congress would have done if the individual 
accounts hadn't been set up. But it may have exactly as big a 
problem anyway. So the same amount of risk may be there, 
concentrated on one part of the income distribution--benefit 
distribution--rather than the whole thing.
    Chairman Bunning. Dr. Diamond, I'd like to get some others. 
Thank you. Mike?
    Mr. Boskin. Yes, Mr. Chairman, I think that there are three 
political risks that I think are very severe. One is I think it 
is very unlikely that very large surpluses can accumulate for a 
very long time without being spent on other things, as is 
happening currently with the short-run operating surpluses in 
Social Security. If we're contemplating building this to 
trillions of dollars, I believe that that will put great 
pressure to do something else and perhaps squander those 
resources. I think that is a history of what's gone on when 
States have tried to run surpluses for a span of time, they 
found it very difficult to do so.
    Second, I believe that there is political risk that if this 
sort of thing is done inside the government, that there are 
corporate governance issues that would be very, very--potential 
very troubling if the government owned a sizeable fraction of 
equities, even if was limited in any individual firm. And when 
there was a fad, or an issue, or a sanction, or something going 
on, there would be tremendous pressure to do that. Now the TSP 
has some good procedures to resist that, and Mr. Cavanaugh is 
to be commended for his role in that.
    The third thing is I think most people, ranging from my 
Stanford students to most people I've talked to in the general 
public about this, trust something being their own money, 
rather than something sitting in the government that they're 
going to get later. I think there's a big difference by 
generations. It's partly your generational experiences, it's 
partly most people realize that if they're already retired, 
there won't be radical changes in their Social Security. When 
you start to go down the age distribution, most people believe 
that if they keep on the current path that the system will be 
means tested, something will happen to it and they will get 
nothing. And I think they're probably right about that.
    Chairman Bunning. Thank you. Let's see.
    Mr. Schieber. One of the--can I speak to that?
    Chairman Bunning. Let me--I'll get in trouble with the rest 
of my panel if I go past my time. Mr. Christensen.
    Mr. Christensen. Thank you, Mr. Chairman. Dr. Boskin, I 
want to ask you about this testimony we heard from Dr. Diamond 
concerning the asset swap. The whole idea of there being new 
revenue, then there would be some advantages. This was kind of 
the first time I've heard this kind of direction in terms of 
not saying that there would be a benefit here for the American 
investor, for the retiree. Would you address specifically Dr. 
Diamond's testimony, where you disagree, if you do, and where 
he has erred.
    Mr. Boskin. Well, I think as far as he had time to go, he 
is correct. I think he's partly correct. I think for some 
people, there will be an increase in saving and there will be 
an increase therefore in investment in the economy and other 
good things will happen. I think for some people, this will be 
rearranged. So I think he is partly correct.
    Mr. Christensen. When we're talking about assets----
    Mr. Boskin. I think Chairman Greenspan has tried to make--
--
    Mr. Diamond. There are two issues here. One issue is 
whether you put in new revenue and does all the new revenue 
show up as additional savings or do people, knowing that they 
have more, cut back on their own savings. If all you've done is 
shift some of the funds, and cut back on the defined benefits 
to match that, then people don't have additional amounts out 
there, it doesn't represent additional savings, and there isn't 
any effect at all. If we get the kind of increase in confidence 
that's been described here, then that would be a reason to cut 
back on savings. So unless there's new revenue, the creation of 
the individual accounts by themselves, as was said, as Alan 
Greenspan has pointed out, focusing on trust fund investment--
but the same point holds with individual accounts--unless 
there's new revenue, it's an asset swap, whether it's 
individual accounts or not.
    Mr. Christensen. Dr. Schieber.
    Mr. Schieber. I think they both have summarized the issue.
    Mr. Christensen. For people who are liquidity constrained, 
low-income people who save nothing, of whom there are 
unfortunately there are too many. Their individual account--
mandatory individual accounts--would change their behavior.
    Mr. Diamond. Let me--again, we're not disagreeing. 
Mandatory individual accounts on top of everything else will 
change their behavior. That means a new revenue source. 
Individual accounts which are just a shift out of the defined 
benefits they would get, will not change their behavior.
    Mr. Boskin. Let me try to be clear. The missing item is--
compare two systems. One is where you allocated projected 
surpluses, which hopefully will materialize to establish 
individual accounts. So that's basically taking a tax cut, 
giving it to people, and saying, you now must save it. So it's 
going into savings.
    Alternatively, suppose instead of that, you took 2 
percentage points of the FICA tax and put it over there, there 
would be savings there, but unless you made up--and this is the 
new revenue Peter's talking about--the 2 percentage points in 
the FICA tax or cut the benefits somehow so there wasn't a 2 
percentage point gap on the FICA side, then you'd get the 
saving here and the dissaving over here, and they match. That's 
what he's trying to say.
    Is that clear?
    Mr. Christensen. So there's more agreement than 
disagreement here.
    Mr. Diamond. Absolutely. We're the cochairs of the National 
Academy of Social Insurance Panel on Privatization of Social 
Security. We're hoping to have a report out in September, and 
we've yet to disagree on anything except whether there should 
be individual accounts. [Laughter.]
    Mr. Christensen. Thank you, Mr. Chairman.
    Chairman Bunning. Just a small difference of opinion. Mr. 
Collins will inquire.
    Mr. Collins. Thank you, Mr. Chairman. Mr. Boskin, I'm one 
of those individuals who feels like the money that's been 
abducted from my payroll check all these years is my money too. 
I someday want a return on it. If I should cease before the 
time that I'm eligible, I feel like my estate should have that 
return. So I think it's time we took a real look at Social 
Security.
    You mentioned that there's an unfunded liability out there 
of some $10 trillion. Explain where you get that figure please.
    Mr. Boskin. There are many figures out there, and there are 
many different concepts. As a rough general approximation, if 
you take the projections of future benefits and discounted them 
back to the present based on the intermediate assumptions about 
wage growth, and so on, and the demography, and the projections 
of what current tax revenue would yield, and discounted that 
back to the present, there would be about a $10 trillion gap, 
or more, depending on how you dealt with--how far out you went 
on a variety of other----
    Mr. Collins. I understand that. But there's one figure that 
you haven't laid out there. How long are you projecting that? 
What period of time?
    Mr. Boskin. Well, most of these projections are either 
the--the different studies either look at the 75-year period of 
Social Security, which ignores the fact that there would be an 
additional large problem thereafter, with benefits able to be--
only three-fourths benefits financeable by current taxes. Or, 
they have a specific reposal, for example, switched to--like 
Cato Institute, or somebody else--switch to individual account 
now. Maybe starting at a certain age, and phased in over a 
certain time profile. And we still have to pay the benefits to 
retirees or people soon to retire, and what's the difference. 
And so the number can be smaller or larger.
    Mr. Collins. But you're talking about $10 trillion over a 
75-year period. I mean, it sounds a lot more severe when you 
say $10 trillion unfunded liability, than it does if you say 
$10 trillion over 75 years. That's quite a difference in the 
concept of how you look at the $10 trillion. That difference in 
that concept can have a difference in how you determine what 
you're going to do about the generations behind my generation. 
I'm of the World War II generation. And how are you going to 
address their Social Security benefits in the future, as well 
as add deposits today? It could have a significant difference 
in how you approach this.
    Mr. Boskin. That's fair enough. But the $10 trillion, which 
could be still larger, depending on how you define things, 
should be compared for example to the current explicit national 
debt, which is about half that size. So it's a stock that--so 
if we tried to finance this under these projections for the 
future, under many of these plans--full privatization plans--
you'd have to issue $10 trillion worth of bonds.
    Mr. Collins. $10 trillion is also close to the figure we 
just dealt with for a 5-year budget proposal, and where we 
carved out 1 percent savings. So, it's how you look at $10 
trillion.
    Mr. Boskin. It's certainly $10 trillion over an economy 
that will be vastly larger than that.
    Mr. Collins. We won't debate that any further. Mr. Diamond, 
you mentioned that the unfunded liability exists because 
Congress voted to give retirees of the forties, fifties, 
sixties, and seventies, far more in benefits than could have 
been financed by the taxes each of these groups paid. Based on 
that range of beneficiaries, how long would it take them to 
actually get in return the funds that they had put into the 
trust fund, that have been deducted from their payroll checks.
    Mr. Diamond. I don't have a figure on that cohort by 
cohort. That analysis, which is done by John Geanakopolos, 
Olivia Mitchell, and Steve Zeldes, will appear in a volume from 
the conference of the National Academy of Social Insurance, 
just to get another plug in.
    Mr. Collins. So you don't really have a figure?
    Mr. Diamond. It just accumulates up, but there is a graph 
that breaks it down separately, cohort by cohort--that is, the 
people who were born in a particular year. Look at the taxes 
they all paid--everyone born that year--and the benefits.
    Mr. Collins. I have one more question. But you don't have 
any figures. You have a figure of speech, rather than figures. 
What about today. What about a young person entering the work 
force today. Say they pay the average--or pay the maximum--
throughout their working lifetime. Based on maximum 
participation, how long would it take them to receive their 
benefits?
    Mr. Diamond. I don't have that number, sir. You can get 
that.
    Mr. Collins. Thank you, Mr. Chair.
    Chairman Bunning. Mr. Portman.
    Mr. Boskin. I can give you the answer to that. Longer than 
their life expectancy. They expect to get back less than they 
pay in--they and their employers pay in.
    Mr. Collins. That's right. That's kind of the way it was 
set up in 1935, was it not?
    Mr. Portman. Thank you, Mr. Chairman, and thanks for having 
these hearings. This is the second one of our hearings on 
individual accounts.
    And it's interesting in the interim, since our last one, we 
had a meeting in my district of the Committee for Responsible 
Budget. This was an exercise in hard choices. Some of you may 
have been involved in that. Almost every group from AARP to the 
Concord Coalition was engaged in it. And in our little group, 
which was about 117 people, we broke out into 16 groups, 73 
percent of the groups favored some form of personal individual 
accounts. And they were given information on what some of the 
choices would be if you went to individual accounts.
    And I think the figures around the country are comparable 
to that. Maybe 73 percent is a little on the high side in my 
area, but it goes to what Michael Boskin was talking about 
earlier, which is, as folks look at this and begin to think 
about the alternatives, and particularly the alternative of the 
status quo, individual accounts, I think, are becoming more and 
more popular. This was a day long session where we actually 
went into some detail.
    My question though is related to individual accounts and 
the current employer based pension system, rather retirement 
saving systems we have through our employers, which is really 
the third leg of the stool as we say. Social Security being 
one, and personal savings being another. The third, and one 
that I'm particularly concerned about because it's not growing 
as fast as it should, is employer based coverage.
    I wonder whether an individual account could be part of 
someone's 401(k), or profit sharing plan, or simple plan for a 
small business, and how we could do that. I don't know if any 
of the gentleman here have spent any time looking at this 
issue. But the notion would be, I guess, to either set up a new 
form of account, which might have some more parameters than a 
current 401(k) might, or simply to allow rollover between the 
individual account and the 401(k). To maximize the return, to 
really take advantage of compound interest rates, and to 
simplify it, so you have one account, and to encourage more and 
more smaller businesses to have retirement savings plans.
    Mr. Schieber. There's a couple of issues there. One is if 
you're going to have these accounts, you're probably going to 
end up with a mandated savings program if you're replacing part 
of--you're carving out part of Social Security. The 401(k) 
system is still a voluntary system, and there's a question of 
whether you want to comingle voluntary money and mandatory 
money. Because, if you comingle the two types of money and 
somebody wants to withdraw some of their voluntary money as 
they're allowed to do so under current law, then you're going 
to create a very complex situation for figuring out which is 
apple and which is orange.
    Mr. Portman. Money being fungible.
    Mr. Schieber. Right. It seems to me though that there is 
some possibility that you could have a system where, in cases 
where employers do have 401(k) plans, that you could give 
employees access to the similar kinds of accounts through 
exactly the same vendors. The vendors would have to keep track 
of these two sets of money separately. But you could actually 
run the administration of these quite together. So I think 
there is some prospect of doing that.
    Mr. Portman. Are there some efficiencies to be gained by 
running, as you say, the administration together?
    Mr. Schieber. Well certainly there would be. I mean, you've 
got communications programs built around it. You've already got 
withholding mechanisms built in, you've got reporting 
mechanisms for the employees. Most employees--we work with 
employers all the time--when they move from one employer to 
another, in most cases they want to move their 401(k) money 
from one plan into the next plan, because they don't want to 
run a half dozen different set of investment funds themselves. 
It's a convenience issue. I think there are some very 
significant prospects something like that might evolve. I do 
think you would have to keep the money segregated, at least for 
accounting purposes.
    Mr. Portman. Any other thoughts from the panelists?
    Mr. Boskin. I think it's an interesting idea. I think that 
there are a couple of things to be aware of. One is that the 
takeup rate for 401(k)s has been under 100 percent, and many 
American companies, including ones that I am involved with, 
have had active education programs to boost the rates up, which 
have been successful. But they are still under 100 percent.
    It may be we could build out from there and the prospect of 
having this mandatory system would--may, in fact, have the 
effect of making it easier for some people at the margin to 
graft on a private pension, where it doesn't exist now. That 
might offset the tendency that was mentioned earlier for the 
private sector to pull back if there was a mandatory government 
account.
    Mr. Diamond. I'd like to add one small point on that. A 
major cost in running any system, current Social Security 
system, 401(k)s, any of them, is reconciliation. Making sure 
that the money that's withheld from a worker shows up in the 
right workers account, and the accumulations show up.
    The way to hold down reconciliation costs in the aggregate 
is by using uniform systems. As soon as you start setting up 
different systems for different groups of workers, then you'll 
start to raise, I think, overall costs and you may raise them 
more because of the lack of uniformity than you gain from the 
synergism of having a single intermediary handling both of 
them. So I think one has to be very careful to look at the 
whole system.
    Mr. Portman. Just one quick point, Mr. Chairman, which is 
that we may argue for the simplification and the streamlining 
on the pension side, and more uniformity that many of us have 
been pushing for. And there might be a way to complement the 
two and get this synergism.
    Thank you, Mr. Chairman.
    Chairman Bunning. We'll go around one more time, because I 
want to be able to submit to you all, questions in writing that 
we would like for you to respond to. Because, we do have 
another panel to follow you, and I don't want to go 6 o'clock 
this evening.
    Dr. Boskin, in assessing the solutions to Social Security 
solvency problems, what pools in terms of analysis are 
important to Congress? What budgetary and economic questions 
must be answered at a very minimum to ensure that correct 
analysis is made?
    Mr. Boskin. Well, I think that you need to have a 
comprehensive accounting of what's going on in all parts of the 
system. As was mentioned earlier when Congressman Kolbe was 
here, you can't just take a look at the current system and 
ignore the benefits that may accrue in the individual account 
system, and so on.
    You have to take account as we move through time if there's 
a plausible--if there are additional revenues and additional 
national saving, there may be beneficial economic effects of 
that, that we have to figure how we're going to account for it 
which is not currently the norm in the way that the scoring 
agencies think about these things.
    We're also going to have to reconcile the kind of 
procedures that are used at the CBO and Joint Tax Committee, 
which primarily looked at 5- and 10-year horizons, and the 
Social Security actuaries who are commonly looking at 75-year 
horizons. Although CBO has started to look at 20- and 30-year 
horizons now.
    I think we need to reconcile demographic projections. The 
Census Bureau believes there will be a lot more 100-year-olds 
out there several decades from now than the Social Security 
Administration. I think it's important to know why.
    All these things are important, and you need to be aware of 
the sensitivity when compounded for decades, only a small 
difference can make.
    Mr. Diamond. Mr. Chairman, could I add just something quick 
on that. There's a tendency to focus on the main projection. 
But of course there are risks around--market risk and political 
risks. We're better at quantifying market risks than we are at 
political risks. And I think it's terribly important to use 
what the finance community calls risk adjustment to convert the 
expected value of returns into what it's worth to people when 
you correct it for the risks involved.
    Chairman Bunning. Thank you. Mr. Cavanaugh, you stated that 
PSA investment in the private market would probably never 
exceed 2 percent. What leads you to that conclusion?
    Mr. Cavanaugh. I was referring to the fact that the PSA 
investments would not exceed 2 percent of the capitalization of 
the U.S. stock market, because that was one of the questions 
that you raised. And that's based on, as I indicated at some 
length in my prepared statement, which I submitted for the 
record, a couple of different plans.
    The one plan that would have the greatest impact on the 
stock market would be the one that involved investing up to 50 
percent of the fund the Social Security Trust Fund in equities. 
That would come to around 2 percent of the total stock market 
in the year 2014, based on assumptions by the Advisory Council 
on Social Security. Given the fact that the capitalization of 
the U.S. stock market right now is about $12 trillion, if you 
use their assumptions and project out to 2014, it comes to 
almost $40 trillion. Their plans for investing the Social 
Security Trust Fund would have $1 trillion in stocks out of $40 
trillion, or 2\1/2\ percent.
    And the PSA proposal would be less than one-half of that, 
because presumably in the personal savings account we're 
assuming what most people propose, and that would be 2 percent 
of payroll going into it. So that's how you come to the less 
than 2 percent.
    Chairman Bunning. Is there anybody else that would--go 
ahead, Mr. Christensen.
    Mr. Christensen. Dr. Boskin, I wanted to ask you, how would 
you go about assessing a risk adjusted rate of return? Mr. 
Cavanaugh in his written testimony talked about an adjusted 
risk rate of return. What would your comments be on that, and 
then I want to ask also Mr. Cavanaugh?
    Mr. Boskin. Well, the first thing is I think you'd have to 
specify all the classes of risk. All the investment options 
have risks in various forms, including Treasuries. Although we 
expect the government not to default, and in the short term, 
there's very little inflation risk. So there are standard 
procedures that are used.
    If the investments are broadly diversified by supposition 
or by regulation, you can reduce that somewhat. But 
technically, what you're doing is you're looking at the 
covariance of the returns--and I don't want to get too 
technical here--there are ways to do that.
    So I think another way of saying what Professor Diamond was 
saying is, if you took what might happen in the future under 
many or most scenarios, for example, investing in equities 
would do a lot better than investing in Treasuries or in bonds. 
But in some, in a smaller fraction, they might do worse. And so 
he wants that accounted for in some way.
    Mr. Chistensen. I think it was Dr. Diamond who talked about 
this adjusted also. Maybe you could comment on it, Dr. Diamond.
    Mr. Diamond. No, I think that's fine. There are simulation 
models and Dr. Schieber has one of them, and EBRI has one, 
which project out returns on stocks and returns on bonds, based 
on the pattern of statistical variation in the past. And then 
you can calculate, if you have this portfolio, 90 percent of 
the time you'd do better than all bonds, and 10 percent of the 
time you'd do worse. Or if you have that portfolio, it's 50-50, 
and you get a spread, and you find out both the probability of 
doing better and the probability of doing worse, and you can 
compare any two different portfolios in that way.
    Mr. Christensen. I'm just trying to pick up some hints 
here, so when I can take some of this advice and take it into 
the market now. [Laughter.]
    All these suggested risk on the equity markets, I want to 
make sure we try it out before we take it to the next step.
    I want to ask Mr. Cavanaugh if there's a downturn in the 
stock market, will the investors in the Thrift Savings Plan be 
adversely affected so that there retirement is greatly reduced? 
If there is, how would you go about taking this in terms of 
moving on to the next step with this proposal, if there's a 
downturn in the stock market?
    Mr. Cavanaugh. If there's a downturn in the stock market, 
how would we go about doing what, sir?
    Mr. Christensen. Will the investors in the Thrift Savings 
Plan fund be adversely affected, so that their retirement is 
greatly reduced?
    Mr. Cavanaugh. Yes, of course that risk is there and you 
have great volatility in the stock market that you don't have 
in the bond market, and that goes to the previous matter you 
were discussing. There's no way that you can eliminate that 
risk.
    But generally, what financial analysts or advisors would 
say, the way to minimize it is to make sure that you're not 
putting an awful lot of money into the market or taking an 
awful lot of money out at just the wrong time. And the way to 
avoid that is what they call dollar cost averaging. In other 
words, you put in a little bit every week or every month, and 
then when you're taking it out, you do the same. You spread it 
out and you're less likely to get caught.
    Mr. Christensen. Dr, Schieber, you shake your head on 
dollar cost averaging.
    Mr. Schieber. Well, people to a certain extent naturally 
insure themselves against the market. If you look at how people 
invest 401(k) money, and I think that's one place you can look 
to see how people behave, what we see is that younger people 
tend to invest far more aggressively than older people. For 
people in their twenties, typically they will have over 60 
percent of their assets in equities. By the time they get into 
their sixties, it's down to 40 percent or less. They are 
insuring themselves against the market.
    I think it also goes to the issue of how you design your 
reform. And there are ways, by establishing floor benefits and 
so forth, that you can keep people at the bottom end of the 
income spectrum from taking on too much financial market risk. 
In the final analysis though--FDR said it when he was signing 
the original Social Security Act in 1935 he said, we cannot 
insure all of the people in this country against all of the 
vicissitudes of life all of the time.
    We've got tremendous political risk in this system right 
now. It's significantly underfunded. If you look at the kinds 
of bills that Senator Kerrey and Senator Moynihan have put 
forward, they are saying that there is some probability, maybe 
fairly significant, that benefits are going to be reduced--
that's a risk.
    Now the question is how we can diversify that in a 
reasonable fashion and protect people who are most vulnerable.
    Mr. Christensen. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. Mr. Boskin, I want to 
go back to you and this $10 trillion. You just blew my skirt up 
with that $10 trillion. [Laughter.]
    Let me ask you my question first. Do you have a schedule of 
years that the liability becomes a liability, and each year 
thereafter, for that 75 years? Do you have such a schedule? I 
think it would be very helpful.
    Mr. Boskin. Yes, and the Social Security Administration has 
it. What this does is it takes this year by year and then it 
discounts it back to the present. I may have a graph with me. 
If I do, I'm going to pass it up. I may--I did bring this with 
me--you'll be interested.
    [The following was received:]
    [GRAPHIC] [TIFF OMITTED] T2578.010
    
    [GRAPHIC] [TIFF OMITTED] T2578.011
    
    [GRAPHIC] [TIFF OMITTED] T2578.012
    
    [GRAPHIC] [TIFF OMITTED] T2578.013
    
      

                                <F-dash>

    Mr. Collins. We keep talking about investments. Investments 
worry me too, as an individual. It worries me from the 
standpoint that I may not have the best knowledge of how to 
invest, and I would say that probably runs concurrent with a 
lot of other people in the country.
    However, I do have faith in accounts that are interest 
bearing. And if we stay focused on the generation behind us, 
and how we can solve this problem for them, we also look back 
at how we solve other problems in other areas of financial 
services, like the savings and loans, and we agree and confess 
that we have to belly up to the bar and pay that bill.
    Then we can cover that liability, and yet ensure for young 
people, that they are going to actually get a return on the 
moneys that are deducted from their payroll checks. And if we 
do it right, I think we can reduce the amount of money that we 
are deducting, leaving them more of their income to direct in 
different type of investments.
    Mr. Boskin. I agree with that.
    Mr. Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman. I have a very general 
question and it may not be one where there will be a long 
answer here this afternoon, but perhaps those who are 
interested could get back to me. It goes to the basic approach 
one might want to take. And Dr. Boskin and I had a chance to 
talk about this recently.
    But, looking at the Kolbe proposal, it's a percent of the 
payroll tax that would be taken out and invested as an 
individual account or a private savings account. Most of the 
payroll tax would continue to go to the government under the 
current system.
    Another alternative being talked about, I think Mr. Ball's 
approach to this would be allowing the trust fund itself to 
invest in the private market, to a certain extent in the 
capital markets.
    Another alternative that I just wanted to get your input 
on, if I could, would be to back up for a moment and say, in a 
sense, could you combine the two by allowing individual 
accounts, perhaps along the lines of some of the models we've 
seen in South America.
    The notion is the highly regulated individual account where 
I, as a payroll taxpayer, would be paying into the system just 
as I am now, but it would go into my account. It would be 
highly regulated by the government in the sense I'd be very 
limited in terms of decisions I could make. But I could make 
decisions within certain parameters.
    And the government would have it all. The government would 
hold it all, and money being fungible as we said earlier, the 
government would then be able to pay it's liabilities over this 
transition period. But I would have the personal decision to 
make as to how I would invest it in this kind of mutual fund or 
that kind of mutual and safer or more risky investment.
    I just wondered if you could talk a little about that. It 
is, in a sense, a third way that I haven't heard much 
discussion about today. Dr. Schieber?
    Mr. Schieber. It certainly is a third way. I guess there is 
some skepticism as to whether or not the Federal Government, as 
this fund began to accumulate and build and get very large, and 
it would get extremely large, whether or not the Federal 
Government could hold the dam, because there's a lot of uses 
for money.
    Mr. Portman. Are you concerned about Congress allowing 
first time home buyers, or folks who are interested in 
education, IRAs, to use these funds? Is that the sort of 
concern?
    Mr. Schieber. It goes beyond that. It's problems like 
Medicare that need financing. We undoubtedly will go through 
periods where it looks like some people aren't getting enough 
in retirement income and maybe we can embellish those benefits. 
When we have a downturn in the economy, maybe we will need to 
give people some slack on payroll taxes. There's a long history 
of this having been done.
    The original act called for the system to be significantly 
funded. All throughout the thirties and forties, we stepped 
back on that. If you look at the experience of the 1983 
amendments, there are many analysts who believe that the 
exercise of building up the trust fund we have right now was 
not an act of national saving. There's a question of whether or 
not we can create saving in this economy in that kind of 
mechanism.
    Mr. Portman. I guess I want to hear from others if they 
have comments. But my response would be, in part, that even 
with individual accounts, as 2 percent as Mr. Kolbe is talking 
about, Congress can always go back and change the parameters of 
that. Also, the rest of it, whether you view it as 6.2 or 12.4 
percent, remains in the government to be moved around as you 
say.
    And finally, it would be different in kind from the way 
Social Security was initially established, because there would 
be an individual account where you would have the ability as an 
investor to be able to determine where it went, and you'd be 
getting a statement monthly, and so on. Rather than having it 
going into an amorphous trust fund.
    Mr. Schieber. As Michael Boskin indicated earlier, he put 
together a proposal several years ago that would have had 
individual account. My recollection was those were more 
notional, unfunded accounts than real accounts. I mean, you 
could convert the current system into an account based system 
without doing any funding.
    Mr. Portman. But you wouldn't have any investment.
    Mr. Schieber. You wouldn't have any investment.
    Mr. Portman. Any other comments?
    Mr. Boskin. Two quick comments about that. One is, I've 
always thought one of the problems with Social Security is that 
we are not providing people with enough and accurate 
information. There have been some improvements made in the last 
few years--I want to say in the last decade or so.
    But many people aren't aware that the benefit projections 
are projections and would assume current law plus massive tax 
increases to fund them. Many people aren't aware of the 
different types of things they're insured against with 
survivors, and disabilities, and so on, other than very 
generally. And the kinds of statements you get are not 
sufficient, in my opinion.
    So that's something that I think ought to be done, and 
could be done, independent, even if there were no funding 
problems or any reforms being considered.
    With respect to the point you made though, I view the 
tradeoff in the following way. I do believe there would be a 
very big difference in people's minds about having an account 
at a private financial institution, whether the money was sent 
by their employer, whether they put it in, whether it was done 
in some more cost effective way than a bunch of individuals 
trotting up with small amounts at Schwab, or Fidelity, or 
Vanguard, or many banks, or whatever it happened to be, then 
something that, even though their name was on it and was a 
separate part of the statement, was inside the government. I 
think people would have a different reaction to that.
    I would favor the former, but it's going to be more costly 
to do, unless we figure out mechanisms to reduce the cost to a 
tolerable amount.
    Mr. Diamond. In contrasting these----
    Mr. Portman. Dr. Diamond, I think I've exceeded my time 
here. We either can speak afterwards, or if you could give me 
your written comments, I'd appreciate it. Thank you.
    Chairman Bunning. I wouldn't tell Dr. Boskin that in the 
year 2000, everyone who has an account for Social Security over 
age 25, will be receiving an annual statement of how much 
they've put in, what their projected benefits will be.
    Mr. Boskin. I think that's a major step forward. I proposed 
this 20 years ago in the 1982 Advisory Commission, which led to 
the 1983 amendments.
    Chairman Bunning. You weren't Chairman of the Social 
Security Subcommittee at the time, so it didn't take effect.
    Mr. Boskin. No. I commend you for doing that. When it has 
your projected benefit, what will it say about the unfunded 
liabilities?
    Chairman Bunning. Probably nothing.
    Mr. Boskin. That's a big concern of mine.
    Chairman Bunning. I understand that. But at least we're 
making the first step in the right direction.
    Mr. Boskin. I commend you for that. It's very important.
    Chairman Bunning. We want to thank you all for being here. 
We appreciate your input. And we will ask for the second panel 
to take their seats. Thank you.
    Dr. Lawrence White, professor of economics from the Stern 
School of Business at NYU; Dr. Gary Burtless, senior fellow 
from the Economics Study Program at the Brookings Institution; 
Ric Edelman, chairman and chief executive officer with Edelman 
Financial Services; Teresa Tritch, senior editor from Money 
Magazine; and Paul Huard, senior vice president of policy and 
communication at the National Association of Manufacturers.
    Dr. White.

STATEMENT OF LAWRENCE J. WHITE, PH.D., PROFESSOR OF ECONOMICS, 
         STERN SCHOOL OF BUSINESS, NEW YORK UNIVERSITY

    Mr. White. Thank you, Mr. Chairman. I am very pleased and 
honored to be here and to have been invited to address this 
Subcommittee.
    As all of you know, the Social Security Program has been a 
valuable and popular program. It's been a valuable source of 
old age and disability support. But its structure has created 
serious financial problems. These problems have various 
manifestations. You've been talking about some of them: The 
unfunded liabilities; the negative expected discounted real 
returns of many of today's workers, or the equivalent 
unfavorable money's worth ratios; or, as yet another 
manifestation, the direct financing of the program as a self-
contained entity faces serious future problems.
    Those problems are going to arise at a much sooner date 
than many of the media reports would indicate. Since this is a 
pay-as-you-go program, the problems will manifest themselves in 
terms of the annual net cash flows of the program, and those 
will begin to be negative in the year 2013. That's the year in 
which the Congress will have to find alternative ways of 
supporting the program because the program itself will be 
running net negative on an annual basis.
    2013: A mere 15 years away, which, for Social Security, is 
like an eye blink. This is the year in which either other taxes 
will have to be raised or other spending curtailed or other 
borrowing increased. This is much sooner than the year 2032, 
which is the year that the media focuses on. That's a 
meaningless year in terms of the real consequences for the 
program.
    I believe that a PSA, a personal savings account component, 
is a very desirable part of the overall reform of the Social 
Security Program. Further, I am convinced that a broad choice 
PSA program, basically structured the way that the current 
investment retirement account, IRA, program is structured, is 
the direction to go. This broad choice direction would have a 
number of desirable features. First, it would give participants 
a wide range of opportunity to tailor their investments to 
their tolerances for risk, for their knowledge and information, 
their age and family status, and other personal considerations.
    It would be especially valuable for the participants who 
are less financially sophisticated, less knowledgeable, perhaps 
quite risk averse. They could, as is possible in the IRA 
program, choose a bank account; a certificate of deposit; a 
credit union account; a savings institution account; or an 
insurance company's, similar vehicle for their investments. It 
is instructive that, as of 1996, over a quarter, 26.3 percent, 
of the funds in IRAs were invested in such funds. As recently 
as 1991, this figure was almost half, 47 percent.
    Second, a broad-based program would bring a regulated 
financial institution into the picture, since the regulated 
financial institution would be the place, the first point of 
contact, for the investment of such funds. And, with the 
regulated financial institution would come its fiduciary and 
advising obligations to the participants.
    Third, it would bring the creative and competitive forces 
of the financial services sector into the picture to devise 
appropriate instruments and educate the program's participants.
    Fourth, to the extent that participants do choose the bank 
accounts or similar instruments offered by financial 
intermediaries, this route will provide a financing channel for 
the millions of small enterprises in the U.S. economy that are 
not publicly traded, that would not benefit from the 
investments in index funds that would be a consequence of a 
more centralized financing mechanism. These are the millions of 
small enterprises that rely on bank finance or similar types of 
financial intermediary finance. There are only about 10,000 
publicly traded companies in the U.S. economy. These are the 
larger enterprises; they are the ones who would benefit from 
investments in index funds. A broad-choice program would bring 
the other millions of enterprises into the picture as well.
    A potential negative consequence is the transactions costs 
of broad based plan. I am convinced that there are ways of 
dealing with this problem. The competitive forces of the 
financial services sector will help deal with it. The IRA 
program manages to deal with it. The Federal Government could 
be an accumulator to help buildup sufficient balances.
    In summary, Mr. Chairman, the problems are serious. Reform 
is necessary. A broad-choiced PSA component should be part of 
that reform. The time to act is now. Thank you very much; I'll 
be happy to answer questions.
    [The prepared statement follows:]

Statement of Lawrence J. White,\1\ Ph.D., Professor of Economics, Stern 
School of Business, New York University

    Chairman Bunning, Members of the Subcommittee: I am pleased 
and honored to be invited to testify before your Subcommittee 
today.

                                Summary

    The future of the Social Security program is an important 
public policy issue for this Congress, and for the nation as a 
whole, to tackle. The program has been a valuable source of 
old-age and disability support for tens of millions of 
Americans. It has had a substantial and worthwhile 
redistributive component. But it has also evolved into a 
program with substantial problems.
---------------------------------------------------------------------------
    \1\ During 1995-1996 I was a consultant to the Investment Company 
Institute on the subject of Social Security reform.
---------------------------------------------------------------------------
    As a pay-as-you-go system, it has not contributed to--and 
has probably subtracted from--the domestic savings available to 
finance investments in the U.S. economy. With its history of 
past policy changes and changing demographics, it has developed 
serious financial problems. These problems have various 
manifestations: a net excess of discounted promised benefits 
less discounted taxes (net unfunded liability) of about $3 
trillion; a declining expected real return or even negative 
return for many or most of today's workers, in terms of their 
expected discounted contributions and expected discounted 
benefits (equivalently, a decline in the ``money's worth'' 
ratios); and the projected direct financing problems of the 
program as a self-contained entity.
    It is this last manifestation--the program's direct 
financing problems--that has attracted the most attention. But 
these problems will be reached at a much sooner date--2013--
than most media reports have indicated. These difficulties will 
arise because the program has been on a pay-as-you-go basis, 
with no systematic investment of participants' contributions in 
real investment resources.
    The solution to the Social Security programs financial 
problems must involve a widespread set of changes, including an 
expansion of the contribution base, an increase in retirement 
eligibility ages, modifications to the cost-of-living 
adjustments to benefits, and the institution of individual or 
personal savings accounts (PSAs). I believe that voluntary PSAs 
are an important part of that solution.
    A PSA component that is modelled on the way that investment 
retirement accounts (IRAs) are currently handled would be a 
desirable direction for the program. A voluntary PSA component 
with a wide choice of investment vehicles and instruments, plus 
the involvement of regulated financial institutions with 
fiduciary obligations, reaches the proper tradeoff of choice, 
tolerances for and exposure to risk, and responsibility.
    By allowing individuals to place their PSAs in FDIC-insured 
bank deposits or similar instruments (as is currently the case 
for IRAs), the PSA component would permit unsophisticated or 
extremely risk-averse individuals to participate in a way that 
would be comfortable for them. Equally important, the savings 
that would be channeled through such instruments would become a 
potential source of finance for the millions of small 
enterprises in the U.S. that are not publicly traded. These 
enterprises rely largely on debt finance through banks and 
other financial intermediaries. A program that restricted PSAs 
only to index funds would mean that, at best, only the 10,000 
or so publicly traded companies in the U.S. would benefit from 
the finance made available through the program. The remaining 
millions of smaller enterprises in the U.S. would be deprived 
of this financial flow.
    The problems of the Social Security program are serious and 
require serious attention. Because any changes in the program 
must be phased in gradually, the Congress must pass the 
appropriate legislation promptly. Delay can only increase the 
costs and the difficulties of making the eventually necessary 
reforms.

                  Social Security's Financial Problems

    The financial problems of the Social Security program as a 
self-contained system are real. They will arise because it is a 
pay-as-you-go system. Today's workers' contributions are 
largely paid out to today's retirees. As the number of retirees 
continues to mount relative to the working population, the 
program will begin to experience annual net negative cash 
flows. The ``intermediate'' projection of the Board of Trustees 
of the Social Security program, in their 1998 Report, predicts 
that these annual net negative cash flows will begin to occur 
in 2013 and will grow ever larger in the following years. Even 
the ``optimistic'' projection of the Trustees predicts that 
these annual net negative cash flows will begin in 2018.
    Under this pay-as-you-go program, there is no systematic 
investment of an individual's contributions in real investment 
resources. Any current surplus of cash intake over cash 
outflow--in 1997 this cash-flow surplus was about $45 billion--
has been transferred to the Treasury and used to cover the 
other expenses of the U.S. Government. The funds have not been 
systematically invested in real resources. The so-called Trust 
Funds do not represent any claim on real resources. They are 
simply an accounting of the past cash-flow surpluses of the 
program, plus notional interest. Since the cash-flow surpluses 
have long ago been spent, the apparent accumulations in the 
Trust Funds simply represent the recognition of these past 
surpluses and the promise by the Congress that future 
appropriations will be made to cover future deficits in the 
program. But such promises are no stronger or weaker than the 
promises of the Congress generally to support the program. The 
presence of the Trust Funds adds nothing of real value to those 
promises.
    Consequently, the year when the annual cash flows of the 
program become negative--2013--is the time when the real 
financing problems for the program will arise. It is the time 
when the program will no longer be making a net contribution to 
the other operations of the Federal Government but will instead 
will be a net drain and will require the Congress to curtail 
other spending, raise other taxes, or increase net borrowing. 
Indeed, one might argue that the effective financial ``crunch'' 
for the Federal Government will come sooner, around 2008, when 
the annual net cash-flow surplus of the Social Security program 
will begin to decline sharply and will offer less help in 
covering the other expenditures of the Federal Government.
    In either case, whether the date is 2008 or 2013, this is 
much sooner than the year 2032, which is when the Trust Funds 
will be ``exhausted'' and is the year on which most media 
reports have focused as the date when the program will become 
``insolvent.'' Since there are no real resources in the Funds, 
the date of their ``exhaustion'' is a meaningless benchmark. It 
only indicates the point at which the accumulated net negative 
cash flows (after 2013) will have just equaled the earlier (pre 
2013) accumulated net surpluses (plus notional interest). In 
2032 the annual net negative cash flow of the Social Security 
program will be about $750 billion ($250 billion in constant 
1998 dollars), or more than 1.8% of U.S. GDP in that year.
    This same logic indicates why an often-advocated ``easy 
fix'' to the Social Security program--to increase the workers' 
and employers' wage contributions by about two percentage 
points (i.e., to raise the aggregate contribution rate to about 
14.4% of the wage base from its current 12.4%)--would not solve 
the system's fundamental problems. Unless the extra 
contributions were invested in real resources, this ``fix'' 
would only delay the onset of the annual net negative cash 
flows by about five years, to 2018. And the additional tax on 
wages would make the hiring of labor more expensive, add to the 
distortion of labor markets, and drive more employment 
arrangements ``off the books'' and into the gray or underground 
economy.
    Because the problems of the Social Security program are 
severe and because the program's self-contained financial 
problems will arise soon--within the next ten to fifteen 
years--and because gradual transitions are a necessary and 
legitimate part of any changes in the program (since it is 
fundamentally unfair to tell a 55 year old worker that his/her 
retirement benefits will be appreciably different from what he/
she had earlier been promised), the time to begin making 
adjustments in the program is today.

                       Personal Savings Accounts

    As was mentioned above, personal savings accounts (PSA) are 
just one component of the modifications that must be made to 
the Social Security program. But they are a vital part of those 
changes. They would represent the first step toward moving the 
program away from its defined-benefit structure, with that 
structure's attendant short- and long-run financial problems, 
and toward a defined contribution structure that would bring 
greater personal choice and responsibility, while maintaining 
an acceptable level of redistribution, and that could 
contribute toward national saving and real investment rather 
than detracting from them.
    A PSA plan is far preferable to any plan that would simply 
have the Social Security Administration itself invest some or 
all of the cash-flow surpluses in private-sector securities. 
The latter plan would bring the Federal Government into far too 
much involvement in investment choices (only the S&P 500? all 
publicly traded companies? what about foreign companies? what 
about companies that have been convicted of criminal 
violations? what about tobacco companies? etc.) and potential 
conflicts of interest. Also, such investments would neglect the 
millions of enterprises in the U.S. that are not publicly 
traded. These problems are serious ones that the Federal Thrift 
Savings Plan, that applies to federal workers' pensions, do not 
adequately handle. They would be intolerable for the much 
larger sums that the Social Security Administration would be 
investing.
    A number of PSA-type plans have been proposed. For a 
program that is as complicated as the Social Security program, 
truly ``the devil is in the details.'' Instead of advocating 
any specific plan, I will set forth a set of principles that 
should guide any specific structure.
    1. A PSA plan should be voluntary. Though many program 
participants would surely be eager to create and participate in 
a PSA component of their Social Security contribution, others 
will surely be reluctant and would prefer to stay with the 
program that they know and trust. So long as the choices are 
clear, this alternative should be available. This will help 
avoid the unfortunate political ``poster'' stories of the 
reluctant PSA participant who then invests in high-risk 
investments that subsequently prove worthless.
    Though the preservation of this type of choice may make the 
program more complicated and could lead to problems of adverse 
selection and of maintaining the redistributive aspects of the 
program, I believe that the benefits would exceed the costs.
    2. The PSAs should be patterned along the lines of the 
current investment retirement account (IRA) structure. That is, 
a wide choice of investment vehicles and instruments should be 
available to the program participants; and the PSA should be 
registered at a regulated financial institution, such as a 
bank, a savings institution, a credit union, an insurance 
company, a stock brokerage firm, or a mutual fund company.
    This broad-choice structure would have many advantages. 
First, it would give participants a wide range of opportunity 
to tailor their investments to their tolerances for risk, 
knowledge and information, age and family status, and other 
personal considerations. This broad-choice structure would be 
especially valuable for the less sophisticated, less 
knowledgeable or very risk-averse participants who would prefer 
to keep their PSAs in a familiar FDIC-insured bank account or 
similar instrument. It is noteworthy that as of 1996, over a 
quarter (26.3%) of the funds in IRA plans were in deposits in 
banks, thrifts, or credit unions or in similar instruments in 
insurance companies; as recently as 1991 this percentage was 
47%.
    Second, it would bring a regulated financial institution, 
with fiduciary obligations and responsibilities, into the 
picture. Advising the customer as to the suitability of 
proposed investments with the customer's other circumstances is 
a major such responsibility. It is noteworthy that there have 
been no reported scandals or political calls for reform with 
respect to the way that the IRA program is structured.
    Third, it would provide strong incentives for the creative 
and competitive forces of the financial services sector to 
develop appropriate investment instruments and to educate the 
program's participants as to the merits of those instruments.
    Fourth, to the extent that individuals would choose to 
invest their funds in bank accounts or similar vehicles, this 
route would provide a financing channel for the millions of 
enterprises in the U.S. that are not publicly traded and that 
would not benefit from investments in any form of index fund 
that is restricted to purchasing the securities of publicly 
traded companies.
    There are currently only about 10,000 companies in the U.S. 
that have publicly traded securities. An index fund would 
necessarily be restricted to their securities. But there are 
millions more of smaller enterprises in the U.S. that get their 
financing primarily through debt finance--i.e., through loans 
from banks and other financial intermediaries. In turn, it is 
deposits in banks and other financial intermediaries that 
provide the ultimate source of the debt financing. Indeed, it 
is this financing channel that has received extensive political 
and media attention in the recent past during periods of 
perceived ``credit crunches.''
    A PSA structure that preserved bank accounts and similar 
vehicles as acceptable investments would keep this channel of 
finance available for smaller enterprises. By contrast, a PSA 
plan that was patterned along the Federal Thrift Savings Plan 
and that restricted participants to only a handful of index 
funds would have none of these desirable properties. A 
participant could not choose the familiar bank deposit. And the 
resulting flow of capital and finance would be distorted to 
favor the larger enterprises in the U.S. over all of the rest.
    A potential drawback to a wide-choice PSA structure might 
be the transactions costs of maintaining these accounts. I am 
not convinced that this would be an insurmountable barrier. 
First, with a wide range of instruments and vehicles open to 
participants, there would be competition among providers to 
offer low-cost accounts, perhaps in return for agreed-upon 
restricted ability to move funds around, as is the case for 
bank certificates of deposit. The prospects for attracting 
these flows, present and future, should be an attractive one 
for many financial institutions. Second, as an interim measure 
for low income workers whose PSA contributions might initially 
be small, the Federal Government might stand ready to serve as 
the accumulator of, say, the first three years of PSA 
contributions, after which they would revert to the IRA-like 
structure described above.

                             The Transition

    There are few free lunches to be had, and the financing of 
the Social Security program is certainly no exception. The 
diversion of participants' contributions into PSAs would leave 
a financing gap with respect to the current basic pay-as-you-go 
structure. The current federal overall budgetary situation, 
with projected surpluses for the consolidated budget, provides 
an excellent opportunity for making the necessary start on 
financing this transition.
    A frequently stated fiscal goal in the current environment 
is that the projected budgetary surpluses should be used to 
``strengthen Social Security.'' Unfortunately, within the 
framework of the current pay-as-you-go structure, there is no 
direct way that the surpluses can be used to strengthen the 
finances of the Social Security program. But, with a PSA 
component to a reformed Social Security structure, the 
surpluses could be used to help finance the transition. 
Equivalently, as part of the overall reform of the program the 
budget surpluses could be used to finance the PSAs directly 
while workers' contributions continued to be used to cover the 
payouts to current retirees.

                               Conclusion

    The Social Security program is a major feature of today's 
economy. Current retirees rely on it; future retirees expect 
it. But the program does have serious problems.
    Reforming the program will not be easy. It is complex; 
there are many vested interests that will be affected by any 
changes. But reform is necessary.
    A central component of any reform should be a system of 
voluntary personal savings accounts (PSA) accounts that are 
patterned on the current investment retirement accounts (IRAs), 
with a wide choice of instruments and vehicles and the 
involvement of a regulated financial institution. These PSAs 
would serve as the basis for bringing the Social Security 
program into a better funded position and for allowing the 
program to make a greater contribution to this country's 
saving, investment, and efficient use of resources.
    Procrastination and delay in instituting reform of the 
Social Security program can only make the necessary eventual 
reforms more costly and more difficult. I urge the Congress to 
act quickly.
    Thank you. I will be happy to answer questions.
      

                                <F-dash>

    Chairman Bunning. Thank you, Dr. White.
    Dr. Burtless.

  STATEMENT OF GARY BURTLESS, PH.D., SENIOR FELLOW, ECONOMIC 
             STUDIES PROGRAM, BROOKINGS INSTITUTION

    Mr. Burtless. Thank you for the invitation. I'll confine my 
remarks to just a couple of points. First, the nation's 
interest in replacing part or all of traditional society 
security with a system of individual accounts is driven by a 
widespread recognition that rates of return on contributions to 
Social Security are going down and eventually may reach 1 or 
1.5 percent for a typical worker. Americans compare this with a 
situation in which, in the last 15 years--the period ending in 
January of this year--they could have earned 13.3 percent after 
subtracting for the influence of inflation, on stock market 
investments.
    Advocates of individual retirement accounts sometimes 
suggest that we can eliminate or reduce the traditional system 
in which workers' rate of return will be negative or very low 
with a new system in which they can get these high rates of 
return if we establish individual accounts. This beguiling 
invitation is based on a fundamental confusion. About 90 
percent of the contributions we make for Social Security each 
year go directly to pay for benefits to our parents and 
grandparents, to our disabled relatives, and to the dependents 
of retirees and disabled people. We're going to have to make 
payments to these people for the next 40 or 50 years regardless 
of anything we do about establishing individual accounts. So 
there's no way we're going to earn 8 percent, 10 percent, or 
even 2 percent on this part of our contributions. They're going 
to pay for current benefits; they cannot be used for 
investments in stocks, bonds, real estate, or any other thing 
your stockbroker might want to sell you.
    The only questions are: A. How can we invest the surplus of 
contributions over current benefit payments? And, B. How can we 
change things so the surplus gets bigger or lasts longer? The 
answer to question A is that we can certainly invest the 
surplus in assets that earn a higher expected rate of return. 
All we have to do is change the assets that we permit the 
Trustees to invest in, expand the menu of alternatives to 
include mortgage debt, corporate bonds, and equities.
    The answer to question B, how can we increase the size of 
the surplus, is also obvious. We must either cut benefits or 
increase contributions and we must do so fairly soon. The 
crucial issue is: How much of each of these things should we 
do? Increase contributions or cut benefits?
    My second point: The claim that individual accounts can 
yield workers a rate of return of 7 or 8 percent on their 
contributions must be assessed against the risk of investments 
in individual accounts. Bear in mind that the 13.3-percent real 
return we saw in the 15-year period ending January was far 
above the average 15-year return that U.S. equity markets have 
yielded over the last 130 years. In the 15-year period that 
ended in January 1982, for example, the annual real return on 
stock market investments held for 15 years was 0.7 percent. 
That's why in 1982, when Social Security faced a financing 
crisis, we didn't hear lots of discussion about how attractive 
the stock market looked as an alternative to Social Security. 
No one was going to talk about stock market investments when 
stock market returns had been negative over such a long period.
    Since 1871, there have been 113 15-year periods over which 
we can calculate the real rate of return on $1.00 invested in 
U.S. equities. In six of those periods, the returns were 
negative. In eight, the return was 13 percent a year or higher. 
So clearly the recent return has been exceptional. The 
arithmetic average of the 15-year returns was 6.6 percent.
    Many people mistakenly think that these ups and downs in 
the stock market average out over time, assuring that people 
who invest for long periods will be assured a high rate of 
return. But that's not true. If you happened to retire in 1931 
or in 1975, your stock market assets would've purchased a lot 
less in the way of retirement consumption for you. That simply 
follows from the fact that the assets that you'd accumulated 
over your life fell substantially in value in a very short 
period of time--the last 2 or 3 years of your career.
    The chart at the end of my table tries to perform 
calculations showing you what the replacement rate of a pension 
invested in stock market individual accounts would have been 
for workers retiring after a 40-year career ending in 1910, 
1911, and so on up through 1997. The message of that chart is 
clear. These investments do not yield a highly secure 
retirement income. The average rate of return is good. It's 
just that in a 1- or 2-year period, the pension that you can 
accumulate if you invest in the stock market, or any other 
portfolio for that matter, can go up and down a lot. I don't 
think that the mandatory public pension system should force 
people to rely heavily on that kind of a system. Thank you.
    [The prepared statement follows:]

Statement of Gary Burtless,\1\ Ph.D., Senior Fellow, Economic Studies 
Program, Brookings Institution

                  Social Security's Financing Problem

    Most Americans recognize that Social Security faces a long-
term financing problem. Many workers under 35 believe the 
problem is so severe they will never receive a Social Security 
check.
---------------------------------------------------------------------------
    \1\ The views expressed are solely my own and should not be 
ascribed to the staff or trustees of the Brookings Institution.
---------------------------------------------------------------------------
    Young workers lack confidence in Social Security because 
they do not believe future workers will be willing to shoulder 
the higher payroll taxes that will be needed to keep the 
program solvent. I think they are wrong, but their fears are 
not unreasonable. For almost two decades many influential 
opinion leaders and elected officials have fiercely criticized 
any increase in taxes, even when it was plain that future 
Social Security revenues will fall far short of promised future 
benefits. If the Congress and public are opposed to boosting 
taxes today, when the tax increase required to eliminate Social 
Security's long-run deficit is relatively small, will they be 
willing to raise taxes after 2020, when the required tax 
increase would be far larger? Younger workers and many opinion 
leaders evidently do not think so.
    The simplest and best solution to Social Security's 
financing problem is to trim promised benefits and increase 
payroll taxes one or two percentage points. It would be 
sensible if major steps along these lines were taken well in 
advance of 2010 when the Baby Boom generation begins to retire. 
Although it is not necessary that future benefits be reduced or 
taxes hiked immediately, it is desirable that decisions about 
future benefits and taxes be made as soon as possible. The 
OASDI Trustees' intermediate assumptions imply that the Trust 
Funds will be depleted shortly after 2030. The youngest Baby 
Boom workers will be in their middle 60s when that year 
arrives. If workers are to plan sensibly for their retirement, 
it is critical to inform them what combination of reduced 
benefits or higher taxes they will face over their careers.
    The long-run threat to Social Security solvency has 
prompted many people to offer novel solutions to the financing 
problem. Some proposals are aimed at reducing or eliminating 
the role of Social Security in protecting the incomes of the 
disabled and retired elderly. Others have the simpler goal of 
improving the financial performance of the Social Security 
Trust Funds by permitting Trust Fund reserves to be invested in 
equities or other high-yielding assets.

                          Individual Accounts

    One of the most widely discussed reform plans is to scale 
back traditional Social Security benefits and replace them 
fully or partially with a privately managed system of 
individual retirement accounts. Such accounts could be run 
independently of traditional Social Security or as an 
additional component of the existing system. Proponents of 
individual accounts offer three main arguments for moving 
toward individual pension accounts:
    <bullet> It can lift the rate of return workers earn on 
their retirement contributions
    <bullet> It can boost national saving and future economic 
growth
    <bullet> It has practical political advantages in 
comparison with reforms in existing public programs that rely 
on higher payroll taxes or a bigger accumulation of public 
pension reserves
    Moving to a system of large individual accounts must 
overcome a big financial hurdle, however. The existing Social 
Security system has already accumulated huge unfunded 
liabilities to workers who are already retired or who will 
retire in the next couple of decades. To make room for a new 
individual account system, the Nation must find public funds to 
pay for existing Social Security obligations while still 
leaving young workers enough money to deposit in new retirement 
accounts. This requires scaling back current obligations--by 
cutting benefits--or increasing total contributions from 
current workers. A large-scale individual account system would 
almost certainly require major new public borrowing. The 
country has struggled for the past decade to eliminate the 
federal deficit, so many voters will be angry to see that 
accomplishment thrown away in order to make room for a new 
system of individual accounts.
    As noted, proponents of individual accounts claim both 
economic and political advantages for their favorite plans. In 
the remainder of my testimony, I focus on the economic aspects 
of such proposals.
    Individual saving accounts can boost workers' rate of 
return by allowing their retirement contributions to be 
invested in private assets, such as equities, which yield a 
better return than the assets held by Social Security. Returns 
can be boosted still further if the U.S. government borrows on 
a massive scale to pay for past public pension liabilities, 
allowing workers to invest a larger percentage of their wages 
in high-yielding assets. Exactly the same rate of return can be 
obtained, however, if the existing Social Security system is 
changed to allow reserves to be invested in high-return private 
assets. Put simply, the rate-of-return advantage claimed for 
individual accounts could be duplicated by the present system 
if its investment options were expanded.
    By shifting the retirement system away from pay-as-you-go 
financing and toward advance funding, a system of individual 
accounts could boost national saving. Such a move will require 
a consumption sacrifice, either through a cut in benefits or a 
hike in combined contributions to the old and new retirement 
plans. Individual account plans that do not impose a 
consumption sacrifice will not achieve a higher saving rate. 
Higher national saving can also be achieved by reforming the 
present Social Security system. The crucial change in policy is 
the move toward more advance funding, not the move to 
individual accounts. Thus, the claimed economic advantages of 
individual retirement accounts can be obtained in either a new 
individual account system or with a slight modification of the 
existing Social Security system.
    In an individual account system workers would be free to 
decide how their contributions are invested, at least within 
broad limits. Some proponents of individual account plans 
suggest that contributions should be collected by a single 
public or semi-public agency and then invested in one or more 
of a limited number of investment funds. A worker might be 
given the option of investing in, say, five different funds--a 
money market fund, a stock market index fund, a real estate 
investment trust, a corporate bond fund, and a U.S. Treasury 
bond fund. By pooling the investments of all covered workers in 
a small number of funds and centralizing the collection of 
contributions and funds management, this approach minimizes 
administrative costs but it limits workers' investment choices. 
Another strategy is to allow mutual fund companies, private 
banks, insurance companies, and other investment companies to 
compete with one another to attract workers' contributions in 
hundreds or even thousands of qualified investment funds. This 
strategy would permit workers unparalleled freedom to invest as 
they choose, but the administrative, enforcement, and selling 
costs of such a system would be very high, substantially 
reducing the rate of return workers earn on their investments.

               Transition to an Individual Account System

    Individual account plans differ from traditional Social 
Security in two important ways. First, the worker's ultimate 
retirement benefit depends solely on the size of the worker's 
contributions and the success of the worker's investment plan. 
Workers who make larger contributions receive bigger pensions, 
other things equal. Workers whose investments earn better 
returns will get much larger pensions than workers who invest 
poorly. Second, in an individual account system pensions will 
be paid out of large accumulations of privately owned savings. 
In contrast, current Social Security pensions are financed 
mainly by the payroll taxes of active workers. This difference 
between the two kinds of system implies that the savings 
accumulation in an individual-account plan would be many times 
larger than the accumulation needed in pay-as-you-go Social 
Security.
    Because the connection between individual contributions, 
investment returns, and pension benefits is very 
straightforward in a defined-contribution individual account 
program, the system offers less scope for redistribution in 
favor of low-wage workers. Pensions financed out of individual 
investment accounts are based solely on deposits into the 
accounts (which are strictly proportional to workers' earnings) 
and on the investment performance of the accounts. 
Redistribution in favor of low-wage or other kinds of workers 
must take place outside these accounts. In contrast, the Social 
Security pension formula explicitly favors low-wage workers and 
one-earner married couples in order to minimize poverty among 
elderly and disabled people who have worked for a full career. 
To duplicate Social Security's success in keeping down poverty 
among the elderly and disabled, an individual account system 
must supplement the pensions from the individual accounts with 
a minimum, tax-financed pension or with public assistance 
payments.
    The United States cannot immediately scrap its public 
retirement system and replace it with a private system. At the 
end of 1997, almost 44 million Americans were collecting 
benefits under Social Security. About 2.3 million workers began 
to collect new retirement or disability benefits during the 
previous twelve months. Even if the country adopted a new 
individual account system for workers under 45, people who are 
already collecting Social Security or who will begin collecting 
within the next few years will continue to receive Social 
Security checks for several decades. Public funds must be 
appropriated to pay for these pensions, regardless of the 
system established for workers who will retire in the distant 
future.

                      Risks of Individual Accounts

The deficit risk

    The need to pay for the pensions of people who are already 
retired or near retirement age poses a challenge to all plans 
for establishing mandatory individual retirement accounts. 
Money must be found for existing pension liabilities at the 
same time workers will be asked to contribute to the new type 
of pension account. Because active workers will be required to 
finance pensions for retired workers and old workers nearing 
retirement, they may resent the obligation to pay for their own 
retirement pensions through contributions to new individual 
accounts.
    Some individual account plans would fund new retirement 
accounts by diverting a small part of the present payroll tax 
into private retirement accounts. In 1997, Social Security tax 
revenues exceeded OASDI benefit payments by $44 billion, or a 
bit more than 1% of taxable earnings. Thus, 1% to 1\1/2\% of 
the 12.4% payroll tax could be invested in individual 
retirement accounts while still leaving enough taxes to pay for 
current pension payments. This source of financing for the new 
accounts will not last forever. Even if workers under age 45 
were completely excluded from collecting Social Security 
pensions, benefit payments will exceed Social Security taxes by 
around 2015. In addition, workers must contribute much more 
than 1\1/2\% of their wages if they hope to accumulate enough 
private savings to enjoy a comfortable retirement. Thus, the 
strategy of diverting a small part of Social Security taxes can 
only work if current benefits are scaled back (yielding a 
surplus in Social Security long after 2015) or if private 
pension accounts provide only a modest supplement to Social 
Security pensions.
    More ambitious individual account plans would require 
borrowing or new federal taxes to pay for existing Social 
Security liabilities. These plans would divert half or more of 
the present Social Security payroll tax into private retirement 
accounts. The Social Security benefits promised to young 
workers (for example, those under age 45) would be slashed. A 
high rate of contributions into the new private accounts would 
be needed to ensure that enough money is accumulated to pay for 
reasonable pensions. However, the diversion of payroll taxes 
would starve the Social Security system of revenue, forcing the 
program to run huge deficits. To cover these deficits Congress 
would be forced to raise taxes or borrow funds. The need for 
extra taxes or borrowing would shrink as pensioners collecting 
Social Security are eventually replaced by pensioners who 
receive benefits from the new private accounts, but this 
process would not be complete for several decades. In the 
interim, the federal government would need to impose extra 
taxes (temporarily replacing most of the lost Social Security 
taxes) or run large deficits in order to cover the shortfall in 
the remaining Social Security program.

Investment risk

    The most frequently mentioned advantage of individual 
accounts is that they would permit workers to earn a much 
better rate of return than they are likely to achieve on their 
contributions to traditional Social Security. I have heard it 
claimed, for example, that workers will earn less than 0% real 
returns on their contributions to Social Security, while they 
could earn 8% to 10% on their contributions to an individual 
retirement account if it is invested in the U.S. stock market.
    This comparison is highly misleading. First, the claimed 
return on Social Security contributions is too low. Some 
contributors will earn negative returns on their Social 
Security contributions, but on average future returns are 
expected to be between 1% and 1\1/2\%, even if taxes are 
increased and benefits reduced to restore long-term solvency.
    Second, workers will not have an opportunity to earn the 
stock market rate of return on all of their retirement 
contributions, even if Congress establishes an individual 
account system in the near future. As noted above, more than 
nine-tenths of workers' contributions to Social Security are 
immediately used to pay benefits to disabled and retired 
workers and the dependents of deceased workers. Even if a new 
individual account system is established, workers (or other 
taxpayers) will be obliged to pay the cost of these promised 
benefits. Thus, the amount of surplus funds available to invest 
in the stock market is 1\1/2\% of a worker's pay rather than 
the full 12.4% of payroll that is deducted for Social Security 
contributions. Workers' overall rate of return on their 
contributions to the retirement system will be an average of 
the return obtained on their contributions to individual 
accounts and the return earned on their contributions to 
whatever remains of the traditional Social Security system. For 
most current workers, this overall rate of return will be much 
closer to the current return on Social Security contributions 
than it is to 8%.
    Advocates of individual retirement accounts often overlook 
the investment risk inherent in these kinds of accounts. All 
financial market investments are subject to risk. Their 
returns, measured in constant, inflation-adjusted dollars, are 
not guaranteed. Over long periods of time, investments in the 
U.S. stock market have outperformed all other types of domestic 
U.S. financial investments, including Treasury bills, long-term 
Treasury bonds, and highly rated corporate bonds. But stock 
market returns are highly variable from one year to the next. 
In fact, they are more variable over short periods of time than 
are the returns on safer assets, like U.S. Treasury bills.
    Many people mistakenly believe the annual ups and downs in 
stock market returns average out over time, assuring even the 
unluckiest investor of a high return if he or she invests 
steadily over a four- or five-decade period. A moment's 
reflection shows that this cannot be true. From January 1973 to 
January 1975 the Standard and Poor's composite stock market 
index fell 50% after adjusting for changes in the U.S. price 
level. The value of stock certificates purchased in 1972 and 
earlier years lost half their value in 24 months. The average 
real rate of return on a worker's lifetime investments in the 
stock market plunged more than 3 percentage points (from 8.6% 
to 5.3%) in a very short period of time. For a worker who 
planned on retiring in 1975, the drop in stock market prices 
between 1973 and 1975 would have required a very drastic 
reduction in consumption plans if the worker's sole source of 
retirement income depended on stock market investments.
    I have made calculations of the pensions that workers could 
expect under an individual account plan using information about 
annual stock market performance, interest rates, and inflation 
dating back to 1871.\2\ I start with the assumption that 
workers enter the workforce at age 22 and work for 40 years 
until reaching their 62nd birthdays. I also assume they 
contribute 2 percent of their wages each year to their 
individual retirement accounts. Workers' earnings typically 
rise throughout their careers until they reach their late 40s 
or early 50s, and then wages begin to fall. I assume that the 
age profile of earnings in a given year matches the age profile 
of earnings for American men in 1995 (as reported by the Census 
Bureau using tabulations from the March 1996 Current Population 
Survey). In addition, I assume that average earnings in the 
economy as a whole grow 1% a year.
---------------------------------------------------------------------------
    \2\ Stock market data are taken from Robert J. Shiller, Market 
Volatility (Cambridge, MA: MIT Press, 1989), Chapter 26, with the data 
updated by Shiller. Inflation estimates are based on January producer 
price index data from 1871 through 1913 and January CPI-U data from 
1913 through the present. Bond interest rates are derived using 1924 
through 1997 estimates of the average long-bond yield for U.S. Treasury 
debt; yield estimates before 1924 are based on yields of high-grade 
railroad bonds.
---------------------------------------------------------------------------
    While it would be interesting to see how workers' pensions 
would vary if they altered the percentage of contributions 
invested in different assets, in my calculations I assume that 
all contributions are invested in stocks represented in the 
Standard and Poor's composite stock index. Quarterly dividends 
from a worker's stock holdings are immediately invested in 
stocks, too. Optimistically, I assume that workers incur no 
expenses buying, selling, trading, or holding stocks. (The 
average mutual fund that holds a broadly diversified stock 
portfolio annually charges shareholders a little more than 1% 
of assets under management. Even the most efficient funds 
impose charges equivalent to 0.2% of assets under management.) 
When workers reach their 62nd birthdays they use their stock 
accumulations to purchase a single-life annuity for males. To 
determine the annuity company's charge for the annuity, I use 
the Social Security Actuary's projected life table for males 
reaching age 65 in 1995. To earn a secure return on its 
investments, the annuity company is assumed to invest in long-
term U.S. government bonds. I assume that the annuity company 
sells a ``fair'' annuity: It does not earn a profit, incur 
administrative or selling costs, or impose extra charges to 
protect itself against the risk of adverse selection in its 
customer pool. (These assumptions are all unrealistic. Annuity 
companies typically charge an amount that is equivalent to 15% 
of the selling price of annuities to cover these items.) My 
assumptions therefore yield an overly optimistic estimate of 
the pension that each worker would receive.
    The attached chart shows the replacement rate for workers 
retiring at the end of successive years from 1910 through 1997. 
The hypothetical experiences of 88 workers are reflected in 
this table. The worker who entered the workforce in 1871 and 
retired at the end of 1910, for example, would have accumulated 
enough savings in his individual retirement account to buy an 
annuity that replaced 19% of his peak lifetime earnings (that 
is, his average annual earnings between ages 54 and 58). The 
worker who entered the workforce in 1958 and retired at the end 
of 1997 could purchase an annuity that replaced 35% of his peak 
earnings. The highest replacement rate (40%) was obtained by 
the worker who entered the workforce in 1926 and retired at the 
end of 1965. The lowest (7%) was obtained by the worker who 
entered work in 1881 and retired in 1920. Nine-tenths of the 
replacement rates shown in the chart fall in the range between 
10% and 37%. The average replacement rate was 20.7%. (For 
workers retiring after 1945 the replacement rate averaged 
25.3%.)
[GRAPHIC] [TIFF OMITTED] T2578.001

    The principal lesson to be drawn from these calculations is 
that individual retirement accounts offer an uncertain basis 
for planning one's retirement. Workers fortunate enough to 
retire when financial markets are strong can obtain large 
pensions; workers with the misfortune to retire when asset 
prices are low can be left with little to retire on. The 
biggest pension shown in the chart is more than 5 times larger 
than the smallest one. Even in the period since the start of 
the Kennedy Administration, the experiences of retiring workers 
have differed widely. The biggest pension was 2.4 times the 
size of the smallest. In the six years from 1968 to 1974 the 
replacement rate fell 22 percentage points, plunging from 39% 
to 17%. In the three years from 1994 to 1997 it jumped 14 
percentage points, rising from 21% to 35%. Social Security 
pensions have been far more predictable and have varied within 
a much narrower range. For that reason, traditional Social 
Security provides a much more solid basis for retirement 
planning and a much more reliable foundation for a publicly 
mandated basic pension.
    The uncertainty of individual account pensions is 
understated in the chart, because it does not take account of 
the effects of inflation in years after a worker retires. In 
benign periods, such as the 1950s or the past few years, U.S. 
inflation has been low and fairly stable. In other periods, 
such as the 1970s and early 1980s, inflation has been high and 
erratic. Social Security has spared pensioners from the adverse 
effects of major jumps in inflation, because benefit payments 
are indexed. If workers were forced to buy annuities from 
private firms, this kind of inflation protection would be much 
harder to obtain. Workers could see big drops in the purchasing 
power of their annuities when prices started to rise rapidly.
Individual retirement risk

    The calculations shown in the table refer to the 
experiences of workers who consistently invest 2% of their 
wages in an indexed portfolio of U.S. equities. This investment 
strategy on average has yielded the highest pension of the 
alternative investment strategies open to most U.S. workers. If 
instead the worker had invested a fixed percentage of 
contributions to corporate or U.S. Treasury bonds, the ultimate 
pension would have been lower, because the rate of return 
associated with the alternative strategy is lower than it is 
when all contributions are invested in equities. Of course, 
many workers, especially low-wage workers, are too risk averse 
to invest all their contributions in equities. They would 
instead invest some or all of their contributions in bonds or 
even short-term Treasury bills. Workers who selected a lower-
return strategy would receive lower pensions than shown in the 
chart. Some workers might even earn negative returns if they 
withdrew their investments from stocks or long-term bonds at 
inopportune times.
    The risk that workers might choose a particularly bad 
investment strategy does not arise under the present Social 
Security system. That system provides a minimally adequate 
pension for nearly all workers who make contributions over a 
full career, regardless of the individual worker's investment 
expertise. In my view, that is appropriate in a mandatory 
public pension. The mandatory pension should provide a secure 
and adequate retirement income regardless of a worker's 
investment expertise. If voters or taxpayers are concerned 
about the low rate of return earned under the present Social 
Security system, then the investment strategy of the Social 
Security Trust Funds should be changed to permit the funds to 
be invested in higher yielding assets. All of us should 
recognize, however, that this new investment strategy will 
expose the Trust Funds to greater short-run risk.

                               Conclusion

    The debate about reforming Social Security should not begin 
with exaggerated fears about an impending financing ``crisis'' 
in the program, but with a reasoned view of the role played by 
Social Security in protecting the living standards of the old 
and disabled. For people who are (or expect to be) very well 
off, the role of Social Security may not be very important. For 
the great majority of old and disabled Americans, however, the 
program provides a large percentage of retirement income. Low-
income American families containing a person over 64 derive 
more than three-quarters of their cash income from Social 
Security. Even among most nonpoor elderly families, more than 
half of income is derived from Social Security. A large 
percentage of nonpoor families would be poor were it not for 
Social Security pensions.
    Social Security also provides workers a crucial protection 
against financial market risk. It is worth remembering that 
when the system was established in 1935, many industrial and 
trade union pension plans had collapsed as a result of the 1929 
stock market crash and the Great Depression, leaving workers 
with no dependable source of income in old age. The private 
savings of many households was wiped out as well. Given these 
circumstances, it is hardly surprising that a public pension 
plan, backed by the taxing authority of the federal government, 
was found to be preferable to sole reliance on individual 
retirement plans. Financial market fluctuations continue to 
make private retirement incomes uncertain. As a result, the 
argument for a continued role for traditional Social Security 
is strong, even for workers who earn middle-class wages 
throughout their careers.
    The only practical way to reduce the burden on future 
workers of paying for retirement benefits is to raise future 
national income. This can be accomplished within the context of 
retirement policy by increasing national saving, either in the 
private sector or in the public sector. Many proposals to 
``fix'' the Social Security financing problem by introducing 
individual retirement accounts boost private sector saving but 
simultaneously increase the federal deficit by an equivalent 
amount, leaving national saving unchanged. Some advocates of 
private pensions have suggested that part of the current Social 
Security payroll tax be diverted to private pension accounts, 
thus boosting private saving. Unless federal spending is cut 
sharply at the same time, this strategy will simply increase 
the size of the federal deficit, reducing government saving.
    The best way to improve the welfare of both young workers 
and future retirees is to boost national saving so that there 
will be more future income to divide between future workers and 
retirees. Some individual retirement account plans can 
accomplish that goal, but most would not--and many would 
actually reduce aggregate saving. I cannot see how elimination 
or sharp curtailment of Social Security pensions could ever 
improve the prospects of today's younger workers. Their welfare 
and confidence in the system could be improved if pensions and 
contribution rates were promptly adjusted to keep Social 
Security's promises in line with its future revenues.
      

                                <F-dash>

    Chairman Bunning. Mr. Edelman, go ahead.

STATEMENT OF RIC EDELMAN, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, 
      EDELMAN FINANCIAL SERVICES, INC., FAIRFAX, VIRGINIA

    Mr. Edelman. Mr. Chairman, thank you very much for allowing 
me to testify today. I'm honored to be here.
    My perspective comes as one who practices in the financial 
planning environment. I'm also one of the most active financial 
educators in the field between two radio and two television 
shows, teaching at Georgetown, and doing seminars across the 
country, and two bestselling books. I spend a lot of time with 
ordinary consumers in addition to my financial planning 
practice.
    My perspective is a little bit different. The benefits are 
obvious, and I don't think we need to belabor the point 
terribly much, but I do want to specifically cite five 
particular groups that are going to benefit dramatically from 
the concept of establishing PSAs with the Social Security 
system. The first, obviously, is the money management industry 
overall which gets to manage and invest all that money and earn 
asset management fees. Financial advisors such as myself will 
have a field day. I mean, you'll make me rich, so thank you 
very much in advance.
    The financial education field will also do extraordinarily 
well in terms of teaching consumers how to handle this money in 
books and tapes and seminars and all of the activities from 
that industry. The financial media will also do extremely well. 
They'll have tons to write about for years to come. And the 
advertising industry will also do extraordinarily well as they 
do all of the printing and buying all the ad time and the 
advertisement placements in magazines, radio, and television, 
and so on. So the trickle-down theory at its best, I think, can 
be well suggested from establishing PSAs.
    Unfortunately, there's a major flaw in the effort. The vast 
majority of Americans do not know how to invest. When I first 
came upon the concept of privatizing the Social Security 
system, it seemed that the original notion was to take x 
percentage of the FICA contributions, and put them into the 
stock market in order to get a higher rate of return--which may 
or may not exist in the first place. Well, how did we go from 
the notion of putting some of the Social Security Trust Fund 
into stocks to the notion of, well, let's let individual 
consumers make the decision of how that money is to be 
invested, which is what the PSA concept does?
    If we allow consumers to have control over their own 
decisions, two things are going to happen. Number one, they're 
going to make the wrong investment choices in a great majority 
of the time, just as they do currently with their IRAs and as 
they do currently with their 401(k)s. And, second, they will 
change their investment decisions at precisely the wrong period 
of time, such as immediately following a stock market crash, or 
immediately on the bad news of something that has happened in 
the marketplace. Take a look at the topsy-turvy aspects going 
on in the markets right now.
    In fact, it raises one question I have in my mind which has 
been suggested earlier. If we weren't experiencing an 18-year 
bull market that we have been currently enjoying since the 
early eighties, would we even be talking about the idea of 
putting some of the money into the stock market?
    The question was asked earlier: What are the political 
risks associated with this decision? Well, there are none, as 
long as the stock market performs very nicely. But what happens 
if the stock market drops 3,000 points because of something 
happening in Japan, with Alan Greenspan rushing to the White 
House to confer with the President about what to do next and 
consumers who are placing their Social Security money into the 
stock market suddenly want to withdraw that money as quickly as 
they had been so happily ready to add it? The sudden decrease 
or the outflow of money from the stock market would have a 
tremendously detrimental effect on the overall stock market 
and, as a result, the economy as a net effect.
    Therefore, I would like to suggest an alternative proposal 
that I think might allow us to have our good news and avoid the 
bad news. And that is to establish a system that is similar to 
that used by the Federal Campaign Contributions. We currently 
allow taxpayers every year when they do their tax return to 
choose whether or not they want to put $3 of their tax payment 
into a segregated fund that the Federal Government controls. 
The Federal Election Commission, FEC, takes those $3 and 
allocates them to the candidates under a system established by 
the government. Consumers have no say over how the $3 is spent 
after they decide to put in the $3.
    We could do the same thing with a different system. Allow 
workers on their W-9 every year to determine how much of their 
money they want to put into stocks, up to a limit set by 
Congress, such as 2 percentage points of the FICA payment. Once 
the consumer makes that election, it's then up to the 
government, through a system similar to the FEC, to make the 
decision of how that money is going to be invested. Don't leave 
it up to individual consumers. As much as I personally and 
professionally would enjoy that decision, I don't think it's in 
the best interests of consumers.
    This would be extremely easy to administer. The systems are 
already in place on the W-9. And we need to do one final thing: 
Make it a one-way trip. Once money is going into the stock 
market, the ability to remove it because of fears over current 
or future market conditions must not occur or we will be 
contributing to a topsy-turvy marketplace that will cause 
significant problems in the future. Thank you very much.
    [The prepared statement follows:]

Statement of Ric Edelman, Chairman and Chief Executive Officer, Edelman 
Financial Services, Inc., Fairfax, Virginia

    I am honored to be appearing before you and the 
Subcommittee today. The issue you are considering today--
whether to place a portion of the Social Security Trust Fund's 
assets into the stock market--is both an exciting and a 
sobering one, and I am both pleased and relieved that the 
Congress has sought input from someone like me who is so 
intimately involved in the field of personal finance.
    My perspective comes from my activities both as a provider 
of financial services and as one of the nation's best-known 
educators in the field of personal finance. By way of 
background, I am the author of two New York Times bestsellers, 
The New Rules of Money and The Truth About Money. My award-
winning radio program, ``The Ric Edelman Show,'' is heard on 
WMAL in Washington, DC and WLS in Chicago. I also host the 
national television show ``Money University'' on America's 
Voice cable network, write a syndicated column, publish a 
newsletter, and run a major advice area for America Online. I 
am on the faculty of Georgetown University, and my company, 
Edelman Financial Services, Inc., manages $900 million in 
client assets, establishing my firm as one of the largest 
financial planning companies in the nation.
    Because of my background, it might at first appear that I 
would be strongly in favor of placing a portion of the money 
collected from Social Security taxes into the stock market. 
And, of course, to a large extent this is correct. However, I 
am also extremely concerned about several of the proposed ways 
this might be enacted, for as much as there is opportunity 
offered by the proposals, there is substantial risk for America 
embedded in those proposals as well. Please allow me to 
elaborate on these opportunities and risks, and offer a 
proposal that can best take advantage of the former while 
minimizing the latter.
    To anyone working in the financial services industry, the 
opportunities are very real, and it is easy to see why I and 
others in my field would jump at the chance to manage these 
retirement assets. The advantages are clear:
    <bullet> Billions of dollars would flow into the stock 
market. This can only cause stock prices to rise--and rise 
dramatically.
    <bullet> The inflows would be based on periodic investments 
from payroll reductions. Referred to in financial circles as 
Dollar Cost Averaging, this is widely regarded as perhaps the 
most effective long-term investment strategy known. Therefore, 
sustained higher stock prices over the long run are virtually 
certain.
    <bullet> If these massive investments are handled on an 
individual level, five major industry sectors will enjoy 
tremendous profits, which will serve as a huge catalyst for 
supporting the entire American economy:
    --First, the money management industry will earn enormous 
fees by investing and managing these assets. I am referring to 
mutual funds, annuities, institutional money managers, clearing 
firms, banks, insurance companies and brokerage firms. My 
esteemed colleague from Charles Schwab, who joins me today on 
this panel before you, would be counted in this group. Make no 
mistake: placing a portion of Social Security's assets in 
stocks would be the biggest payday in Wall Street history.
    --Financial advisors would become the nation's hottest new 
profession (if it isn't already). There will be incredible fee 
and commission income from advising consumers on how to invest 
their Social Security assets, and whereas I placed Schwab in 
the first group, I place myself solidly in this group. If you 
enact this proposal, let me be the first to thank you in 
advance for helping me and all financial advisors to become 
rich, or rather, even richer.
    --The burgeoning financial education field, of which I am a 
part, and which currently is a small cottage industry, would 
become a major metropolis. Tens of millions of workers would be 
new targets for educational products and services.
    --The financial media, which is very well represented today 
by Money Magazine, would find a treasure chest of new 
information to convey to its readers. They'll have plenty to 
write about for a long time.
    --The advertising industry would receive its biggest bonus 
since prescription drug advertising hit television. Whereas 
currently Wall Street attempts to reach only the affluent, who 
have assets to invest, this proposal would place investable 
assets into the hands of virtually every working American. Wall 
Street will want to reach those consumers, and this means 
unmatched spending on advertising, marketing, promotional and 
public relations campaigns. This represents the trickle-down 
theory at its best.
    As exciting as all of these benefits appear, the total 
result is even more exciting. Individual Americans would become 
more educated about investing. They would become more involved 
in their own financial future--a fundamental principle on which 
this great nation was founded. American entrepreneurial and 
business opportunity would be greatly expanded. And the overall 
U.S. economy would strongly benefit.
    Of course, there is no such thing as reward without risk, 
and I would like to caution the Subcommittee of the three 
predominant dangers of this proposal.
    First, the majority of Americans--again, the majority of 
Americans--do not know the proper way to invest, nor do they 
know how to hire and work with a financial advisor. They do not 
understand such fundamental investment basics as the power of 
compounding, or diversification. Consequently, many would be 
exposed to fraud and abuse--and the nation simply cannot afford 
to take these risks with the Social Security Trust Fund. 
Furthermore, I can tell you from experience that most Americans 
tend to emphasize risk over performance when it comes to 
investing. This means that, left to their own discretion, far 
too many Americans would invest their assets in the wrong asset 
classes, defeating the goal of improved performance that this 
privatization issue seeks to achieve.
    Second, just as the great inflow of dollars in the stock 
market would be beneficial, great, sudden outflows would be 
disastrous. And if you give individual consumers the 
opportunity to withdraw their Social Security assets from 
stocks, such outflows would be certain to occur, for consumers 
tend to act emotionally with their investments.
    On this point, I am very concerned that this proposal has 
surfaced at this time. Is it a coincidence that the stock 
market has been enjoying its biggest gain in history? Over the 
past 16 years, the Dow Jones Industrial Average has grown ten-
fold, and aside from three very short-lived declines, consumers 
would be hard-pressed to recall the last time that stocks 
failed to rise dramatically in value.
    My concern is that much of the fuel driving the proposal to 
place a portion of the Social Security Trust Fund's assets into 
stocks stems from consumer attitude. Consumers have been 
watching stocks and mutual funds rise sharply, while bonds and 
bank accounts have been languishing due to sharply decreasing 
interest rates. Indeed, during the same period of time that the 
Dow has risen from 800 to 9000, CD interest rates have fallen 
from 16% to 4%. Thus, stock investors have been richly rewarded 
while conservative savers have been left behind.
    Today, too many consumers believe that stock prices only 
rise. What will be the sentiment when stocks fall? What happens 
when--not if--the nation enters a true bear market--something 
that hasn't happened for nearly 30 years? If the Congress is 
going to permit Social Security assets to be invested into 
stocks, then it must make this a one-way trip. Investor 
sentiment must not drive this decision today, nor should 
changing attitudes because of the current condition of the 
economy cause a change in our commitment in the future. 
Otherwise, the proposal you are considering today will cause 
great damage to this nation in decades to come.
    And third, there would be massive inefficiencies and 
conflicts of advice as each organization strives to capture the 
attention--and the assets--of American workers. The 
contradictory advice that will emanate from the financial 
community will create confusion among consumers, and too many 
of them will consequently make the wrong investment decision--
with disastrous results. The goals of the Congress can be 
achieved just as effectively without the activities of these 
various special interest groups.
    Therefore, as much as I personally and professionally would 
like to see Congress turn over a portion of the Social Security 
assets to individuals for them to manage as they see fit, I 
cannot ethically and morally support such a position. Instead, 
I propose the following to Congress:
    Without question, do allow a portion of the Social Security 
Trust Fund to be invested into the equity markets. The economic 
realities of today demand this. However, do not allow 
individual consumers to decide how to their portion is to be 
invested, for Americans have proved time after time that they 
do not know how to properly manage their money. Still, because 
I firmly believe in the individual rights of Americans, their 
individual participation in this matter is critical. I thus 
propose the following:
    <bullet> Prior and existing Trust Fund assets should not be 
invested into equities.
    <bullet> A portion of new contributions to the Trust Fund 
should be directed toward equities. Congress should determine 
the maximum percentage. I recommend no more than 25% of future 
contributions.
    <bullet> Each American worker should declare what portion 
of their current Social Security contributions they wish to be 
invested into stocks, up to the maximum percentage determined 
by Congress. This election would be made annually on each 
worker's W-9 form.
    <bullet> Each annual election must be irrevocable, meaning 
that workers will not be able to rescind their previous W-9 
declaration, and such designated monies must not be withdrawn 
from the stock market until the assets are needed to make 
payments to Social Security beneficiaries. Withdrawals or 
redemptions for any reason--and especially because of concerns 
over current market conditions--must be strictly prohibited.
    <bullet> The Federal Government, in a manner established by 
Congress, would be responsible for investing the equity portion 
of the Trust Fund into a broadly-based equalization 
(unweighted) index comprising at least 2,500 U.S. stocks. A 
capitalization-weighted index must not be used. As explained in 
my book, The New Rules of Money, index funds that mimic the S&P 
500 Stock Index are poor investments, for the following 
reasons:
    --In a capitalization-weighted index, like the S&P 500, the 
biggest companies have the biggest effect on the index, instead 
of each stock having an equal effect. For example, a 10% gain 
by the #1 company would have a much bigger impact on the index 
than a 10% gain by the smallest company. It also means that the 
index would buy more of the biggest stocks than the smallest 
stocks. And the higher a company's stock price gets, the more 
the index fund would buy it. It sounds bizarre, but it's true: 
Index funds buy more of a given stock merely because the stock 
has already risen in value.
    --Because index funds tend to hold disproportionate amounts 
of stock--holding much more stock of big companies than it 
holds of little ones--it's impossible to maintain a balanced 
portfolio. If a stock grew in price, a typical money manager 
might want to sell some of it. But in a capitalization index 
fund, you can't. Instead, the fund will buy even more--at the 
new higher prices. This explains why S&P Index funds have as 
much money invested in the 50 biggest stocks as in the other 
450 combined. The result is that such index funds make money 
only if the biggest stocks make money, because big gains in 
little stocks don't make much difference. Thus, index investors 
were lucky in 1996: six of the S&P 500's biggest stocks 
collectively produced 26% of the index's total gain. Put 
another way, just 1.2% of the holdings produced 26% of the 
profits, while the other 494 stocks in the index earned the 
rest. The Congress must not create an investment whose results 
are so dependent on such lopsided performance.
    The format I propose here is similar to that currently used 
by the Federal Election Commission:
    <bullet> Previously-received federal revenue is not used 
for federal matching contributions.
    <bullet> Congress determines the maximum annual allowable 
contribution by each taxpayer; currently set at $3.
    <bullet> Each taxpayer chooses whether or not to make this 
contribution.
    <bullet> Once the election is made, taxpayers cannot change 
their mind.
    <bullet> The Government determines how the assets are to be 
``invested,'' or distributed, among the candidates. The 
individual consumer plays no role in this decision.
    The Campaign Contribution program is very efficient and 
effective, and a similar program can be created as easily by 
the Social Security Trust Fund.
    Thank you very much for this opportunity to participate in 
this important process.
      

                                <F-dash>

    Chairman Bunning. Thank you.
    We are going to recess to go vote. I apologize, Ms. Tritch, 
but we have to go to the floor and we'll be back as soon as 
possible. We stand in recess.
    [Recess.]
    Chairman Bunning. The Subcommittee will come to order.
    We were about to hear from Ms. Tritch.

STATEMENT OF TERESA TRITCH, SENIOR EDITOR, MONEY MAGAZINE, NEW 
                         YORK, NEW YORK

    Ms. Tritch. Mr. Chairman, thank you for the opportunity to 
appear before you today to discuss personal savings accounts 
within Social Security. I've been asked to address two related 
issues. First, whether Americans in general are currently 
knowledgeable enough about financial markets to make sound 
investing decisions and, if not, what would be required to 
raise American's financial IQ to a level at which they could be 
reasonably secure about investing their tax dollars on their 
own?
    Much of the survey data and anecdotal evidence on investor 
preparedness points to one conclusion: That is, overall, 
individuals are ill-equipped to make fundamental decisions 
about investing. A case in point. In 1996 and, again, in 1998, 
Money magazine and the Vanguard Funds Group tested the basic 
investing knowledge of roughly 1,500 people who own mutual 
funds directly or through a retirement plan at work. In 1996, 
the average test score was 49 out of 100; in 1998, investors 
averaged 51 out of 100, performances that deserve an F even by 
today's liberal grading standards. Clearly, if individuals who 
have money in mutual funds fail a test on investing basics, one 
can only assume that the roughly 60 percent of Americans who 
have no such investments are even less informed.
    The negligible improvement in test scores from 1996 to 1998 
is especially dismaying when you consider that during that 
time, investors poured more than $700 billion into mutual 
funds. Many proponents of Social Security privatization have 
equated individual's increased participation in the market with 
increased financial sophistication, but as the Money-Vanguard 
data shows, increasing participation in the markets does not 
necessarily correlate to investor savvy. Rather, individuals 
may be fooled by the long-running bull market into believing 
they possess an investing prowess that has, in fact, never been 
tested by adverse market and economic conditions.
    Worse, investing experience that is confined to boom times 
can actually engender or reinforce faulty investing beliefs. 
The top four wrongheaded attitudes I've encountered are the 
notions that stocks, particularly U.S. blue chips, are the only 
place to be invested; that market downturns are rare, brief, 
and relatively painless; that fees and expenses are unimportant 
in determining one's investment return; and that inflation is 
not a threat. Unfortunately, misperceptions like these are 
fueling, at least in part, the current enthusiasm for 
individual Social Security accounts.
    That said, I believe the task of turning each American 
worker into a savvy investor would be unduly burdensome for the 
individual and for the government. So, if individual accounts 
become part of Social Security, I believe that Americans would 
be best served by embedding sound investing basics in the rules 
of the program itself.
    For example, participation in individual accounts would 
have to be mandatory, thus circumventing the need to convince 
people to participation. Investing options would have to be 
limited to those that have easily explainable risk-reward 
profiles and low fees, such as a stock index fund, a government 
bond fund, and a money market fund. There would also need to be 
a prohibition against early withdrawals, since tapping one's 
account before retirement defeats the compounding on which the 
success of the account depends. The government should make no 
guarantee against loss, but could seek to provide a cushion by 
requiring employers to match employees contributions.
    By structuring individual accounts this way, the government 
will mirror much of the investor education that private 
companies have already undertaken. Thank you again for your 
time and attention.
    [The prepared statement follows. Attachments are being 
retained in the Committee files.]

Statement of Teresa Tritch, Senior Editor, Money Magazine, New York, 
New York

    Mr. Chairman and Members of the Committee,
    Thank you for the opportunity to appear before you today to 
discuss the topic of personal savings accounts within Social 
Security. I have been asked to address two related issues:
    First, whether Americans, in general, are currently 
knowledgeable enough about financial markets to make sound 
investing decisions
    And, if not, what would be required to raise Americans' 
financial IQ to a level at which they could be reasonably 
secure about investing their Social Security tax dollars on 
their own.

                         Investor Preparedness

    Much of the survey data and anecdotal evidence on investor 
preparedness points to one conclusion. That is, overall, 
individuals are ill-equipped to make fundamental decisions 
about investing. A case in point:
    In 1996 and again in 1998, Money magazine and the Vanguard 
Funds Group tested the basic investing knowledge of roughly 
1,500 people who own mutual funds directly or through a 
retirement plan at work. In 1996, the average test score was 49 
out of 100; in 1998, investors averaged 51 out of 100--
performances that deserve an F even by today's liberal grading 
standards. I'll offer some details later. But clearly, if 
individuals who have money in mutual funds fail a test on 
investing basics, one can only assume that the roughly 60% of 
Americans who have no such investments are even less well-
informed.
    The low test scores--and their negligible improvement from 
1996 to 1998--are especially dismaying when you consider that 
during that time, investors poured more than $700 billion into 
mutual funds--and for the first time in a generation, Americans 
had more of their assets invested in stocks than in their 
houses. Many proponents of Social Security privatization have 
equated individuals' increased participation in the markets 
with increased investor savvy. But as the Money/Vanguard data 
show: Increasing participation in the markets does not 
necessarily correlate to financial sophistication. Rather, 
individuals may be fooled by the long-running bull market into 
believing they possess an investing prowess that has, in fact, 
never been tested by adverse market and economic conditions. 
This sentiment was echoed last May by Securities and Exchange 
Commission chairman Arthur Levitt. He told a group of equity 
portfolio managers--quote--``The financial literacy of 
Americans has not kept pace with the growth of the fund 
investments or investor satisfaction.''
    Worse, investing experience that is confined to boom times 
can actually engender or reinforce faulty investing beliefs: 
The top four wrongheaded attitudes I've encountered are the 
notions that stocks--particularly U.S. blue chips--are the only 
place in which to be invested; that market downturns are rare, 
brief and relatively painless; that fees and expenses are 
unimportant in determining one's investment return; and that 
inflation is not a threat. Unfortunately, misperceptions like 
these are fueling, at least in part, the current enthusiasm for 
individual Social Security accounts--especially among young and 
surely untested investors who are among the greatest proponents 
of privatization.
    A few of the specific areas in which participants in the 
Money/Vanguard survey exhibited surprising ignorance shed light 
on the question of whether individuals really grasp what they 
are being asked to give up in the current system by undertaking 
private accounts.
    For example, the test found widespread confusion about how 
to calculate basic performance gauges, such as total return and 
real return. Such ignorance could lead individuals astray as 
they weigh the pros and cons of individual accounts. That's 
because one of the main arguments for individual accounts has 
been the relatively poor return that Social Security offers 
younger workers on their tax dollars. Those calculations 
generally fail to include the value of disability and survivor 
benefits under Social Security or the savings to workers due to 
the fact that Social Security spares them from having to 
contribute to their own parents' support.
    On a related matter, 40% of testakers were unaware of the 
effect of a fund's operating costs on their returns, namely, 
that every cent a fund charges comes right out of their 
investment. (This finding echoes a similar result in a joint 
study conducted in 1995 for the SEC and the Office of the 
Comptroller of the Currency, which found that more than 80% of 
fund investors could not give an estimate of expenses for their 
largest mutual fund; and of them, only 43% even knew their 
largest fund's expenses at the time they first invested in the 
fund.) Without that understanding, investors are in no position 
to evaluate the potential returns in an individual account--let 
alone compare that account with the current system. This is 
especially true if, as has been estimated, administrative costs 
for individual accounts amount to a minimum of one percentage 
point a year. According to Peter Diamond at MIT, that alone 
would total a 20% hit against one's savings over a 40-year work 
life.
    Finally, almost half of investors mistakenly believed that 
diversification guarantees that their portfolio won't suffer if 
the market falls. It's crucial that investors understand that 
nothing can guarantee against loss in the stock market and that 
their return depends on what they buy, when they buy it and 
when they sell it--and the fees they pay along the way.

                           Investor Education

    That said, I believe the task of turning each American 
worker into a savvy investor would be unduly burdensome for 
both individuals and the government. Thus, if individual 
accounts become part of Social Security, I believe that 
Americans would be best served by embedding sound investing 
basics in the rules of the program itself. For example, 
participation in individual accounts should be mandatory, thus 
circumventing the need to convince people to participate. 
Investing options should be limited to those that have easily 
explainable risk/reward profiles and low fees, such as a stock 
index fund, a government bond fund and a money market fund. 
There would also need to be a prohibition against early 
withdrawals, since tapping one's account before retirement 
defeats the compounding on which the success of the accounts 
depends. The government should make no guarantee against loss, 
but could seek to provide a cushion by requiring employers to 
match employees' contributions.
    By structuring individual accounts this way, the government 
will mirror much of the investor education that private 
companies have already undertaken. These initiatives have 
centered on encouraging employee participation in employer-
provided retirement savings plans; explaining the relationship 
between risk and reward, with an eye toward increasing 
employees' comfort with investing in stocks while stressing the 
need for asset allocation; and warning about the dangers of 
tapping one's savings before retirement.
    Thank you for your time and attention.
      

                                <F-dash>

    Chairman Bunning. Thank you very much.
    Mr. Huard.

 STATEMENT OF PAUL R. HUARD, SENIOR VICE PRESIDENT, POLICY AND 
     COMMUNICATIONS, NATIONAL ASSOCIATION OF MANUFACTURERS

    Mr. Huard. Thank you, Mr. Chairman, on behalf of the 
National Association of Manufacturers, its 14,000 members and 
18 million people, employed in manufacturing. We appreciate 
this opportunity to express our views.
    We do not believe that the Social Security system as 
presently constituted is demographically sustainable. We 
believe that people who think so are indulging in a large 
number of rosy scenarios. We think the truth is that people 
will live longer than is currently being estimated, because 
medical science will continue to prolong life. We think that 
taxes will have to be raised more than is being projected in 
order to keep the system viable. Ultimately, if the Social 
Security system is not transformed from its present format, it 
will eat the U.S. economy alive. That being the case, the 
entire incoming tax receipts of the Federal Government will 
have to be used to pay out entitlements whether it's Social 
Security retirement, Social Security Medicare, or Medicaid.
    We believe that the Social Security system should be 
transformed into a two-part system which continues to provide, 
as it presently does, a tax financed safety net of minimum 
benefits. The portion of tax receipts currently being put into 
the so-called Social Security Trust Fund should, in fact, be 
contributed to a system of personal retirement accounts. We 
believe such retirement accounts should be owned by their 
beneficiaries. Title to those funds should not be in the 
government nor should the government manage the funds. We 
believe collection remittance and reporting of allocations for 
these accounts should be based as much as possible on the 
current payroll tax mechanisms which are well-known to 
employers and which could be handled with a minimum of 
administrative expense.
    And, finally, we believe that a robust system of private 
employer-sponsored retirement plans should continue to be 
encouraged by Federal tax policy. With that, I would submit the 
balance of my testimony for the record and, in the interests of 
time, be glad to answer any questions.
    [The prepared statement follows:]

Statement of Paul R. Huard, Senior Vice President, Policy and 
Communications, National Association of Manufacturers

                                Summary

    Social Security reform is a necessity. Under a reformed 
system, a safety net will remain, as protection against poverty 
in old age. However, the safety net should emphasize its role 
as social insurance, not a source of defined benefits. Reform 
presupposes contributions of funds currently, for accumulation 
as necessary to provide retirement income. The defined 
contribution model for employer plans under ERISA provides the 
appropriate means of pre-funding. Accordingly, Social Security 
reform requires creation of a system of personal retirement 
savings accounts. Under such accounts, employees would enjoy an 
ownership interest in a pool of assets invested directly in 
publicly traded securities, specifically identifiable to the 
accounts of individuals. Personal accounts would exist 
separately from the current system of employer-sponsored 
retirement plans. Social Security reform is in large measure 
dependent on private plans, and federal policy should encourage 
expansion of the qualified-plan system. The payroll tax 
provides the appropriate platform for employer compliance with 
the requirements for contributions to personal accounts.
    Thank you Chairman Bunning. I am Paul Huard, Senior Vice 
President for Policy and Communications of the National 
Association of Manufacturers. I am pleased to represent the NAM 
today in testifying before this subcommittee.
    This afternoon I shall make observations with respect to 
the following issues:
    <bullet> The attitude of employers toward Social Security 
reform, and the necessity that sources of retirement income be 
funded in advance;
    <bullet> Employer support for a system of employee-owned 
personal savings accounts;
    <bullet> Continuing employer commitment to the existing 
system of employer-sponsored retirement plans; and,
    <bullet> Mechanical and practical considerations incident 
to a personal account system, and the requirement that employer 
obligations under such a system be based on the existing rules 
for collection, deposit, and reporting of payroll taxes.

                                The NAM

    The National Association of Manufacturers is the oldest 
broad-based trade association in the nation. Founded over a 
hundred years ago, the NAM encompasses 14,000 member companies 
which account for 85-percent of goods manufactured in the 
United States. NAM members range in size from companies with 
fewer than 50 employees to those with more than 100,000.
    NAM members consider the reform of Social Security a top 
priority. Members recognize unreformed federal entitlement 
programs as the greatest threat to the economic health of 
American businesses. Absent entitlement reform, the unfunded 
obligations of the government will tax the growth out of the 
economy; tax the jobs out of the economy; and finally, make it 
extremely difficult for U.S. employers to compete in both 
domestic and foreign markets.
    Because of the importance of the issue to member companies, 
the NAM became a leader among trade associations in addressing 
Social Security reform. In 1995, the NAM formed a task force to 
examine the dimensions of the Social Security issue and to 
consider potential remedies. Last year, the task force 
presented its recommendations to the NAM Board of Directors, 
which approved a ``Statement of Principles for Social Security 
Reform.'' To the best of our knowledge, the NAM was the first 
employer group in the country to reach such a consensus on the 
fundamental aspects of reform.
    In testimony before this subcommittee in July of last year, 
then NAM Chairman Warren Batts discussed the ``Principles,'' 
and the salutary effect of Social Security reform on U.S. 
economic growth.
    This afternoon, I represent American manufacturers in 
making comments on Social Security reform with a focus on 
personal retirement savings accounts.

                     Employers and Social Insurance

    NAM member companies recognize the role of a ``safety net'' 
against poverty in old age. And while such a federal program 
should continue, it should emphasize the New Deal concept of 
``social insurance'' against poverty in retirement, purchased 
through payroll taxes.
    In the decades since the New Deal, Social Security has come 
to represent not insurance protection, but a system of 
``benefits,'' to which virtually all persons in the workforce 
are entitled, regardless of need. However, as amply 
demonstrated by students of the issue, demographic factors will 
not allow the current schedule of benefits to continue. If the 
safety net is to remain viable, we must ``decouple'' social 
insurance from accrual of retirement income.
    To do so will strengthen the safety net dramatically, by 
reducing the insurance risk that the federal government 
assumes. Whether the safety net were needs based, or provided 
through a ``first tier'' of defined benefits, the ability of 
the federal government to satisfy its promise is greatly 
enhanced by a system of personal accounts through which 
retirement income needs are pre-funded.

                      Reform Means a Funded System

    Anyone who operates a business enterprise recognizes the 
necessity of accumulating resources of current worth in order 
to satisfy projected needs--a future liability is offset by 
assets currently in hand. In the same manner, individuals and 
families recognize the necessity of saving now, for cash needs 
in the future.
    With respect to Social Security reform, current 
accumulation of assets is not enough. The experience of 
employers in providing pension benefits to employees has shown 
the insufficiency of mere accumulation in view of future 
liabilities. In this regard, the promises made to employees for 
their retirement income presuppose not only the creation of 
reserves, but segregation of the funds that will provide such 
income. The Employee Retirement Income Security Act of 1974 
made fund segregation a federal mandate, by requiring not only 
pre-funding, but creation of a trust to hold the assets.
    Social Security reform requires an equivalent mandate. We 
must accumulate funds currently, segregate those funds, and 
provide for growth of the funds through investment returns.
    In dealing with funding, a caveat is in order.
    As noted, ``reform'' implies a funded system. But a system 
remains unfunded if the only assets dedicated to future needs 
are projected surpluses in the federal budget. To this effect, 
one well might ask, ``What assets?'' Projected federal 
surpluses simply aren't assets. ``Reform'' based on unrealized 
improvements in the federal balance sheet is less a promise of 
retirement income to individuals than it is a plea by the 
federal government for an expanded line of credit.

                  Personal Retirement Savings Accounts

    NAM member companies endorse Social Security reform based 
upon a system of ``personal retirement savings accounts.'' In 
this regard, the term means vested rights of ownership by an 
individual in specified assets, accumulated through periodic 
contributions and investment earnings. While the assets 
attributable to each account would be pooled for investment 
purposes, an account would represent the individual's legal 
right to specific marketable securities that are identifiable 
to the account.
    Start-up of a system of personal accounts might require 
that the federal government temporarily hold assets in gross, 
unallocated to the accounts of individuals. In a similar 
manner, continuing administration of a system of personal 
accounts might of necessity involve a federal escrow or sub-
account to hold periodic contributions pending allocation. In 
any event, the operation of a functioning personal account 
system would require that the government transfer the 
contributions as quickly as possible to private-sector asset 
managers. Such managers would hold and invest the assets, as 
fiduciaries, for the benefit of the specific individuals on 
whose behalf contributions were made. Individuals would possess 
a legal right to assets held on their behalf, NOT a right to 
assets held legally by the federal government.
    The obvious model for a personal account system is a 
defined contribution retirement plan (such as a 401(k) plan), 
sponsored by an employer, and subject to ERISA. In this regard, 
a plan sponsor is required to segregate contributions from its 
own funds as quickly as possible, and to forward the assets to 
an investment manager. The manager invests the assets in 
publicly traded securities, and simultaneously allocates the 
amount of the employer's contribution to the accounts of 
individual employees.
    The NAM and others in the business community would 
vigorously oppose asset management subject to discretionary 
authority of an agency of the federal government.

            The Role of Employer-Sponsored Retirement Plans

    Employers endorse Social Security reform that emphasizes 
and strengthens current federal policy in favor of employer-
sponsored retirement plans. Savings for retirement through 
qualified plans has proven highly successful, with 
approximately half the U.S. workforce participating in such 
arrangements. That such individuals are less dependent on 
Social Security and less likely to need a safety net is 
obvious. Accordingly, federal policy should encourage even 
greater coverage by employer-sponsored plans. Creation of new 
plans and increased savings under existing plans can only 
reduce financial pressure on the Social Security system and 
ease implementation of reforms.

      Practical Concerns of Employers under Social Security Reform

    Employers endorse Social Security reform that recognizes 
the necessity of a limited role for employers.
    Common to virtually all the reform proposals currently 
under consideration is creation of personal savings accounts 
for employees, administered apart from employer-sponsored 
retirement plans or individual retirement accounts. But such 
proposals, of necessity, rely upon employers as agents for 
collecting and transmitting funds subsequently allocated to 
individuals' accounts.
    In order to implement a personal-account system quickly and 
efficiently, the administrative aspects of reform should be 
attached to the existing system for payroll tax collection, 
deposit and reporting. Employers and employees alike understand 
the procedures for withholding and reporting FICA taxes. Most 
importantly, it appears that existing accounting and computer 
systems used by employers for payroll tax compliance could 
accommodate the additional requirements for personal retirement 
savings accounts fairly easily. Employers would withhold 
employee contributions to accounts no differently than employee 
FICA is withheld. Likewise, no new procedure is required for 
employer contribution to such accounts or for deposit of taxes. 
Indeed, the efficiency of the present system for collection of 
payroll taxes is among the principal reasons that personal 
accounts are administratively feasible.
    Employees could receive documentation of amounts 
contributed to their accounts by means of a slightly revised 
Form W-2. If a reformed system allowed additional voluntary 
employee contributions, it appears that employees could make 
elections in this regard through a revised Form W-4. Such 
changes, accomplishing in large measure the mechanical 
requirements for personal accounts, would seem to impose only 
modest alterations upon the present payroll tax compliance 
system.
    Existing civil penalties and criminal sanctions for payroll 
tax non-compliance would assure persons in the workforce, no 
less than federal regulators, that employers made contributions 
to personal accounts as specified. Enforcement of such 
proscriptions by the Internal Revenue Service is automated and 
highly efficient.

 Additional Thoughts on the Mechanics of a System of Personal Accounts

    Although employers endorse personal accounts as a means of 
achieving Social Security reform, they recognize significant 
practical issues that the Congress must address.
    <bullet> The technology necessary to management of personal 
accounts is already in wide use. However, the capacity of such 
technology would have to be expanded enormously in order to 
accommodate a personal account for each individual in the U.S. 
workforce.
    <bullet> Management of data with respect to contributions 
and earnings is an accounting function, separate and apart from 
asset management, which constitutes an investment function. 
Costs for accounting are separable from costs for investing. It 
seems a virtual certainty that accounting for individual 
accounts would remain with an agency of the federal government. 
As noted above, employers would support Social Security reform 
only if asset management and investment were performed by 
private-sector financial institutions, subject to rules 
governing fiduciaries.
    <bullet> Use of the existing payroll tax system for 
collection of contributions to personal accounts presupposes 
that employers would remit amounts to depositary banks as under 
the current system. Such deposits would continue to be made in 
gross and without allocation. Subsequent allocation to 
individual accounts would be preformed by the government agency 
specified in the statute.
    <bullet> In the first few years of a personal account 
system, the investment choices available to individuals would 
be limited, with reports of contributions and earnings made 
infrequently. Greater investment choice and more frequent 
reporting would become common as the system matured. Employer 
experience with 401(k) plans is highly analogous.
      

                                <F-dash>

    Chairman Bunning. Thank you very much. I'm going to ask one 
question and I'd like a yes or a no answer from each of the 
panelists. Do you favor retaining the status quo on Social 
Security without any options for taxpayers to invest part of 
their contributions?
    Mr. White. No, Mr. Chairman.
    Mr. Burtless. It depends.
    Chairman Bunning. It's a pretty obvious, easy question. We 
have to do it, every day. Next, Mr. Edelman.
    Mr. Edelman. No, Mr. Chairman.
    Ms. Tritch. No.
    Mr. Huard. No.
    Chairman Bunning. OK. If you're opposed to personal 
accounts, how should the system be changed to ensure its 
survival? Or should it? Dr. White.
    Mr. White. If I'm opposed? I just indicated in my 
testimony----
    Chairman Bunning. That's you're not opposed.
    Mr. White. I am not opposed.
    Chairman Bunning. So all of you think----
    Mr. Edelman. I am opposed to private savings accounts 
because I do not believe that ordinary consumers can make the 
right decisions.
    Chairman Bunning. OK. What system would you replace it with 
in order for its survival?
    Mr. Edelman. What I would suggest is that the money--that x 
percentage of the contributions be segregated and diverted into 
an equities fund. Let Congress choose what that percentage 
ought to be. The number I hear most often is 2 percent--2 
percentage points. But that money should be placed into an 
index fund, not a cap-weighted index fund, but an equalization-
weighted fund, and managed by an organization established by 
Congress so that the individual decisions of where that money 
is to be invested is up to the individual consumer.
    Chairman Bunning. OK. Then, since you are the only one who 
opposed, the same question goes to you again. What events or 
policies would you possibly change--would possibly change your 
position as far as personal investment accounts?
    Mr. Edelman. In order for me to change my position, I would 
want to see dramatic improvements in consumer education on 
personal finance. We need to begin teaching personal finance in 
schools on a mandatory basis. We need to have competency 
testing, just as we do on reading and writing and math skills. 
So that once we are convinced and assured that the ordinary 
general population is able to make intelligent, long-term 
investment decisions, I would feel much more comfortable giving 
them PSA accounts for Social Security.
    Chairman Bunning. Let me ask you the question, because it's 
going to become a reality very shortly: There's going to be 
some bills dropped in the hopper that will say to us, take part 
of the surplus and add it onto the Social Security system as we 
know it now and start a personal savings account for each 
individual that's in the Social Security system. Give me your 
thoughts on that. All right. Mr. Huard.
    Mr. Huard. I think that's the wrong approach. I think, as 
Dr. Burtless pointed out, what we have currently is a system of 
intergenerational wealth transfer. I think a far better use for 
the surplus is to fund the transition. If you divert x percent 
of the current payroll tax in the private savings accounts, you 
are not going to have enough to pay current benefits. It seems 
to me that what you need to do is divert the surplus to finance 
the transition and pay the current beneficiaries who are 
entitled to what the system has promised them.
    Because that's the real problem here in going to a system 
of personal accounts. You're going from a system where each 
retiring generation is riding on the backs of the succeeding 
generations to a system where generations are paying or 
prefunding their own retirement. Well, you've left the stranded 
generation in the middle, and I think you need to use the 
surplus to finance their benefits.
    Chairman Bunning. Anybody else want to--go ahead, Ms. 
Tritch.
    Ms. Tritch. I think that the idea of starting a newborn out 
with a retirement account of $1,000 and $500 a year as you go 
along until the child is 5 sounds good because you get a very 
graphic example of what compounding can do to a relatively 
small sum of money, but is that really the way that we want to 
be spending our money? Is that really where the priorities 
should be?
    I don't think that, by severing somehow the retirement 
savings from what someone earns during their working life, is 
necessarily going to help people in the long-run or make the 
system more understandable. So I would be opposed to starting 
out a savings account at an age that's far before someone even 
joins the work force. I also wanted to clarify my position on 
one thing. I'm not opposed to individual accounts at this point 
because I think this is a very healthy debate. As I think I 
indicated in my testimony, I don't think that individuals, by 
and large, are ready to take on this responsibility.
    Chairman Bunning. Mr. Collins to inquire.
    Mr. Collins. Thank you, Mr. Chairman. A lot has been said 
about individual accounts. Maybe I've just been mislead all my 
working life, but I thought I had an individual account at the 
Social Security Administration. I have an individual Social 
Security number and I hope somebody over there has been 
crediting my account with the moneys deducted from my payroll 
check over the last 40 years. So I'm under the assumption I do 
have an individual account.
    And Mr. Huard, I like what you talk about with the surplus 
and how to address the uses of that surplus and the shortfall 
and the liability. But I disagree with you that the problem is 
because people are living longer. That's not the problem with 
the Social Security system.
    The problem goes back to what was pointed out in the 
earlier panel. A lot of the liability is caused by the fact 
that retirees in the forties, fifties, sixties, and the 
seventies are receiving more benefits than they paid for. 
That's the flaw in the system--beneficiaries receiving or 
received more in benefits than they paid in. Now that's a 
transfer of money and under the Constitution of the United 
States, I don't believe the Congress really has the legality to 
transfer money from one individual to another. But that's what 
has happened over the years and that's the reason we need to 
straighten out these individual accounts to make sure that each 
individual understands how much they have in there and, if 
you're going to have safety nets as this was extolled under as 
a safety net, then that safety net--those funds should come 
from the General Fund, not from other people's investment into 
their Social Security account.
    That's what's wrong with the Social Security system. It's 
not that people are living longer. That's great that people are 
living longer. Many of them stay productive for years and years 
after the retirement age.
    But the problem goes back to how Congress has handled this 
in the past with the benefit program and Congress has got to 
deal with the benefit program in the future. And you have to 
deal with it from two funds: The funds that are paid by the 
individual into the Social Security accounts that are 
accredited to their account. You also have to deal with it with 
surplus General Funds, or you're going to have to cut some 
other spending somewhere else to have the General Fund because 
these promises have been made to these people. Those benefits 
have been created and established and they're going to have to 
be paid. Thank you, Mr. Chairman.
    Chairman Bunning. Thank you, Mr. Collins. I have introduced 
a bill to take the surplus and wall it off in a special 
account, and not do anything with it until we have a final 
settlement on what we want to do on Social Security.
    That does a couple of things. Now we just recycle excess 
FICA taxes out and pay for other things. We have an IOU with 
the Treasury. But if you put it in a special Treasury account 
that would be available to lower the liability and lower the 
debt, which is good, when we come up with a solution, long-term 
solution, to the Social Security system.
    Tell me what you think of that. It's not going anywhere, 
but, I mean, I put it in, but the leadership doesn't like it.
    Mr. Huard. Well, I think as a temporary, transitional 
solution, it has a lot to recommend it. One of the concerns we 
have is that the surplus is available while we're trying to 
move toward a solution of the Social Security problem and a 
reform system. As you know, we hope the reformed system will 
ultimately include personal accounts. Unfortunately, these 
surpluses are out there and Congress is tempted to use them for 
something else: Fixing the marriage penalty or spending more on 
Medicare.
    Chairman Bunning. If it's laying around, we might use it.
    Mr. Huard. Yes. So I'd certainly prefer that these 
surpluses, as you suggest, be walled off so that they are 
available. Because there is going to be a significant 
transition problem if you move to a system of personal 
accounts. I will give Dr. Burtless credit, he is quite right: 
The current money coming into the system is going right back 
out again, by and large, maybe 10 percent of it isn't. And if 
you start to divert some of that money into personal accounts, 
you've got to have another source of money to pay the promised 
benefits. I think using the surplus for that, walling it off, 
would be a fine idea.
    Chairman Bunning. Well, I look to have a solution within 
the next 2 years, so it wouldn't be a long term. It would be a 
total of about $200 billion over the next 2 years is just about 
what the surplus is going to be. But the fact of the matter is, 
there's an awful lot of people that want to spend it and do 
other things with it.
    Go ahead, Dr. White.
    Mr. White. Mr. Chairman, first, with respect to your 
statement that you hope to have a solution within 2 years: As 
my grandmother would have said, from your lips to God's ear. I 
certainly hope that is the case. However, though, in your 
terms, walling off the surplus would be a fiscally responsible 
thing to do, since it would benefit the U.S. economy by raising 
national saving, it wouldn't help fix the problems of the 
Social Security system. It doesn't do anything for the system 
because it doesn't address the pay-as-you-go nature of the 
system. When you go to fix the system in 2 years, the fact that 
you will have piled up some extra IOUs from the Treasury won't 
provide you with any extra real resources.
    Chairman Bunning. No, no, no. You missed the point. You 
can't----
    Mr. White. The economy will be a little richer----
    Chairman Bunning. You can recycle it out in new IOUs.
    Mr. White. But you're not collecting bushels of wheat or 
barrels of oil.
    Chairman Bunning. No, but you're collecting interest on the 
money.
    Mr. White. You're only getting more IOUs from the Treasury, 
Mr. Chairman.
    Chairman Bunning. OK.
    Mr. Burtless. I don't understand the proposal, because what 
you just said suggests that you would not hold this surplus in 
a form that is interest bearing.
    Chairman Bunning. You would hold it in government bonds, 
real government bonds, that are interest bearing.
    Mr. Burtless. But if the government has got bonds, then it 
has also obtained cash in exchange for those bonds. If you 
were--you're not proposing, I take it, that the Social Security 
Trust Funds just give up the interest on----
    Chairman Bunning. No, no.
    Mr. Burtless. OK. So the proposal, then, is that the 
government cannot do anything but retire outstanding public 
debt with it.
    Chairman Bunning. That's the exact----
    Mr. Burtless. I think that there is one--I agree that that 
would add to national saving and in that respect it would be a 
good thing to do. I don't think we should just try to do it in 
1 year, however. I think we should phase it in.
    Chairman Bunning. No, I think it should be until we finally 
get a settlement.
    Mr. Burtless. But there is one confusion that a lot of 
people have and that is, somehow, if they buy another kind of 
assets, like a corporate bond, the corporation is not somehow 
spending that money. But the corporation is not putting it in a 
safety deposit box. The corporation is doing something with any 
money you lend to it, too.
    Chairman Bunning. Generally, reinvesting it, yes.
    Mr. Burtless. We hope what the corporation does is a good 
thing with its money; and similarly, we hope the Federal 
Government does good things with its money. It spends it in a 
good way.
    Chairman Bunning. Anyone else?
    Mr. Edelman. Mr. Chairman, I like the idea of anything that 
provides for long-term savings that is for retirement purposes, 
which is why I have concerns over new easings of IRA withdrawal 
provisions for some home ownership or for paying for college 
and hardship withdrawals and such. Anything we do that would 
divert money from the future into today's needs is something 
that will haunt us in the future. So your notion of walling it 
off and leaving it specifically for future need can only be 
healthy. Unfortunately, it's going to take another generation 
to enjoy your benefit and does the Congress and administration 
have that vision?
    Chairman Bunning. You know, I was in the investment 
business for 25 years before I came to Congress. There is a 
great concern on the cost-to-benefit ratio in personal or 
private investment accounts. What do you think would be the 
interest rate that we'd have to arrive at to offset whatever 
costs are involved if, in fact, we pulled it completely out of 
government. In other words, into, Mr. Edelman, you'd handle all 
of the accounts for Social Security.
    Mr. Edelman. Can I? Great.
    Chairman Bunning. Yes. [Laughter.]
    What would be the cost per individual? What is your cost 
factors now?
    Mr. Edelman. Right now, it's typical to say that consumers 
are spending, on average, 1.5 percent per year in asset 
management fees.
    Chairman Bunning. One to 1.5?
    Mr. Edelman. Right, so you need to make 1 to 1.5 percent a 
year to break even. And then you've got to factor in inflation. 
That you have to do whatever inflation's doing to break even. 
And then, on a net tax environment--that's not typically an 
issue on the tax-deferred vehicle such as Social Security Trust 
Funds, but you would then have to overcome the tax liability as 
a third break even. In the private sector, it typically works 
out to 3, 4, or 5 percent, depending on the inflationary 
environment.
    Chairman Bunning. Do any of you know what it costs right 
now in a thrift savings accounts?
    Mr. Edelman. It's about $25 or $30 per worker.
    Chairman Bunning. Per year.
    Mr. Edelman. Per year. Per year. Now you divide that number 
into the amount of money the typical worker is putting into the 
account, and it works out to about a 4- or 4.5-percent cost.
    Chairman Bunning. Four to 4.5, so it's----
    Mr. Edelman. It depends--if you were to aggregate----
    Chairman Bunning. I'm sure it's higher than a private 
investment----
    Mr. Edelman. As a share of new contributions, not on the 
total value, but as a share of the money going in. Call it like 
a front-end load in a mutual fund, 4 or 4.5 percent.
    Chairman Bunning. Generally, thrift savings money that we 
in the Federal Government or most people put in is nontaxed 
going in but only taxed coming out. So there would be no cost 
going in, it would be only on the back end of it that you would 
pay taxes.
    Mr. Edelman. And you have inflation to deal with.
    Chairman Bunning. I want to thank you all for being here. 
We want to submit other questions to you for your written 
response. Thank you. We appreciate your testimony.
    Mr. White. Thank you, Mr. Chairman.
    Mr. Edelman. Thank you.
    Chairman Bunning. The Subcommittee stands adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned, 
subject to the call of the Chair.]
    [Submissions for the record follow:]

Statement of Stephen J. Entin, Executive Director and Chief Economist, 
Institute for Research on the Economics of Taxation

        Distorted Picture of Three Social Security Reform Plans

    At the request of Representative Charles Rangel (D-NY), the 
Congressional Research Service prepared and released a 
narrowly-targeted study comparing reductions in Social Security 
benefit outlays that would occur under three proposals to 
reform the Social Security System. (``Benefit Analysis of Three 
Recent Social Security Reform Proposals,'' David Koitz, June 
16, 1998.) The Congressman's staff specified that the study 
examine only the benefit reductions, omitting other features of 
the plans from the analysis. This has led to a distorted 
picture of the relative impact of the plans on workers and 
retirees.
    The Ball plan, recommended by part of the 1995 Social 
Security Advisory Council, would trim benefits modestly. It 
would avoid deeper benefit cuts by increasing income taxation 
of benefits (another form of benefit cut), raising the amount 
of income subject to the payroll tax, and investing some of the 
trust fund in the stock market. The Moynihan-Kerrey bill would 
trim benefits more deeply; it would initially cut the payroll 
tax 2 percentage points (although raising it in distant 
decades) and encourage people to save up to 2 percent of 
payroll, which they could then invest in the securities of 
their choice. The National Commission on Retirement Policy 
would cut the payroll tax by 2 percentage points and mandate 
that the money be placed in personal saving accounts in 
exchange for deeper cuts in Social Security benefits; the 
expected returns on the accounts would more than offset the 
additional reductions in direct benefit payments under any 
sensible projection, and leave retirees better off than 
patching the current system.
    Comparing the effects of the Ball plan and the two plans 
with personal saving accounts requires looking, in each case, 
at all the taxes individuals must pay and the combined 
retirement benefits they would receive from Social Security and 
the personal savings. Looking only at the change in the level 
of benefits paid by the government and ignoring the replacement 
income provided by the personal saving accounts presents a 
highly distorted and one-sided picture of the outcome of the 
reforms for individuals. In effect, it is a half-truth, a cost-
benefit analysis that looks only at the costs and ignores the 
benefits.
    CRS complied with the specification of the request, but 
took great pains to warn, in the first paragraph, that it 
results in a partial analysis:
    ``As your staff specified, the analysis is confined to the 
potential reductions in Social Security benefits prescribed by 
various provisions of the three reform packages. Accordingly, 
the memorandum does not examine the impact of the changes in 
payroll taxes included in the packages, the potential benefits 
or annuities that may result from the ``personal savings'' 
components of the packages, nor ... [where applicable] ... the 
elimination of the Social Security retirement earnings test. 
Analysis of all of these would be necessary to gauge the full 
effects of the three plans on the national economy and 
individual retirement income.''
    The aging population will guarantee that workers will get 
extremely low yields on the pay-as-you-go Social Security 
System in the future. By contrast, there has been no extended 
period of time in the Nation's economic history when returns on 
private sector saving and investment did not exceed these 
projected Social Security System returns. Other things equal, 
plans with personal saving accounts can provide higher 
retirement incomes at less cost to future workers than any mere 
patch job to the current system.
    The Moynihan-Kerrey bill and the NCRP plans have their own 
strengths and weaknesses, and neither goes far enough to take 
advantage of the full benefits of personal saving. Nonetheless, 
to judge the relative merits of these plans vis-a-vis the Ball 
proposal solely on the basis of the amount of Social Security 
benefit reductions they provide is not fair and not 
informative.
      

                                <F-dash>

                             Milliman & Robertson, Inc.    
                    Actuaries and Consultants, New York, NY
                                                      June 15, 1998

A. L. Singleton
Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, DC 20515

    Dear Mr. Singleton:

    Milliman & Robertson, Inc. (M&R) hereby submits the enclosed as our 
written statement for the printed record of the June 18, 1998 hearing 
of the Subcommittee on Social Security.
    M&R conducted an analysis of a Social Security personal savings 
account proposal on our own behalf and we are pleased to share our 
findings with the Subcommittee, other Members of Congress, and the 
public. In conducting our study, we developed a computer simulation 
model that can be modified to analyze other options.
    Our study examined the Social Security Advisory Council's proposal 
to partially privatize Social Security through personal savings 
accounts (PSAs). We used a stochastic model to show the probability of 
various results vis-a-vis current Social Security. We found that there 
is great variability in potential results under PSAs compared with the 
benefits that would be paid under the current Social Security program. 
Typical wage earners, in particular, have a significant chance of 
receiving less than current Social Security, and conservative investors 
are likely to do much worse than the current system.
    For your information, M&R is a national firm of actuaries and 
consultants, with offices in 26 U.S. cities and in Bermuda and Japan, 
serving the full spectrum of business, governmental, and financial 
organizations. Internationally, M&R is the U.S. and Japanese member of 
the Woodrow Milliman network, a formal alliance of leading independent 
actuarial and consulting firms operating in more than 100 offices in 31 
countries throughout the world.
    Please do not hesitate to contact me if you have any questions 
about our study or if we can be of any assistance in your efforts to 
study Social Security reform options.

            Sincerely,
                                 Michael J. Mahoney, F.S.A.
      

                                <F-dash>

Privatizing Social Security: Expected Benefits Come with Uncertainty

by Gerald Cole,\1\ LL.B., Peter R. Hardcastle, F.I.A., and Stephen A. 
White, F.S.A.

    The national debate on how best to ``save'' Social Security 
has begun in earnest. President Clinton is holding town 
meetings throughout the U.S., key congressional leaders have 
expressed their desire for Congress to tackle the issue now, 
and numerous bills have been introduced. The debate centers 
around two competing approaches to the problem. One would 
partially or fully privatize Social Security by creating 
individual accounts, while the other would modify the present 
system to restore actuarial soundness. The results of the 
debate will profoundly affect how future generations achieve 
retirement security.
---------------------------------------------------------------------------
    \1\ Gerry Cole is a special counsel in M&R's Washington, D.C.-based 
Employee Benefits Research Group; Peter Hardcastle is a consulting 
actuary in the Washington, D.C. office; and Steve White is a consulting 
actuary in the Seattle office.
---------------------------------------------------------------------------
    Social Security needs to be ``saved'' because of changes in 
the make-up of the U.S. population. Under the current system, 
retiree benefits are funded directly from payroll taxes, on a 
pay-as-you-go basis. While each retiree under the system is 
supported by three workers today, by the middle of the next 
century, each retiree will be supported by about two workers.
    There are two main premises to the individual account 
argument. First, the system should be prefunded, with 
contributions invested in financial assets that produce a 
higher rate of return than that inherent in the current system. 
Second, the government should not invest in equities, which are 
the primary source of greater investment returns. Therefore, 
the only way to take advantage of the greater rates of return 
offered by equities is to create individual accounts.
    To contribute to the discussion, we analyzed the effects 
the individual account approach would have on different 
workers. We specifically examined the personal security account 
(PSA) proposal advocated by several members of the most recent 
Social Security Advisory Council (SSAC). Issues raised by this 
PSA proposal also apply to other privatization options.
    Our analysis shows that moving from the current Social 
Security system to individual accounts under the PSA proposal 
is likely to improve retirement benefits for many workers. Such 
a system, however, entails the risk of considerable variability 
in the level of potential retirement benefits. We found that in 
many cases, the retirement benefits of typical workers would be 
worse under the PSA option than under the current system. Not 
surprisingly, high-paid workers fare better than typical-wage 
workers. Single workers and two-earner households also fare 
better than single-earner households do.
    The PSA proposal also brings risk to the economy as a whole 
as vast sums of money are borrowed to finance the transition to 
a funded retirement system. The end result could be positive if 
most workers are better off at retirement and if the final 
system is less influenced by political considerations and 
demographic trends. Policymakers must recognize at the outset, 
however, that results for individuals and for our economy are 
far from certain.

                      The Social Security Problem

    The most recent projections show the Social Security trust 
fund exhausted by the year 2032, with payroll taxes beyond that 
point sufficient to pay only about 75% of the benefits promised 
under the current system. The importance of Social Security as 
the bedrock of retirement security is not in doubt. For nearly 
60% of the country's current retirees, Social Security is a 
major source of income. Even among current workers, who expect 
to receive less than their parents and grandparents under 
Social Security, 22% believe the program will provide a major 
source of their retirement income and another 52% believe it 
will be a source.
    The nation's demographics will make providing current-
program benefits over the long term unaffordable at today's 
contribution rates. The demographic time bomb is caused by 
three significant factors: increased life expectancy, the large 
cohort of aging baby boomers, and the reduction in U.S. birth 
rates.
    This dramatic demographic shift means that there is a 
critical economic fact underlying the Social Security debate. 
The increase in the retiree population will trigger a shift of 
consumption from the working population to the retired 
population. Regardless of how this is funded by individual 
accounts or by increased taxes the result is a zero-sum game 
unless the reforms chosen for Social Security or changes 
elsewhere in government policy increase the rate of economic 
growth.

                             The PSA Option

    The PSA proposal supported by five of the 13 SSAC members 
would change the current system from one in which each worker 
receives a guaranteed lifetime benefit with automatic cost-of-
living increases to a new system in which each worker would 
have an individual account. Five percent of each worker's pay 
would be redirected from Social Security taxes (under the 
Federal Insurance Contributions Act, or FICA) into the new 
accounts. Ultimately, retirement income would consist of a 
guaranteed base benefit of $410 (in 1996 dollars) plus the 
amount accumulated in the individual account.
    The transition to the PSA plan will require additional 
financing because current Social Security obligations must be 
funded from another source if 5% of current FICA taxes is 
diverted to individual accounts. The PSA plan thus calls for a 
1.52% increase in payroll taxes over a 72-year period to meet 
this transition cost. In the short term, this increase will 
still be insufficient to meet current obligations, so the 
proposal requires additional federal borrowing that will peak 
at $1.9 trillion (in 1995 dollars). Initially, the additional 
borrowing is equal to a 3.5% payroll tax (5% minus 1.52%). The 
annual borrowing declines over time, and the debt is retired in 
the latter part of the 72-year period.
    The selling point of the PSA proposal is the assumption 
that it improves the rate of return on workers' contributions 
to the system, thereby making Social Security a ``better 
deal.'' In its analysis, the SSAC assumed that the accounts 
annually earned the historical average rate of return on their 
investments. Thus, the portion of the portfolio invested in 
equities was assumed to earn a steady 7% real rate of return 
(i.e., after taking into account the effects of inflation 
reducing the worth of money) each and every year. But this type 
of analysis does not measure the probability of investments 
actually earning the stipulated rate of return. First, returns 
that average 7% might not produce equivalent results due to the 
timing of the returns. Four years of 15% returns followed by 
one year of a 25% loss does not yield the same balance as five 
years of 7% returns, even though both accounts can be said to 
have averaged 7% over the five-year period. Second, there is no 
guarantee that equity real returns will average 7% in the 
future, particularly for any specific period of time.

                             M&R's Analysis

    To quantify the potential variability of benefits under the 
PSA proposal, we calculated and compared probability 
distributions for total PSA benefits and for current Social 
Security benefits. Exhibit 1 is a compilation of our study's 
results. In our analysis, the PSA benefits are fully phased in; 
that is, the transition period is not considered. Benefits are 
compared with the current Social Security program without 
changes. Because the current program is not balanced over the 
long term, we recognized that today's payroll taxes would have 
to be raised by roughly 2% to make this a valid comparison.
    Our analysis took into account the following factors:

Income Level

    Typical-wage earner--one who at age 23 earns 73% of the 
average wage of worker covered by Social Security and whose 
earnings rise to 106% of average wages at age 39 and continue 
at that level until retirement.
    High-wage earner--one who always earns more than the Social 
Security taxable wage base.

Family Status

    Single (unmarried) worker.
    Worker with a nonworking spouse (or a spouse whose work 
history is sporadic).
    Two-working spouse family. In the case of the typical-wage 
two-worker family, we assumed that one earned 80% of the 
primary wage earner.
Asset Allocation

    100% equities.
    100% bonds.
    50% equities and 50% bonds.

Expected Financial Returns

    Projected returns for stocks and bonds were generated from 
historical expected returns and standard deviations. We also 
modeled the returns on equities under the following two 
assumptions:
    Investment expenses reduce the gross real rate of return by 
1%. This is in line with the 401(k) plan experience.
    Expected returns are reduced by an additional 1%, so that 
the expected net real rates of return are 2% lower than the 
gross historical rates. This scenario illustrates how results 
might change if future equity returns are lower over time than 
historical averages.
    Our analysis compares the value of the benefits at normal 
retirement age. For this purpose, the value of the PSA account 
balance is simply the accumulated balance at retirement. To 
calculate the value of monthly Social Security benefits from 
the current system, as well as the flat PSA monthly benefit, we 
used an annuity factor based on a realized interest rate (or 
rate in excess of inflation and expenses of paying annuities) 
of 2.75%. A real rate is appropriate because benefits are 
increased with inflation and the rate used is consistent with 
historical averages of real returns on bonds.
    Other assumptions we made are explained with Exhibit 1. For 
each sample worker, results are stated for five percentiles, 
ranging from the 10th to the 90th percentile. The 50th 
percentile represents the median: half of the time the worker/
family would receive more, and half of the time less, than the 
amount shown.

                           Summary of Results

The Typical-Wage Worker

    In our most optimistic scenario, a typical-wage two-worker family 
that invested entirely in equities and that realized returns consistent 
with historical returns has a 50% chance of receiving at least 50% more 
in benefits under the PSA arrangement than under the current Social 
Security program. This same family has less than a 25% chance of 
receiving less than the current Social Security benefit and a 25% 
chance of receiving 235% or more than the current Social Security 
benefit.
    On the other hand, if this same family invests solely in bonds, the 
expected results are shockingly different. The median benefit is only 
86% of current Social Security, with a 25% chance of receiving 78% or 
less and a 25% chance of receiving 97% or more of the current Social 
Security benefit. Investing half of the account in equities improves 
the results to a median of 113% of Social Security using historical 
assumptions, with a 25% chance of receiving less than 95% and a 25% 
chance of receiving at least 142%. If the spouse is nonworking, the 
results are much worse. If the account of the worker with a nonworking 
spouse is invested 50% in bonds and 50% in equities, the median is 89% 
of current Social Security.

The High-Wage Worker

    For the high-wage earner, the PSA proposal yields better results, 
but again the expected benefits will be less than under current Social 
Security if the PSA is invested only in fixed-income instruments. The 
median result for a family of two high-wage earners invested 100% in 
equities is approximately twice the level of current Social Security 
benefits. If the allocation is 50% equities and 50% bonds, the median 
benefit is 36% greater than Social Security.

Winners, Losers, and Uncertainty

    Not surprisingly, PSA comparisons look better for high-wage earners 
than typical-wage earners. The results also illustrate the following:
    The allocation to equities is a critical factor in the comparison. 
Projected PSA benefits are much better with a 100% equity allocation, 
but are generally worse than the current system with a 100% bond 
allocation.
    Projected PSA benefits for single workers are very consistent with 
those for two-earner families, particularly in the typical-wage 
category.
    Projected PSA benefits for one-earner families are less favorable 
than results for single workers and two-earner families because of the 
subsidy in the current Social Security system for nonworking spouses.
    For accounts fully invested in equities, an additional 1% reduction 
in the expected equity return has a significant effect on projected 
benefits, with median results roughly 10% 20% lower than without the 
reduction.
    More than anything, however, the projections illustrate the 
variability in expected results under the PSA system. Under a 50/50 
stock/bond allocation, projected results for the typical-wage two-
earner family range from 84% of the current system at the 10th 
percentile to 190% at the 90th percentile. Relative to the current 
system, the volatility in this scenario is mostly positive. But even 
upside volatility has some disadvantages. Generally, a retiree who 
receives 25% more than under the current system would gladly accept the 
change; however, that same retiree would still be disappointed if he or 
she had anticipated even higher benefits five years earlier and then 
experienced a market downturn.
    Experience with employer-sponsored defined contribution retirement 
plans tells us that individual accounts have unpredictable benefits. 
Although this variability is a concern with such plans, the problem 
becomes magnified for Social Security. For participants in 401(k) 
plans, the individual account provides a retirement benefit on top of 
the Social Security foundation. Many employees also are covered by a 
defined benefit pension plan. Having a Social Security base allows 
workers to take more risks and accept more variability in their 
individual accounts. If a large part of the Social Security benefit is 
provided through individual accounts, the variability in total 
retirement benefits becomes much greater. And for the large part of the 
population that retires with nothing but Social Security, variability 
in account balances will be very unsettling.
    The other big risk, and one that is not reflected in our analysis, 
is individual mortality risk. Under the current system, Social Security 
benefits are guaranteed for life, but under an individual account 
system, individuals run the risk that they will outlive their account 
balance. This risk can be managed by requiring individuals to purchase 
an annuity at retirement or by restricting the rate at which retirees 
can withdraw money from their individual accounts, but these will not 
be popular options. Both the mortality risk and the investment risk 
point to potential disadvantages of the PSA option relative to the 
defined benefit nature of the current system.
    Our analysis illustrates the individual risks incorporated in the 
PSA option. Nonetheless, projected benefit comparisons look favorable 
for most cases, and many workers would trade some amount of risk for 
higher expected benefits. Our numerical analysis tells only part of the 
story, though. A complete analysis must also address macroeconomic 
issues that relate to the underlying investment return assumptions, as 
well as the impact of Social Security privatization on the economy as a 
whole.

                     The Drivers of Higher Returns

    There is a basic concept at the core of all privatization 
proposals: fund Social Security obligations in advance and 
invest the contributions privately in stocks and bonds to earn 
higher rates of return than those implicit in the current 
Social Security system. In a pure pay-as-you-go system, in 
which a portion of workers' pay is transferred to retirees each 
month, the aggregate real rate of return on contributions over 
time will equal the real growth in wages. The SSAC assumed real 
wages will grow at 1.5% per year. This rate, combined with the 
oncoming demographic changes, results in a low aggregate rate 
of return for the current system. Add to this the fact that the 
current Social Security benefit formula favors lower-paid 
workers, it is not surprising that projected real return rates 
for higher-paid workers are negative.
    Financial assets, on the other hand, have historically 
produced much higher returns. The SSAC assumed future real 
returns for invested assets would be 7% for equities and 2.3% 
for fixed income, assumptions that are consistent with 
historical returns. Using these assumptions, the path to 
increasing returns for Social Security appears clear. Projected 
returns will be higher as prefunding increases, particularly as 
more of this prefunding is invested in equities.

                      A Bigger Picture to Consider

    If Social Security is considered in the same terms as a 
private pension plan, the case for prefunding and investing in 
equities seems obvious. Prefunding has certainly lowered the 
long-term costs of private pension plans, and aggressive 
allocation of the assets in equities has resulted in lower 
costs and/or higher benefits in the long run. But because 
Social Security is not a private pension plan, nor was it 
designed to be one, there is a need to step back and look at 
the big picture.
    The central problem facing the current system is the aging 
of the population. Prefunding or investing in equities will not 
prevent the population from aging. Regardless of how much 
people save or invest in equities, more of society's resources 
will be dedicated to retirees. Prefunding merely dictates how 
assets are transferred to retirees (e.g., dividends instead of 
taxes); there will still be one group that is working and one 
that is not.
    In this aggregate sense, changes in Social Security can 
help to meet the retirement needs of society as a whole only to 
the extent they expand the economy and thereby enlarge the 
amount of total resources available for everyone, including the 
aged population. Thus, prefunding Social Security can be 
beneficial only if it increases the overall rate of national 
savings and only if the higher savings lead to economic growth.

Increased Savings

    There is no magic to increasing savings. For society as a 
whole, just like for individuals, savings require sacrifices. 
For Social Security, this means taxes must be increased and/or 
benefits must be reduced and these actions must not be offset 
elsewhere in the economy (i.e., additional contributions to 
Social Security must not lead to reduced savings outside of 
Social Security).
    The PSA proposal incorporates a plan for ``additional 
savings,'' but on a fairly limited basis. On the surface, the 
5% contribution to individual PSAs appears to be additional 
savings, but this is a redirection of contributions that is 
partially funded by the additional borrowing by the federal 
government. The actual increase to savings in the short term is 
equal to the 1.5% net increase in taxes.
    The call for this small ``additional savings'' increase 
under the PSA proposal is not surprising. Contribution 
increases and benefit decreases are difficult political issues. 
These are the only options, however, if the nation wants to 
move toward a more prefunded Social Security that can generate 
better returns.

Economic Growth

    Most economists agree that additional savings will increase 
economic growth by increasing investment. Having more resources 
can lead to business creation and expansion. One way of 
increasing savings available for investment is to reduce 
government borrowing to finance current operations. The 
Congressional Budget Office, for example, projects that 
balancing the budget and keeping it in balance, thereby 
increasing the availability of capital to the private sectors, 
would result in a 12% increase in per capita gross national 
product (GNP) by 2030. Simply maintaining the ratio of the 
deficit to GNP would still yield a 10% increase in per capita 
GNP.
    Even with increased savings, however, there is no guarantee 
of economic growth. Moreover, there is no guarantee that the 
additional investments will be used as efficiently as current 
investments are. To the extent that additional savings merely 
serve to bid up the prices of current stocks, nothing will have 
been accomplished except to increase the rates of returns on 
equities in the short term and set them up for disappointing 
long-term returns when the savings are withdrawn to pay for 
retirement. The additional savings also might be used to fund 
marginal business enterprises that would otherwise not receive 
capital and would very likely be less profitable than other 
businesses.

Allocation in Equities

    In all privatization proposals, estimated rates of returns 
are higher as the proportion of savings allocated to equities 
increases. Certainly this is borne out in our analysis. Based 
on historical returns for equities, this is a reasonable 
conclusion. The cumulative result is less obvious, however, 
when looking at the big picture.
    In the PSA proposal, the money to invest in equities is 
financed in large part through increased government borrowing. 
This leveraging may produce higher Social Security rates of 
returns at the expense of returns on other investments. More 
borrowing will likely drive up interest rates, increasing the 
cost of government and business investment. The end result 
could be improvements for the Social Security system but a zero 
= sum gain for society as a whole.
    We must also consider whether equity returns will suffer if 
the supply of investment options cannot keep up with the demand 
from investors. Mutual fund money continues to pour into 
equities, and pension fund allocations to equities are 
increasing rather than decreasing. If Social Security 
contributions are added to the mix, will we have too much of a 
good thing, particularly when the baby boomers start to sell 
retirement assets? If the answer is no, then the projected 
benefits of the PSA proposal would likely come to pass. But if 
the answer is yes, then the result could be disappointment for 
individuals counting on their PSAs to provide them a secure 
retirement.

                      Risk, Returns, and Sacrifice

    If the nation commits to the additional taxes and borrowing 
in the PSA proposal, if historical return assumptions are borne 
out over time, and if the changes do not adversely affect other 
areas, then the PSA proposal can provide advantages over the 
current system. In the long term, funding retirement benefits 
at a lower cost level may be possible under the PSA option if 
individuals make a major commitment to equities. Even then, if 
the economy experiences a prolonged bear market, such as that 
which occurred during the 1970s, some participants may end up 
worse off at retirement than under the current Social Security 
system.
    Policymakers need to remember that Social Security 
privatization cannot be done in isolation. There is a need to 
study the implications on larger and more complex questions:
    What are the economic effects of the additional government 
debt that will be required to fund the transition?
    How will long-term equity returns be affected by a large 
influx of money generated by Social Security privatization?
    How will the demographic changes ahead (more retirees, 
fewer workers) affect financial investment returns?
    These questions cannot be answered definitively, but they 
illustrate the fact that privatization brings added economic 
riskas well as potential rewardsand that these risks have 
implications beyond the Social Security system alone.

                               Conclusion

    Privatizing Social Security may be a success for many 
people, but is not the panacea some have made it out to be. 
Average-wage earners, who have historically had a low tolerance 
for risky investments, may well end up worse off than under the 
current system. As Social Security is moved from a pay-as-you-
go to a prefunded system, one generation must ``pay twice'' to 
fund the benefits for the prior generation as well as its own. 
Whether the sacrifice is worthwhile will depend on whether 
additional growth is generated. Mere asset price inflation, 
while satisfying for the present, does not mean that true gains 
in GDP wealth are realized. In time, such asset price inflation 
may spill over into general inflation, undoing the benefits of 
buying capital assets in the first place. Only production can 
be consumed, investment does not cure the demographic problem.
    We studied the PSA proposal as one of many privatization 
approaches still to come. The PSA option calls for a mild 
direct sacrifice, reflected in the additional payroll tax of 
1.52%. By incorporating government borrowing, the 1.52% tax 
extends for 72 years, effectively spreading the transition 
period over two working generations. But the effect of the 
massive additional federal borrowing is not reflected under the 
PSA proposal. Will this additional debt retard economic growth? 
If so, then the PSA proposal will not achieve its goals.
    Other proposed privatization changes include no tax 
increases. Higher levels of federal debt and more money 
invested in equities are postulated to solve the imbalance. But 
the result will be less sacrifice and more risk. The complex 
questions raised above become magnified.
    We can recognize these tradeoffs in all privatization 
proposals. Proposals with less risk must entail large tax 
increases to pay for the transition. By contrast, proposals 
with little or no transition pain must assume greater risks, 
particularly if they are centered on a large scale borrowing to 
invest in the equity market.
    Perhaps the best solution for Social Security is to 
increase economic output so that the nation can allocate more 
to retirees and still maintain workers' standards of living. 
Even this result, however, might not eliminate the 
intergenerational battles as workers resist having the 
productivity gains of their generation devoted to maintaining 
the standard of living for a growing retiree population. 
Clearly, Social Security is headed for major problems if we do 
nothing. There will be no easy solutions.
      

                                <F-dash>

PSAs Risky for the Average Joe and Josephine

    To measure the investment variability of the PSA proposal, 
we created a computer model that generated rates of return for 
equities and bonds using historical probabilities. Our model 
can be adapted to analyze other reform proposals. The computer 
ran the model 1,000 times (that's like throwing dice 1,000 
times and keeping track of each result). The results were then 
ranked from lowest to highest. This allowed us to determine 
what percentage of the time a given return would be realized. 
We then expressed the results as a percentage of the benefit 
the participant would have received under the current Social 
Security program.
    We tested the effect of a fully phased-in PSA proposal so 
that none of the benefits would be based on the current system. 
We then looked at two different wage earners, a typical-wage 
earner and a high-wage earner. We also studied situations in 
which the wage earner was single and situations in which the 
wage earner was married with a nonworking spouse or married 
with a working spouse. We analyzed the results for three 
different investment portfolios: 100% equities; 100% fixed 
income; and 50% equities and 50% fixed income.
    As Exhibit 1 illustrates, we found that married workers 
with nonworking spouses with typical earnings patterns have 
only a 25% chance of receiving slightly more than they would 
get from current Social Security if they were invested equally 
in stocks and bonds. The median result for this couple was 89% 
of current Social Security. If we further assume that the 
average real rate of return on stocks is 1% lower than the 
historical average, these families have a 50% chance of 
receiving 85% or less of the current Social Security benefit. 
If that couple invested very conservatively and kept all its 
money in bonds, expected benefits ranged from a low of 62% of 
current Social Security to a high of 86% of current Social 
Security. This demonstrates the critical importance of 
substantial exposure to equities to have even a chance of 
financially coming out ahead.
    By contrast, under the more conservative assumptions about 
returns on equities, the two-earner family that invested 
equally in equities and bonds had a 75% chance of receiving at 
least 90% of current Social Security benefits and a 50% chance 
of receiving 106% or more than current Social Security 
benefits. Once again though, if the two-earner family kept all 
of its investments in bonds, it had 75% chance of receiving 
less than current Social Security. As expected, the high-wage 
earner group did even better because of the current Social 
Security system's bias toward benefits for lower-wage earners.
      

                                <F-dash>


                     Exhibit 1: Expected Returns under the PSA Proposal vs. Social Security
----------------------------------------------------------------------------------------------------------------
                                                                     Asset Allocation \1\
                                             -------------------------------------------------------------------
                                  Percentile                      Equities                          Equities \2\
                                              Equities    Bonds    & Bonds  Equities \2\    Bonds      & Bonds
----------------------------------------------------------------------------------------------------------------
                                  ..........      100%      100%   50%/50%        100%        100%     50%/50%
----------------------------------------------------------------------------------------------------------------
PSA Returns as a percentage of
 Current Social Security
 Benefits
  Typical-Wage Earner
        Single                          10%        86%       71%       84%         79%         71%         81%
                                        25%   \3\ 108%       78%       96%         95%         78%         91%
                                    \4\ 50%   \3\ \4\    \4\ 86%  \3\ \4\   \3\ \4\ 131%   \4\ 86%  \3\ \4\ 108%
                                                  156%                116%
                                        75%   \3\ 251%       98%  \3\ 148%    \3\ 206%         98%    \3\ 136%
                                        90%   \3\ 444%  \3\ 111%  \3\ 199%    \3\ 342%    \3\ 111%    \3\ 181%
        Married, with Nonworking        10%        71%       62%       70%         66%         62%         67%
         Spouse
                                        25%        85%       66%       77%         77%         66%         74%
                                    \4\ 50%   \3\ \4\    \4\ 71%   \4\ 89%     \4\ 98%     \4\ 71%     \4\ 85%
                                                  114%
                                        75%   \3\ 172%       78%  \3\ 109%    \3\ 144%         78%    \3\ 102%
                                        90%   \3\ 290%       86%  \3\ 140%    \3\ 227%         86%    \3\ 129%
        Married, Both Working           10%        85%       72%       84%         78%         72%         80%
                                        25%   \3\ 105%       78%       95%         94%         78%         90%
                                    \4\ 50%   \3\ \4\    \4\ 86%  \3\ \4\   \3\ \4\ 127%   \4\ 86%  \3\ \4\ 106%
                                                  149%                113%
                                        75%   \3\ 237%       97%  \3\ 142%    \3\ 194%         97%    \3\ 132%
                                        90%   \3\ 412%  \3\ 109%  \3\ 190%    \3\ 317%    \3\ 109%    \3\ 173%
----------------------------------------------------------------------------------------------------------------
  High-Wage Earner
        Single                          10%        91%       67%       88%         79%         67%         82%
                                        25%   \3\ 128%       77%  \3\ 109%    \3\ 107%         77%    \3\ 100%
                                    \4\ 50%   \3\ \4\    \4\ 90%  \3\ \4\   \3\ \4\ 165%   \4\ 90%  \3\ \4\ 128%
                                                  207%                141%
                                        75%   \3\ 363%  \3\ 110%  \3\ 192%    \3\ 282%    \3\ 110%    \3\ 172%
                                        90%   \3\ 700%  \3\ 132%  \3\ 276%    \3\ 527%    \3\ 132%    \3\ 245%
        Married, with Nonworking        10%        68%       53%       66%         60%         53%         62%
         Spouse
                                        25%        90%       59%       78%         77%         59%         73%
                                    \4\ 50%   \3\ \4\    \4\ 67%   \4\ 98%  \3\ \4\ 113%   \4\ 67%     \4\ 90%
                                                  138%
                                        75%   \3\ 234%       79%  \3\ 129%    \3\ 184%         79%    \3\ 117%
                                        90%   \3\ 440%       92%  \3\ 181%    \3\ 334%         92%    \3\ 162%
        Married, Both Working           10%        88%       65%       85%         76%         65%         79%
                                        25%   \3\ 123%       75%  \3\ 105%    \3\ 102%         75%         97%
                                    \4\ 50%   \3\ \4\    \4\ 87%  \3\ \4\   \3\ \4\ 159%   \4\ 87%  \3\ \4\ 123%
                                                  198%                136%
                                        75%   \3\ 348%  \3\ 106%  \3\ 183%    \3\ 271%    \3\ 106%    \3\ 165%
                                        90%   \3\ 675%  \3\ 126%  \3\ 265%    \3\ 501%    \3\ 126%   \3\ 235%
----------------------------------------------------------------------------------------------------------------
\1\ Assumes expenses of 1.0% for equity investments and 0.5% for bond investments.
\2\ Assumes average equity returns are 1% lower than the historical average.
\3\ Wage earners who can be expected to receive benefits under the PSA proposal that are equal to or greater
  than under an unchanged Social Security program.
\4\ Median.

      

                                <F-dash>

PSA Projection Assumptions

                          Sample Participants

    <bullet> Born in 1976, entering workforce in 1998, with PSA 
changes fully phased-in in 1998
    <bullet> Typical-wage earner
    --Earnings at age 22 equal 70% of national average wage, 
increasing gradually to 100% of national average wage at age 33 
and 106% of national average wage at age 39; earnings remain at 
106% of national average wage until retirement
    --Spouse earnings equal to 80% of earnings for primary 
wage-earner
    <bullet> High-wage earner
    --Earnings at or above Social Security wage base for all 
years
    --Spouse earnings at or above Social Security wage base for 
all years

                              Unemployment

    <bullet> Probability of unemployment reflected each year, 
with average unemployment of 6.0%
    <bullet> Additional maternity unemployment of 5.0% for 
spouse earnings up to age 35

                        Gross Investment Returns

    <bullet> Equity real returns:
    --expected return 6.0% and 7.0%
    --standard deviation 19.7%
    <bullet> Fixed real returns:
    --expected return 2.3%
    --standard deviation 9.5%
    <bullet> Correlation coefficient between equity real 
returns and fixed real returns: .31

                          Investment Expenses

    <bullet> Equities: 1.0%
    <bullet> Fixed: .5%

                               Inflation

    <bullet> Mean: 3.6%
    <bullet> Standard deviation: 4.1%
    <bullet> Serial correlation: .54

                             Wage Increases

    <bullet> Annual increase in national average wages: 1.5%

    Annuity Conversion to Compare PSA Balances with Annual Annuities

    <bullet> Real interest rate: 2.75%
    <bullet> Mortality: UP94 mortality table developed by the 
Society of Actuaries, projected forward with projection scale 
AA. (Note: This mortality table projects longer lifetimes than 
the Social Security ``best estimate'' mortality assumption, 
which many actuaries view as overly optimistic. Using the 
Social Security assumption increases the relative value of PSA 
benefits by about 5%.)

    [Additional attachments are being retained in the Committee 
files.]

                                   - 

</pre></body></html>
